IG’s Message for the Secretary


                                                            UNITED STATES DEPARTMENT OF COMMERCE
                                                            The Inspector General
                                                            Washington, D.C. 20230


  April 30, 2001

  The Honorable Donald L. Evans
  Secretary of Commerce
  Washington, DC 20230

  Mr. Secretary:

  I am pleased to provide you with the Office of Inspector General’s semiannual report to the Congress
  for the first half of fiscal year 2001. Section 5 of the Inspector General Act requires that you transmit
  this report, with any comments you may wish to add, to the appropriate congressional committees
  within 30 days of its receipt.

  In your initial months as Secretary, I’m sure you have been impressed by the breadth of the Depart-
  ment’s important missions and the variety of the issues confronting its managers. This diversity is
  clearly reflected in our discussion of what we view as the major challenges facing the Department.

  Some of the challenges, such as those dealing with export controls, the decennial census, and fishery
  management, primarily involve one Commerce operating unit. Others, like those related to financial
  management, information security, and acquisition reform, cut across operating units. But these
  challenges all have something in common; namely, that they will be met only through strong leadership
  and a commitment to cooperative action by the Department, the operating units, the OIG, and other
  stakeholders.

  I look forward to working with you and your senior managers to address these challenges and the
  many other issues facing the Department. I am confident that through a sustained, coordinated effort,
  we can continue to make substantial improvements in Commerce operations.

                                                   Sincerely,



                                                   Johnnie E. Frazier




Commerce OIG Semiannual Report                          i                                              March 2001
                                                                                                                                                                                                                                                  Table of Contents

         IG’S MESSAGE FOR THE CONGRESS                                                                                                                    ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○               ○           ○           ○               ○           ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○1
             Foreword ○   ○   ○   ○   ○   ○   ○       ○       ○       ○       ○       ○           ○       ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○               ○           ○           ○               ○           ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○1
             Major Challenges for the Department                                                                                              ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○               ○           ○           ○               ○           ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○2
                Successfully implement a Department-wide financial management system                                                                                                                                                                                                                                                                                                                                              ○               ○           ○           ○           ○           ○           ○           ○           ○           ○3
                Strengthen Department-wide information security                                                                                                                                                                               ○           ○           ○               ○           ○               ○           ○           ○               ○           ○               ○           ○               ○               ○           ○           ○               ○           ○           ○           ○           ○           ○           ○4
                Successfully implement USPTO’s transition to a performance-oriented organization                                                                                                                                                                                                                                                                                                                                                                                                  ○           ○           ○           ○           ○
                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                                   5
                 Increase the accuracy and control the cost of the 2000 Decenial Census                                                                                                                                                                                                                                                                                                                               ○           ○               ○           ○           ○           ○           ○           ○           ○           ○           ○6
                Address the issues related to NTIS’s mission and financial viability                                                                                                                                                                                                                                                                                  ○           ○               ○               ○           ○               ○           ○           ○           ○               ○           ○           ○           ○           ○8
                Enhance export controls for dual-use commodities                                                                                                                                                                                  ○           ○               ○           ○               ○           ○           ○           ○               ○           ○           ○               ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○8
                Increase the effectiveness of fishery management                                                                                                                                                                                      ○           ○               ○           ○               ○           ○           ○           ○               ○           ○               ○           ○               ○               ○           ○           ○           ○           ○           ○           ○               ○           ○   10
                Continue to improve the Department’s strategic planning and
                     performance measurement in accordance with GPRA                                                                                                                                                                                                                                              ○           ○           ○           ○               ○           ○           ○               ○               ○           ○           ○               ○           ○           ○           ○           ○           ○           ○   11
                Strengthen financial management controls in order to maintain a “clean”
                     opinion on the Department’s consolidated financial statements                                                                                                                                                                                                                                                                                ○               ○           ○               ○           ○               ○           ○           ○           ○           ○               ○           ○           ○           ○   12
                Successfully implement acquisition reform initiatives                                                                                                                                                                                             ○           ○               ○           ○           ○           ○           ○           ○               ○           ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○   13

         DEPARTMENT OF COMMERCE ORGANIZATION CHART                                                                                                                                                                                                                                                ○               ○           ○           ○           ○               ○           ○           ○               ○               ○           ○           ○           ○           ○           ○               ○           ○           ○           ○   15

         AGENCY OVERVIEWS                         ○       ○       ○       ○       ○       ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○           ○               ○           ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○   16
              Bureau of Export Administration                                                                                     ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○               ○               ○           ○           ○           ○               ○           ○           ○               ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○   16
              Economic Development Administration                                                                                                                         ○               ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○               ○           ○           ○               ○           ○               ○           ○           ○           ○           ○           ○           ○           ○           ○   22
              Economics and Statistics Administration                                                                                                                             ○           ○           ○           ○           ○           ○           ○           ○               ○           ○               ○           ○           ○           ○               ○           ○               ○           ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       32
              International Trade Administration                                                                                              ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○               ○           ○           ○           ○               ○           ○           ○               ○               ○           ○               ○           ○           ○           ○           ○           ○           ○           ○   36
              Minority Business Development Agency                                                                                                                                ○           ○           ○           ○           ○           ○           ○               ○           ○               ○           ○           ○           ○               ○           ○           ○               ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○   44
              National Oceanic and Atmospheric Administration                                                                                                                                                                                         ○           ○               ○           ○               ○           ○           ○           ○               ○           ○               ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○               ○   45
              National Telecommunications and Information Administration                                                                                                                                                                                                                                                          ○               ○           ○               ○           ○               ○               ○           ○               ○           ○           ○           ○           ○           ○           ○           ○       53
              United States Patent and Trademark Office                                                                                                                                                   ○           ○           ○           ○           ○           ○               ○           ○               ○           ○           ○           ○               ○           ○               ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○   54
              Technology Administration                                                   ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○               ○           ○           ○           ○               ○               ○           ○           ○           ○           ○       ○           ○           ○           ○       57
              Departmental Management                                                         ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○               ○           ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       67

         INVESTIGATIVE HIGHLIGHTS                                                 ○       ○           ○       ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○               ○           ○           ○           ○               ○               ○           ○           ○           ○           ○       ○           ○           ○           ○       79

         OFFICE OF INSPECTOR GENERAL                                                                                                  ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○               ○           ○           ○               ○           ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       84

         REPORTING REQUIREMENTS                                                               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○               ○           ○           ○           ○               ○           ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○           ○       86

         STATISTICAL HIGHLIGHTS                                       ○       ○       ○           ○       ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○               ○           ○           ○           ○               ○           ○           ○               ○           ○               ○           ○           ○           ○           ○           ○           ○           ○           ○       89

         TABLES AND APPENDIXES                                            ○           ○       ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○               ○           ○           ○               ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○       90

         DEFINITIONS OF TYPES OF OIG REVIEWS                                                                                                                                                  ○           ○               ○           ○           ○           ○           ○               ○           ○               ○           ○           ○           ○               ○           ○               ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○   102

         GLOSSARY OF ABBREVIATIONS                                                                            ○           ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○           ○           ○           ○               ○           ○           ○           ○               ○           ○               ○           ○               ○               ○           ○           ○           ○           ○           ○           ○           ○           ○   103

         OIG ORGANIZATION CHART AND POINTS OF CONTACT                                                                                                                                                                                                                                             ○               ○           ○           ○               ○               ○           ○               ○               ○   Inside Back Cover)


Commerce OIG Semiannual Report                                                                                                                                                                                        ii                                                                                                                                                                                                                                                                              March 2001
                                                                                              IG’s Message for the Congress


                                                                  MAJOR CHALLENGES
                                                                 FOR THE DEPARTMENT
Major Challenges for the Department




                                      In pursuing its programs and missions, the Depart-    following criteria: importance to the Department’s
                                      ment of Commerce is faced with a number of            mission or the nation’s well-being, complexity,
                                      problems, concerns, and difficult issues, including   sizable expenditures, or need for significant manage-
                                      some that we view as major management chal-           ment improvements. Given the diverse nature of
                                      lenges. In this section, we highlight what we         Commerce activities, a number of these challenges
                                      consider to be the Top 10 Management Challenges       cut across bureau and program lines. We believe
                                      facing the Department at the close of this semi-      that, by addressing these challenges, the Depart-
                                      annual period.                                        ment can enhance program effectiveness, eliminate
                                                                                            serious operational problems, decrease vulnerability
                                      We have identified these issues as the top 10         to fraud and waste, and achieve substantial savings.
                                      challenges because they meet one or more of the




                                                                                        Top 10 List
                                               1.      Successfully implement a Department-wide financial management
                                                       system

                                               2.      Strengthen Department-wide information security

                                               3.      Successfully implement USPTO’s transition to a performance-
                                                       oriented organization

                                               4.      Increase the accuracy and control the cost of the 2000 Decennial
                                                       Census

                                               5.      Address the issues regarding NTIS’s mission and financial viability

                                               6.      Enhance export controls for dual-use commodities

                                               7.      Increase the effectiveness of fishery management

                                               8.      Continue to improve the Department’s strategic planning and
                                                       performance measurement in accordance with GPRA

                                               9.      Strengthen financial management controls in order to maintain a
                                                       “clean” opinion on the Department’s consolidated financial
                                                       statements

                                               10.     Successfully implement acquisition reform initiatives


                                      Commerce OIG Semiannual Report                                                                     March 2001
                                                                                               2
   IG’s Message for the Congress

   Successfully Implement a Department-                   The Department’s current plan is to complete
   Wide Financial Management System                       implementation at the various Commerce operating
                                                          units serviced by NIST by the end of FY 2001, at
                                                          NOAA by October 2002, and at NIST by October




                                                                                                                   Major Challenges for the Department
   The Department has long been working to develop
   and implement a single, integrated financial system    2003. The Department-wide financial database
   that is in compliance with OMB requirements. For       (Corporate Database) is scheduled for completion
   more than 10 years, Commerce’s lack of such a          this calendar year and is expected to give the
   system has been of great concern to us and others      Department the capability to generate consolidated
   and has been reported as a material internal control   financial statements, as required by OMB, for
   weakness in the Secretary’s annual reports to the      FY 2001. The Department intends for all 14 of its
   President under the Federal Managers’ Financial        reporting operating units to be using financial
   Integrity Act.                                         management systems that are compliant with OMB
                                                          requirements and integrated with the Corporate
   To correct this weakness, Commerce began               Database by FY 2004.
   planning for the acquisition and development of a
   Department-wide financial system in 1992 and           During this semiannual period, we surveyed the
   awarded a contract for a federal accounting            Department’s overall management of the CAMS
   software package and development services in           program and suggested actions that it should take to
   1994. However, development of the Commerce             gain better control of the program. We believe, and
   Administrative Management System (CAMS)                the Department also recognizes, that the Office of
   progressed slowly, in part because of the              the Secretary, under the leadership of the Chief
   contractor’s inability to produce an accounting        Financial Officer and Assistant Secretary for Ad-
   package that met Department requirements.              ministration, needs to take a more prominent role in
                                                          managing the program to ensure that Commerce’s
   In 1997 the Department released the original           goals for CAMS are met. Specifically, we have
   contractor, took responsibility for the accounting     identified the need for the Department to:
   package, and hired a different contractor to repro-
   gram the software to meet Commerce’s require-          ¬       Review its authority and the resources it
   ments. In FY 1998, to address continuing cost                  has available to manage the CAMS
   growth and schedule delays, the Department                     program.
   reduced the functionality of CAMS (calling it core
   CAMS), revised the implementation strategy, and        ¬       Develop an integrated master program plan
   reorganized the project management structure.                  to better define, prioritize, standardize, and
                                                                  control its CAMS-related work.
   The revised strategy called for pilot implementation
   and testing of core CAMS at the Census Bureau          ¬       Develop a management control system for
   before implementing it at NOAA, NIST, and the                  tracking work against budget and schedule.
   operating units cross-serviced by NIST. The
   Census CAMS pilot implementation was completed         ¬       Improve the CAMS Support Center’s
   in June 1998. An independent verification and                  process for developing software.
   validation review of the pilot, performed by a
   consulting firm, concluded that core CAMS would        ¬       Review the Support Center’s staffing to
   meet departmental requirements and was as good                 ensure that the center has the right number
   as or better than financial management systems                 people with the right mix of skills.
   that had been implemented at other large federal
   agencies.
Commerce OIG Semiannual Report                                                                        March 2001
                                                           3
                                                                                                       IG’s Message for the Congress


                                      ¬       Complete the Corporate Database by               Resources, was significantly revised in 1996.
                                              December 2001, consistent with the current       Moreover, it has not kept pace with recent trends in
                                              schedule.                                        technology usage and related security threats.
Major Challenges for the Department




                                                                                               Because it is the foundation of the security policies
                                      ¬       Review the CAMS distributed operating            of its operating units, the Department’s security
                                              approach to assess its efficiency and            policy must be current and complete.
                                              economy.
                                                                                               Although the CIO has recently made significant
                                      We are currently conducting a review of the              improvements in ensuring compliance with OMB’s
                                      administration and management of the two principal       IT security policy, departmental oversight was
                                      CAMS contracts. We will report on our review             minimal for several years. As a result, IT security
                                      results during the next semiannual period. Until the     for many of the Department’s systems has not been
                                      Department is in compliance with the OMB                 adequately planned, and security reviews have not
                                      requirements for a single, integrated financial          been performed. In addition, several operating units
                                      system, we will view the CAMS effort as a major          do not have adequate security awareness training
                                      challenge warranting the close attention of senior       programs or adequate capabilities for responding to
                                      officials and continued oversight by our office.         IT security lapses.

                                                                                               The audits of the Department’s FY 2000 financial
                                      Strengthen Department-wide                               statements included systems security reviews of
                                      Information Security                                     Commerce’s financial management systems and
                                                                                               their related networks. These reviews used as a
                                      Numerous interconnected, widely distributed              guide GAO’s Federal Information System Con-
                                      computer systems support vital Commerce opera-           trols Audit Manual and included intrusion detection
                                      tions and provide essential services to the public. As   analysis—also called penetration testing—of
                                      the Department’s systems have become more                selected bureaus. The GAO Manual provides
                                      widely distributed and interconnected, security          guidance on assessing the reliability of computer-
                                      vulnerabilities have also increased, creating a need     generated data that supports financial statements,
                                      to improve procedural and technical security             including physical security and logical access
                                      measures. Effective computer security is critical for    controls designed to prevent or detect unauthorized
                                      protecting the secrecy and privacy of information,       access or intrusion into systems and networks.
                                      the integrity of computer systems and their net-
                                      works, and the availability of services to users.        In the report on our audit of the Department’s
                                                                                               FY 2000 Consolidated Financial Statements, we
                                      In March 2001, we completed a review of the              noted that these systems security reviews disclosed
                                      effectiveness of the CIO’s policy and oversight of       weaknesses in controls over major financial man-
                                      the Department’s IT security program (see page           agement systems at the seven locations that provide
                                      69). We found that the IT security policy needs to       data processing support (see page 71). Specifically,
                                      be updated and that additional procedures for            these reviews found that:
                                      ensuring compliance with the policy need to be
                                      implemented.                                             ¬        Entity-wide security program planning and
                                                                                                        management need improvement at five
                                      The Department’s security policy was developed                    locations.
                                      before the security-related portion of OMB Circular
                                      A-130, Management of Federal Information

                                      Commerce OIG Semiannual Report                                                                        March 2001
                                                                                                   4
    IG’s Message for the Congress


   ¬       Access controls for both operating systems       organization, providing it with greater flexibility and
           and the financial management systems             independence to be run more like a business. As
           need strengthening at all seven locations,       such, USPTO has increased authority and responsi-




                                                                                                                      Major Challenges for the Department
           and monitoring of external and internal          bility for decisions regarding the management of its
           access to systems needs strengthening at         operations and exercises greater control over its
           four locations.                                  budget allocations and expenditures, personnel
                                                            decisions and processes, and procurement opera-
   ¬       Application software development and             tions. USPTO’s transition to a performance-
           change control need improvement at two           oriented organization officially began last year.
           locations.
                                                            Despite the act’s potential benefits, the transition is
   ¬       System software improvements are needed          a formidable undertaking. USPTO must formulate
           at two locations.                                the necessary personnel, procurement, and adminis-
                                                            trative policies and develop a performance-oriented
   ¬       Duties and responsibilities need to be           process and standards for evaluating cost-effective-
           segregated at three locations.                   ness, while meeting its performance goals under
                                                            GPRA. USPTO management views the passage of
                                                            the act and the successful transition to a perfor-
   ¬       Contingency plans and/or disaster recovery
                                                            mance-oriented organization as critical in address-
           plans need to be prepared, updated, or
                                                            ing three primary challenges, which have been the
           improved at four locations.
                                                            subject of OIG reviews in recent years.
   We issued audit reports with recommendations to
                                                            First, USPTO has experienced a massive increase
   correct the control weaknesses identified at each of
                                                            in patent and trademark filings and appeals, leading
   the seven data processing locations. Responsible
                                                            to the hiring of hundreds of new examiners and
   entities are required to prepare audit action plans to
                                                            administrative judges. In FY 2000, USPTO re-
   address each of the recommendations.
                                                            ceived more than 293,000 patent applications and
                                                            375,000 trademark applications, representing 12-
   As required by the Government Information
                                                            percent and 27-percent increases, respectively, over
   Security Reform Act, we are performing the annual
                                                            FY 1999, and continuing a trend of double-digit
   evaluation of the Department’s information security
                                                            percentage increases in recent years. To address
   program and practices. This evaluation is using
                                                            this increased workload, USPTO hired 1,173 patent
   information from our own security reviews, as well
                                                            examiners and 210 trademark examiners during
   as the results of related evaluations performed by
                                                            FY 1999 and 2000. However, during that same
   bureaus, agencies, GAO, and contractors.
                                                            period, the agency lost 801 patent examiners and
                                                            108 trademark examiners through attrition.
   Successfully Implement USPTO’s
   Transition to a Performance-                             In prior audits of the Office of Patent Publications
                                                            and the Board of Patent Appeals and Interferences,
   Oriented Organization                                    we reported on some of the challenges facing
                                                            USPTO in hiring and training examiners and
   The American Inventors Protection Act of 1999
                                                            additional administrative judges to hear examination
   (P.L. 106-113) established the U.S. Patent and
                                                            appeals. USPTO’s status as a performance-
   Trademark Office as a performance-oriented
                                                            oriented organization will allow it greater flexibility
                                                            to design performance and retention programs with

Commerce OIG Semiannual Report                                                                           March 2001
                                                             5
                                                                                                  IG’s Message for the Congress


                                      incentives for these highly skilled employees, who        We recently completed an evaluation of the imple-
                                      are often recruited by private sector firms. Accord-      mentation of USPTO’s new search system (see
                                      ing to USPTO management, the transition to a              page 54). We found that the system performed
Major Challenges for the Department




                                      performance-oriented organization will enable it to       poorly when it was first put into operation, providing
                                      more efficiently manage its resources and make the        slow response times and crashing frequently.
                                      rapid decisions needed to process the increased           Although USPTO management responded quickly
                                      number of patent and trademark filings and appeals        to resolve many of the problems, this experience
                                      in a timely manner, while maintaining high quality.       illustrated why it is essential for the organization to
                                                                                                improve its systems development process.
                                      Second, as it moves through this transition, USPTO,
                                      along with the General Services Administration, will      USPTO recognizes this and has begun implement-
                                      also face the challenge of overseeing one of the          ing many of our recommendations, including
                                      largest real estate ventures that the federal govern-     (1) developing a life-cycle metrics process for
                                      ment will undertake in this decade—the construc-          evaluating program progress and system quality;
                                      tion of USPTO’s new 2.4 million-square-foot, five-        (2) changing requirements development procedures
                                      building office complex in Alexandria, Virginia.          to improve the quality of requirements specifica-
                                      When completed in 2004, the new complex will              tions; (3) strengthening test procedures; (4) increas-
                                      provide space for USPTO employees and opera-              ing end users’ involvement early and throughout the
                                      tions now scattered among approximately 18                system life-cycle; and (5) providing additional
                                      buildings in nearby Crystal City.                         opportunities for end-user training. These actions
                                                                                                should lower system development costs, improve
                                      Now that the General Services Administration has          system quality, and promote end user acceptance of
                                      awarded the construction contract, USPTO’s                new systems in the future.
                                      challenge is to aggressively hold the line on project
                                      costs, including remaining within the legislatively
                                                                                                Increase the Accuracy and Control the
                                      mandated cap on the cost of completing the build-
                                      out of the building’s interior once the structure is in   Cost of the 2000 Decennial Census
                                      place. Construction is scheduled to begin once the
                                      city of Alexandria has approved the project plans, in     On December 31, 2000, the Census Bureau
                                      August or September 2001. We plan to monitor the          released the nation’s population count: 281,421,906.
                                      project during construction in order to stay abreast      This number resulted from the information collected
                                      of USPTO’s project management and the cost                when approximately 77 million households returned
                                      control measures it plans to put in place for the         their census forms and approximately 42 million
                                      building structure, interior build-out, and new           households were subsequently visited by enumera-
                                      furniture.                                                tors to collect census information. Having a reliable
                                                                                                population count is of enormous importance to the
                                      Third, USPTO continues to face significant chal-          Congress and the Administration, as well as the
                                      lenges in delivering essential information technology     various state governments and local communities,
                                      capabilities. With its increased focus on operational     because, among other things, it is the basis for
                                      efficiency and the new provisions requiring infor-        determining how many seats each state will have in
                                      mation technology solutions, the 1999 legislation has     the House of Representatives and for developing
                                      intensified the demands placed on automated               state redistricting plans.
                                      systems and further strained the organization’s
                                      ability to deliver systems.


                                      Commerce OIG Semiannual Report                                                                          March 2001
                                                                                                  6
    IG’s Message for the Congress


   As part of the census design, the bureau embarked         After the bureau determined which of the sus-
   on a program referred to as the Accuracy and              pected duplicates to remove from the decennial, it
   Coverage Evaluation (A.C.E.) to sample the                incorporated the remaining records into the final




                                                                                                                       Major
   population of the United States in an attempt to          A.C.E. calculations using the bureau’s established




                                                                                                                       MajorChallenges
   measure the potential undercount and overcount in         approach for dealing with late census data. Accord-
   the decennial and, if appropriate, increase the           ing to the bureau, treating the reinstated records as
   accuracy of the counts through statistical adjust-        late data introduced little or no error into the A.C.E.
   ment for redistricting purposes. However, on March        results if certain assumptions held true. We were
   1, 2001, the Acting Director of the Census Bureau,        concerned about the validity of the assumptions;
   in consultation with the bureau’s Executive Steering      however, the bureau subsequently satisfied our




                                                                                                                             Challengesfor
   Committee for A.C.E. Policy, recommended against          concerns by performing various analyses, which it
   using statistically adjusted numbers for redistricting,   discussed in its reports supporting the adjustment
   and on March 6, 2001, the Secretary announced             recommendation.
   that the unadjusted data would be released as the
   official redistricting data.                              We have made oversight of the decennial one of
                                                             our top priorities over the past several years. Since
   According to the Acting Director, the committee           1998, for example, we have issued some two dozen
   reached this recommendation because it was                audit and inspection reports on various aspects of
   unable to conclude, based on the information              the bureau’s decennial efforts and have made
   available and within the time available before the        numerous recommendations aimed at helping to
   statutory deadline, that the adjusted data would be       improve the accuracy of the decennial and control
   more accurate than the unadjusted data. The               its cost. We have also actively monitored the




                                                                                                                                        forthe
   primary reason for arriving at this conclusion was        bureau’s actions to address our recommendations.
   the disparity in population growth estimates from
   two sources: the recently completed A.C.E. and the        Although we are continuing to address remaining




                                                                                                                                            theDepartment
   ongoing demographic analysis. The bureau is               decennial-related issues as the 2000 decennial
   continuing to study the inconsistencies between the       draws to a close, the enormous operational chal-
   demographic analysis estimates and the A.C.E.             lenges of the decennial have been met, and this
   estimates and plans to release the results of the         issue is receding as a top management challenge




                                                                                                                                               Department
   study by the end of 2001.                                 for the Department. Because of the tremendous
                                                             difficulties and high cost of the just-completed
   During this semiannual period, we evaluated the           census, the bureau is planning to significantly
   bureau’s handling of suspected duplicate enumera-         change its approach to the 2010 decennial. We
   tions in the decennial as they may have affected the      intend to monitor this effort and, more importantly,
   A.C.E. (see page 32). As the decennial progressed,        work with the bureau, the Department, and the
   the bureau became increasingly concerned about            Congress to ensure that the many important lessons
   address duplication and developed a process to            of the current decennial are not overlooked in
   resolve the problem, with the goal of producing           planning for 2010.
   more accurate apportionment numbers. However,
   the bureau concluded that there was not enough
   time to resolve the status of the suspected dupli-
   cates before the census results were needed for the
   tightly scheduled operations of the A.C.E. and
   decided to remove all suspected duplicates from
   A.C.E. processing.

Commerce OIG Semiannual Report                                                                            March 2001
                                                             7
                                                                                                IG’s Message for the Congress


                                      Address the Issues Related to NTIS’s                    While NTIS no longer faces an immediate financial
                                                                                              crisis, questions concerning its role and mission and
                                      Mission and Financial Viability                         its ability to continue to support itself as currently
Major Challenges for the Department




                                                                                              authorized still exist. Accordingly, we believe that
                                      In recent years, questions have been raised about
                                                                                              the current management challenge is to ensure that
                                      NTIS’s role and mission in the 21st century and
                                                                                              the Department continues working on the broader
                                      whether it will be able to remain self-supporting as
                                                                                              policy issues that face NTIS.
                                      currently required. Partly as a result of actions
                                      taken in response to previous OIG reports that
                                      focused on NTIS’s serious financial problems, the       Enhance Export Controls
                                      agency is now financially solvent and expects to        for Dual-Use Commodities
                                      record a net profit of more than $1 million for
                                      FY 2001. However, questions concerning its role         The United States controls the export of certain
                                      and mission in the 21st century remain.                 goods and technologies for national security and
                                                                                              foreign policy purposes. Within Commerce, the
                                      A working group of senior Commerce officials            Bureau of Export Administration issues licenses
                                      proposed closing NTIS by the end of FY 2000 and         authorizing the export of certain dual-use commodi-
                                      transferring its collection of scientific, technical,   ties—goods and technologies that have both civilian
                                      business, and engineering publications to the Library   and military uses. The adequacy of controls for
                                      of Congress to ensure permanent public access to        dual-use commodities is a subject of continuing
                                      such documents. However, due to congressional           controversy, generating a wide range of opinions on
                                      concerns, the closure was delayed pending the           how well the government’s export control policies
                                      outcome of both a GAO review of NTIS’s func-            and practices balance the need to protect U.S.
                                      tions and a comprehensive study by the U.S.             national security and foreign policy interests with
                                      National Commission on Libraries and Information        the desire not to unduly hamper U.S. trade opportu-
                                      Science of the federal government’s information         nities and competitiveness. Striking this balance can
                                      dissemination activities.                               pose a significant challenge.

                                      The Library Commission released its study on            New comprehensive legislative authority is needed
                                      January 26, 2001. Although the majority of Com-         to replace the Export Administration Act of 1979
                                      mission experts believed that NTIS’s fundamental        and implement effective export control policies in
                                      mission remains valid, they concluded that the          order to strengthen the federal government’s export
                                      agency needs a new vision and business model to         licensing and enforcement process. The act was
                                      provide for expanded public access to its informa-      passed during the Cold War primarily to help block
                                      tion and annual appropriations to help pay for the      the export of critical goods and technologies to
                                      associated costs. The Commission also concluded         Communist bloc countries for national security
                                      that NTIS’s focus should be on its statutory mission    reasons. In the post-Cold War era, there are new
                                      of acquiring, preserving, and disseminating federally   threats to U.S. national security and foreign policy
                                      sponsored science, technology, and engineering          goals posed by rogue countries and terrorist groups
                                      information, noting that the agency has expanded        who seek to acquire weapons of mass destruction
                                      the scope of its coverage well beyond that primary      and weapon delivery systems.
                                      mission in order to remain self-sustaining.




                                      Commerce OIG Semiannual Report                                                                         March 2001
                                                                                                 8
    IG’s Message for the Congress


   A comprehensive revision of the act is also needed       processes, (2) the intelligence community was not
   to demonstrate that the United States is firmly          reviewing all dual-use export license applications or
   committed to maintaining strong export controls, as      always conducting a comprehensive analysis of




                                                                                                                     Major Challenges for the Department
   it encourages other countries to do the same, by         applications it did review, (3) license applications
   strengthening BXA’s regulatory authority and             needed to be screened against a key database
   penalties, which have been weakened under interim        maintained by the U.S. Customs Service, (4) BXA
   export control regulations.                              needed to improve its monitoring of license condi-
                                                            tions with reporting requirements, and (5) BXA
   Given the importance of export licensing controls to     needed a new automated system to process export
   national security, we have devoted considerable          license applications efficiently and effectively.
   attention to the challenges facing BXA in controlling
   exports of dual-use commodities. In 1993 we              The National Defense Authorization Act for
   participated in a special interagency review of          FY 2000 directed the same six OIGs to report to
   export licensing processes for munitions and dual-       the Congress by March 30, 2000, and annually until
   use commodities. The 1993 report highlighted the         the year 2007, on the adequacy of current export
   need for more transparency in the dual-use export        controls and counterintelligence measures to
   licensing process. To meet this need, in 1995 the        prevent the acquisition of sensitive U.S. technology
   President issued Executive Order 12981, which            and technical information by countries and entities
   expanded the authority of the Defense and State          of concern.
   Departments and other involved federal agencies to
   review all export license applications.                  In response to the first-year reporting requirement,
                                                            each OIG reviewed selected aspects of its
   In October 1998, at the request of the Chairman of       agency’s export controls and counterintelligence
   the Senate Governmental Affairs Committee, the           measures and reported on the results. Two inter-
   OIGs of the Departments of Commerce, Defense,            agency reports highlighting cross-cutting issues
   Energy, State, and the Treasury, and the Central         among federal agencies were also prepared. Our
   Intelligence Agency, undertook a follow-up review        report focused on three activities that the Com-
   to evaluate the status of actions taken to implement     merce Department, principally through BXA,
   the recommendations from the 1993 review. We             carries out or participates in to help prevent the
   also evaluated the effectiveness of the Depart-          illicit transfer of sensitive U.S. technology: deemed
   ment’s current policies, procedures, and practices       export controls, the Visa Application Review
   for licensing dual-use commodities. In our report,       Program, and the Committee on Foreign Investment
   issued in June 1999, we stated our conclusion that       in the United States.
   the multi-agency export licensing process for dual-
   use commodities is balanced and attempts to bring        To meet the act’s second-year requirement, a
   divergent policy views and information to bear on        recently completed interagency OIG review
   decision-making for export licenses.                     focused on the Commerce Control List, which is
                                                            maintained by BXA, and the U.S. Munitions List,
   While our follow-up review identified significant        which is maintained by the State Department (see
   areas of improvement in export controls since the        page 16). Our review looked at BXA’s policies and
   1993 review, it also found that some weaknesses in       procedures for the design, maintenance, and appli-
   the licensing process identified in the earlier review   cation of the Commerce Control List. Specifically,
   still needed to be addressed. Specifically, we found     our objectives were (1) to examine how the Com-
   that (1) more transparency was needed in the             merce list is managed, including whether it is user-
   commodity classification and license appeals             friendly and how commodities and technologies are

Commerce OIG Semiannual Report                                                                          March 2001
                                                             9
                                                                                                 IG’s Message for the Congress


                                      added to or removed from it; (2) to determine            measure the economic impact of fishery regulations
                                      whether there is still a need for greater transpar-      and policies. Measures to manage various species
                                      ency in BXA’s commodity classification process, as       are generally developed by the councils, subject to
Major Challenges for the Department




                                      stated in our June 1999 export control report; and       review by NMFS and approval by the Secretary of
                                      (3) to determine whether there is a need for more        Commerce. These measures are often controver-
                                      transparency in State’s commodity jurisdiction           sial because they impose fish quotas that affect
                                      process. Our report on the Commerce Control List         both the survival of a species and the economic
                                      and the multi-agency OIG report on the Commerce          health of the fishing industry and many coastal
                                      list and the Munitions List were issued in March         communities.
                                      2001.
                                                                                               NMFS is also responsible for the recovery of
                                      However, the challenge continues for BXA, as well        certain species protected under the Endangered
                                      as for the Administration and the Congress, to pass      Species Act. These include both marine and
                                      a comprehensive revision of the Export Administra-       anadromous species, such as salmon, which migrate
                                      tion Act and to focus the federal government’s           between the ocean and inland waterways. NMFS
                                      licensing and enforcement efforts on targeting those     plays a central role in the Northwest Salmon
                                      exports that present the greatest proliferation and      Recovery Effort—a combined response by various
                                      national security risks and on relaxing or eliminating   federal agencies, state and tribal governments, and
                                      controls that unnecessarily hamper trade. Through        other organizations to restore salmon runs in the
                                      our export control reports, we hope to play a useful     Columbia River Basin that have been listed for
                                      role in congressional and public debates on the          protection under the Endangered Species Act.
                                      reauthorization of the Export Administration Act
                                      and the revamping of the nation’s export controls.       In its Federal Columbia River Power System 2000
                                      We will continue to monitor BXA’s efforts to             Biological Opinion, NMFS set performance stan-
                                      improve dual-use export controls through the annual      dards and recovery actions that guide the opera-
                                      reviews required by the National Defense Authori-        tions of 29 federally owned dams. These guidelines
                                      zation Act for FY 2000.                                  are incorporated in the Basinwide “All-H” Salmon
                                                                                               Recovery Strategy issued by the Federal Caucus in
                                                                                               December 2000. The strategy covers areas essen-
                                      Increase the Effectiveness                               tial to recovery—harvest, hatcheries, hydro power,
                                      of Fishery Management                                    and most importantly, habitat. NMFS will assess the
                                                                                               implementation of each of these strategy areas and
                                      Ensuring healthy stocks of fish and other marine         periodically review whether the basinwide strategy
                                      animals in the coastal waters beyond each state’s        of improvements, research, and evaluation is
                                      jurisdiction is a federal responsibility carried out     meeting performance standards to halt species
                                      principally by NOAA’s National Marine Fisheries          decline within 10 years and enable population
                                      Service (NMFS) and eight regional fishery manage-        growth thereafter. If performance standards are not
                                      ment councils under the Magnuson-Stevens Fishery         met, the Federal Caucus intends to accelerate
                                      Conservation and Management Act of 1976, as              recovery measures or consider new actions.
                                      amended, the Marine Mammal Protection Act of
                                      1972, the Endangered Species Act of 1973, and            When the Basinwide Salmon Recovery Strategy
                                      other legislation. Among other things, NMFS and          was issued, we were in the process of completing a
                                      the councils track the condition of fish and other       review of certain aspects of NMFS’s role in the
                                      marine species, determine the levels of catch that       Columbia River Basin recovery effort. While
                                      will provide the greatest benefit to the nation, and     NMFS has helped move the Federal Caucus

                                      Commerce OIG Semiannual Report                                                                       March 2001
                                                                                                 10
    IG’s Message for the Congress


   toward a comprehensive strategy of coordinated            Government Performance and Results Act of 1993
   ecosystem management, we believe, as reported to          (GPRA). The Department submitted to the Con-
   NMFS in a management memorandum, that NMFS                gress its revised strategic plan for FY 2000 to




                                                                                                                     Major Challenges for the Department
   needs to (1) complete detailed recovery plans for         FY 2005 in January 2001 and its second Account-
   each Evolutionarily Significant Unit, which is a          ability Report, which reports both financial and
   segment of a species that is reproductively isolated      performance results for FY 2000, in March 2001.
   and contributes substantially to the species’ genetic
   diversity, and (2) strengthen its collaboration with      In its FY 2001 Annual Performance Plan and
   federal agencies, states, tribes, and other stakehold-    FY 1999 Annual Program Performance Report, the
   ers in fulfilling its responsibilities under the Endan-   Department made efforts to address concerns
   gered Species Act.                                        raised by the Congress, GAO, and the OIG about
                                                             its previous GPRA implementation efforts. How-
   With regard to the recovery plans, NMFS needs to          ever, reviews of these documents found that the
   ensure that they include site-specific management         Department needed to improve its system for
   actions, estimates of the time and cost needed to         scoring and communicating performance results, its
   carry out the actions, and objective, measurable          description of actions to be taken to address the top
   criteria that, when met, will result in the Evolution-    10 management challenges, and its discussion of
   arily Significant Units being removed from the            performance targets not met and efforts to improve
   endangered or threatened list. With regard to             performance. Also, in our judgment, the Depart-
   collaboration, many stakeholders in the salmon            ment needed to continue to take actions to ensure
   recovery effort, including some members of the            that the data used to measure performance is
   Federal Caucus, have been critical of NMFS’s              accurate, complete, and reliable. The Department
   performance in this area. NMFS needs to carefully         worked to address these concerns in its combined
   assess and, as appropriate, address concerns              FY 2000 Annual Program Performance Report and
   expressed by stakeholders in strengthening its            FY 2002 Annual Performance Plan, which were
   collaborative efforts.                                    submitted to the Congress after the close of the
                                                             semiannual period.
   The importance of fishery management to NOAA
   and the Department, the sheer complexity of the           We have regularly provided advice and assistance
   issue, and the significant resources involved makes       to the Department on the implementation of GPRA,
   this a formidable challenge. We will continue to          as well as on the linkage between the act’s required
   monitor developments concerning the management            performance reporting and the financial reporting
   and conservation of fisheries for which NMFS has          contained in the annual financial statements. As
   responsibilities under the various acts.                  part of an incremental approach to reviewing the
                                                             Department’s performance data, we also have
                                                             issued reports offering recommendations for
   Continue to Improve the                                   improving the reporting of performance information
   Department’s Strategic Planning and                       and, more recently, for strengthening internal
   Performance Measurement in                                controls at two Commerce bureaus. In addition, we
   Accordance with GPRA                                      have made presentations to departmental officials
                                                             on the importance of ensuring that the information
   The Department continues to make progress in              related to performance results can be relied upon,
   meeting the challenge of how to best plan and             and have provided comments and suggestions on
   measure its performance in accordance with the            various planning and reporting documents prepared
                                                             in support of GPRA.

Commerce OIG Semiannual Report                                                                          March 2001
                                                             11
                                                                                              IG’s Message for the Congress


                                      We worked with the Department to ensure that its      financial management practices of federal agen-
                                      Accountability Report for FY 2000 contained a         cies. The statutes require audited financial state-
                                      statement of net cost that accurately reflected the   ments that present an entity’s financial position and
Major Challenges for the Department




                                      Department’s activities and a management discus-      results of operations, as well as other information
                                      sion and analysis that contained required informa-    needed by the Congress, agency executives, and
                                      tion and reported its most significant performance    the public to assess management’s performance.
                                      results. Our audit of the Department’s FY 2000
                                      financial statements included an evaluation of the    Despite continuing obstacles—including the ab-
                                      consistency between the Accountability Report and     sence of a single, integrated financial management
                                      the revised Strategic Plan. We also ensured that      system—the Department received its second
                                      performance data contained within the report were     unqualified (clean) opinion on its FY 2000 consoli-
                                      subjected to basic review procedures. In our Report   dated financial statements (see page 69).
                                      on Compliance with Laws and Regulations, we
                                      noted that the Department had failed to submit its    Although substantial improvements have been
                                      revised strategic plan by the date required by        made in financial management, further improve-
                                      GPRA and OMB.                                         ments are essential in order for the Department and
                                                                                            its reporting entities to correct the material weak-
                                      We will continue to monitor the Department’s          nesses and other deficiencies identified in the audits
                                      efforts to implement GPRA, provide advisory           of the FY 2000 statements and to maintain their
                                      comments on GPRA-related documents, and,              clean opinions in future years. Material weaknesses
                                      where resources permit, perform targeted reviews      are serious flaws in the design or operation of an
                                      of GPRA-related issues. A major challenge for the     internal control component that increase the risk
                                      Department is to ensure that concerns raised about    that errors, fraud, or noncompliance in material
                                      its initial annual performance report and its prior   amounts may occur and not be readily detected.
                                      annual performance plans are addressed in its
                                      combined FY 2000 performance report and               The audits of the FY 2000 statements identified six
                                      FY 2002 performance plan. While the Department        material weaknesses, seven reportable conditions,
                                      has been responsive to past criticisms of the         and several instances of noncompliance with laws
                                      documents it has produced to meet GPRA require-       and regulations that need to be resolved, of which
                                      ments, continued management attention is needed to    three material weaknesses, three reportable
                                      produce further improvements in performance           conditions, and one instance of noncompliance
                                      planning and reporting.                               were new matters. Despite the decrease in the
                                                                                            total number of deficiencies from previous years,
                                                                                            they still represent obstacles that the Department
                                      Strengthen Financial Management                       must overcome to avoid jeopardizing future clean
                                      Controls in Order to Maintain a                       opinions.
                                      “Clean” Opinion on the Department’s                   The Department recognizes that ongoing efforts
                                      Consolidated Financial Statements                     are needed to create a financial management
                                                                                            environment that provides timely, accurate financial
                                      The Chief Financial Officers Act of 1990, the         and performance information and complies with
                                      Government Performance and Results Act of 1993,       federal laws and regulations, and we are pleased
                                      the Government Management Reform Act of 1994,         with the Department’s continued focus on strength-
                                      and the Federal Financial Management Improve-         ening financial management controls. However,
                                      ment Act of 1996 were designed to improve the         maintaining clean audit opinions on Commerce’s

                                      Commerce OIG Semiannual Report                                                                      March 2001
                                                                                              12
   IG’s Message for the Congress


   consolidated financial statements, as well as on all   Office of Federal Procurement Policy, within the
   reporting entity statements, remains a major           Office of Management and Budget, has also ex-
   challenge.                                             pressed concerns about the use of GWACs and other




                                                                                                                    Major Challenges for the Department
                                                          multiple award contracts, as well as about service
   Successfully Implement                                 contracting, criticizing in particular many agencies’
                                                          lack of focus on results. For FY 2002, OMB has
   Acquisition Reform Initiatives                         directed all agencies to include in their performance
   The Department of Commerce and other federal           plans the goal to award not less than 20 percent of
   agencies are increasingly relying on contractors to    service contracting dollars using performance-based
   provide the goods and services essential to their      methodology. Likewise, we have identified specific
   operations. The Department spends more than            problems at Commerce concerning improper use of
   $1 billion each year, or about one-quarter of its      task order contracts, inadequate documentation of
   annual appropriations, through large contracts and     market surveys, insufficient planning for contract
   other procurement vehicles.                            administration and monitoring, and inadequate
                                                          administration of the purchase card program (see, for
   The Federal Acquisition Streamlining Act of 1994       example, pages 48 and 59).
   substantially revised federal procurement law. The
   act encouraged the use of commercial items,            The Department has actively participated in the
   performance-based service contracting, and past        implementation of acquisition reform. Commerce
   performance as a major evaluation criterion for        developed a streamlined acquisition process known
   award. It also reduced paperwork, permanently          as CONOPS, which has reduced procurement lead
   raised the threshold for the use of simplified         times. In addition, performance-based service
   acquisition procedures from $25,000 to $100,000,       contracting was used in acquisitions for the 2000
   and promoted using the Internet for acquisition        Decennial Census. The Department also awarded
   processing.                                            the Commerce Information Technology Solutions
                                                          contract (known as COMMITS), the only GWAC for
   The Federal Acquisition Reform Act of 1996             information technology services set aside for small,
   provided for governmentwide acquisition reform,        disadvantaged, and women-owned businesses.
   including the repeal of the Brooks Act (which
   covered automated data processing procurements);       The laudable purpose of acquisition reform and its
   shortened the time allowed for GAO to issue bid        streamlining initiatives is to reduce the time and
   protest decisions; and revised the Procurement         money spent in acquiring needed goods and services.
   Integrity Act. The Information Technology Man-         At the same time, the new focus on considering past
   agement Reform Act of 1996 emphasized results-         performance in awarding contracts, including the use
   based acquisition and life-cycle management of         of performance-based service contracting, requires
   information technology as a capital investment.        innovative approaches in monitoring contractor
   These two laws were subsequently combined and          performance, including the use of performance-based
   renamed the Clinger-Cohen Act of 1996.                 measurement tools, such as earned value and risk
                                                          management. It also requires acquisition teams
   Although these new laws aim to promote greater         (including the contracting officer and the contracting
   efficiency and uniformity in procurement practices     officer’s technical representative) to develop special-
   among government agencies, GAO has reported            ized business management skills. Given the general
   some concerns about the implementation of acquisi-     concerns expressed by GAO and the Office of
   tion reform, including problems with the use of        Federal Procurement Policy, and the specific con-
   government-wide agency contracts (GWACs). The          cerns identified by our office, we believe that suc-

Commerce OIG Semiannual Report                                                                       March 2001
                                                          13
                                                                                              IG’s Message for the Congress


                                      cessful implementation of acquisition streamlining
                                      initiatives within the Department of Commerce
                                      remains a major challenge and warrants extra
Major Challenges for the Department




                                      scrutiny.

                                      In recognition of the challenges facing acquisition
                                      reform and our concerns, the Department’s Senior
                                      Procurement Executive briefed us in January on the
                                      risk management program being executed by the
                                      Office of Acquisition Management concerning
                                      several of the office’s initiatives, including the
                                      ongoing implementation of acquisition reform
                                      initiatives, automation of the Department’s procure-
                                      ment process, priority emphasis on career develop-
                                      ment for contracting employees, partnering with the
                                      Department’s Chief Information Officer and the
                                      Budget Officer to integrate the budgeting and
                                      planning activities for information technology
                                      acquisitions, and oversight and performance
                                      measurement of acquisition activities. The Office of
                                      Acquisition Management has initiated a review of
                                      how the Department is using the General Services
                                      Administration Schedule and GWACs. We will
                                      periodically review the results of these initiatives.




                                      Commerce OIG Semiannual Report                                                  March 2001
                                                                                              14                         15
              Bureau of Export Administration


                                       Management of the Commerce Control List
The Bureau of Export                   and Related Processes Should Be Improved
Administration is primarily
responsible for the administration
and enforcement of the nation’s
                                       The National Defense Authorization Act for Fiscal Year 2000 directed the
system for controlling exports of      OIGs of the Departments of Commerce, Defense, Energy, State, the
sensitive dual-use goods and           Treasury, and the Central Intelligence Agency, in consultation with the
technologies. Under the Export         Federal Bureau of Investigation, to assess the adequacy of export
Administration Act and regulations,    controls and counterintelligence measures to prevent the acquisition of
BXA’s major functions include          militarily sensitive U.S. technology and technical information by countries
formulating and implementing           and entities of concern. The OIGs are mandated to report to the Con-
export control policy; processing      gress by March 30 each year until 2007.
export license applications; con-
ducting various policy, technical,
                                       For the current year, the Commerce, Defense, Energy, and State OIGs
and economic analyses; promul-
gating regulations; conducting
                                       conducted an interagency review of the Commerce Control List and the
industry outreach; and enforcing       U.S. Munitions List. The Control List, maintained by BXA, specifies the
the act and regulations.               commodities, software, and technology that are subject to the Export
Export Administration imple-           Administration Regulations, as well as the controls that are placed on
ments U.S. export control and          these items, depending on the country to which they are to be exported.
nonproliferation laws and policies     Each item on the Control List is grouped by type of commodity and
through export licensing, commod-      assigned an Export Control Classification Number (ECCN). The Muni-
ity classifications, and advisory      tions List, administered by the State Department, specifies items subject
opinions; technical, economic,         to the International Traffic in Arms Regulations. Businesses use both lists
foreign availability, and policy
                                       to determine whether they need to apply for an export license for items
analyses; promulgation of regu-
lations; and industry outreach. It
                                       they want to export.
also conducts various defense
industry base activities.              The Commerce OIG review focused on BXA’s policies and procedures
Export Enforcement participates        covering the design, maintenance, and application of the Control List.
in reviews of export license appli-    Specifically, we examined how the Control List is managed and deter-
cations and conducts criminal and      mined whether there is a need for greater transparency in BXA’s com-
administrative investigations of the   modity classification process and in State’s commodity jurisdiction
export control portions of the         process. Our observations are as follows:
Export Administration Act and
regulations. It also administers and
enforces the antiboycott provisions
                                       Improvements Are Needed in
of the act and regulations.            BXA’s Management of the Control List

                                       We found several areas in which BXA could improve its management of
                                       the Control List:

                                       ¬       BXA has taken a long time—from 6 months to over a year—to
                                               update the Control List with changes agreed to at meetings of the
                                               multilateral regimes to which the U.S. government belongs.



Commerce OIG Semiannual Report                                 16                                      March 2001
Bureau of Export Administration


¬                            Some items covered by several ECCNs are being included on the
                             Control List for national security reasons, yet they are not
                             controlled by the multilateral regime from which the largest                                    Bureau of
                             number of ECCNs are derived. BXA generally does not have the                                     Export
                                                                                                                           Administration
                             authority to unilaterally impose national security controls for items
                             not controlled by the multilateral regimes.

                                                                                                                    Export                Export
¬                            While numerous users we spoke with reported that the Control                        Administration        Enforcement
                             List was easier to use than the Munitions List, they cited many
                             examples of how it could be made easier to navigate, such as by
                             removing some outdated terminology from the list.

The Commodity Classification Process
Continues to Cause Concerns

Through the commodity classification process, BXA advises exporters on
whether an item is subject to the Control List and, if so, which ECCN it
falls under. In a 1999 export licensing review (see September 1999 issue,
page 17), we identified two weaknesses in the process: (1) the processing
of classification requests was too slow, a problem that could delay U.S.
exporter shipments, and (2) the process was not transparent (that is,
visible to all involved parties) because BXA was not referring all muni-
tions-related classifications to Defense and State, thereby creating the
potential for incorrect classifications. Our current review found that slow
processing was still a problem, as 84 percent of the classification requests
processed in FY 2000 exceeded the legislatively mandated deadline of 14
days (see figure below). Moreover, while BXA agreed in 1999 to develop
specific criteria and procedures for the referral of munitions-related
classifications, it has not yet done so.



                                     800
      Number & Percentage of Cases




                                                            %
                                                           36




                                     700
                                                            738                                       Processing Time for
                                     600
                                                                                                      Commodity Classification
                                                                    %




                                     500
                                                                   24




                                     400
                                                                                                      Requests (FY 2000)
                                            %




                                                                    487
                                            16




                                     300
                                                                                                      Source: BXA Office of Administration
                                                                             %
                                                                            10




                                     200    320
                                                   6%




                                                                            201
                                                                                             4%
                                                                                     4%




                                     100            124                              89          90
                                       0
                                           1
                                           0-14   15-20   21-40   41-60    61-80   81-100   100+

                                                          Number of Days



Commerce OIG Semiannual Report                                                              17                                       March 2001
                                                          Bureau of Export Administration

                                 Commodity Jurisdiction
                                 Process Needs Improvement

                                 Exporters who need assistance in determining whether an item is subject
                                 to the Munitions List can request a commodity jurisdiction determination
                                 from the State Department, which has export licensing jurisdiction for
                                 items on that list. As part of its review process, State is to refer all such
                                 requests to BXA and Defense to obtain their views about whether the
                                 item involved is covered by the Munitions List or the Control List. We
                                 found that, contrary to 1996 National Security Council guidance, the
                                 determination requests are not being processed in a timely manner by any
                                 of the involved agencies. In addition, these requests are being processed
                                 manually, which inhibits the efficient exchange of information between
                                 agencies. Finally, we are concerned that State may be making incorrect
                                 determinations because it does not always consult with BXA or Defense.

                                 Other OIG Concerns Related
                                 to the Commerce Control List

                                 Our review revealed a breakdown in the interagency process for resolv-
                                 ing jurisdictional disputes involving night vision equipment and “space
                                 qualified” items, which are used in satellites and other high-altitude
                                 systems. The issue concerning the night vision equipment is whether it
                                 should be licensed as a dual-use item by BXA, as was agreed to by the
                                 licensing agencies in a 1992 memorandum of understanding, or licensed
                                 by State as munitions. Because the agencies have been unable to resolve
                                 this issue, license applications are being delayed, and exporters are
                                 confused as to which agency they should be dealing with. Moreover,
                                 BXA and State disagree about which of them has jurisdiction for certain
                                 space qualified items currently on the Control List. The National Security
                                 Council, which was tasked with resolving this dispute, was expected to
                                 rule in May 2000, but had not done so as of March 2001.

                                               ¬          ¬          ¬          ¬         ¬

                                 We made a number of recommendations to BXA to address our con-
                                 cerns. BXA generally agreed with those related to the Control List, but
                                 did not agree with most of those related to the commodity classification
                                 process. BXA’s position on the latter recommendations is troubling
                                 because it concurred with similar recommendations we made in a 1999
                                 report, and since that time, neither the timeliness nor the transparency of
                                 the process has improved.




Commerce OIG Semiannual Report                            18                                       March 2001
Bureau of Export Administration

BXA agreed with most of our recommendations related to the commodity
jurisdiction process, but said that efforts to improve the timeliness of the
process were hampered by resource and staffing shortages. We contend
that if BXA needs additional staff for this purpose and lacks the resources
to fund or reallocate the needed positions, it should justify this need in its
budget submissions. BXA also asserted that many of our recommendations
should have been addressed to other federal agencies. We maintain that
although many of our recommendations require BXA to work in concert
with other agencies, BXA is the appropriate agency to initiate our recom-
mended actions. (Office of Inspections and Program Evaluations:
IPE-13744)

Follow-up Review Determines That Most Prior
Year Recommendations Are Being Implemented
In addition to requiring annual reports on the adequacy of U.S. government
export controls and counterintelligence measures (see previous section),
the National Defense Authorization Act requires us to report annually on
the status of recommendations made in earlier reports submitted under the
act.

Our report for 2000 focused on three activities that the Department,
principally through BXA, carries out or participates in to help prevent the
illicit transfer of sensitive U.S. technology: deemed export control initia-
tives, the Visa Application Review Program, and efforts in support of the
Committee on Foreign Investment in the United States (see March 2000
issue, page 21). In that report, we concluded, in general, that deemed
export control regulations needed to be better defined and compliance
improved, that the Visa Application Review Program showed promise but
needed to be refined, and that federal efforts to monitor foreign investment
should be reviewed. We made a series of recommendations to address our
specific findings.

Our follow-up review determined that for 16 of the 24 recommendations
made in our 2000 report, the actions that BXA either was taking or had
completed met the intent of the recommendations. However, we reported
that BXA’s actions for the remaining 8 recommendations, particularly in
the deemed export control area, were not adequate. Given BXA’s central
role in administering the dual-use export control process, we believe that
the agency needs to implement the open recommendations as soon as
possible. (Office of Inspections and Program Evaluations:
IPE-14246-1)




Commerce OIG Semiannual Report                                  19               March 2001
                                                          Bureau of Export Administration


                                 Most Allegations Concerning Nonproliferation
                                 Export Control Cooperation Program Unfounded
                                 BXA’s Nonproliferation Export Control Cooperation (NEC) program was
                                 established in 1993 to help Russia and the Newly Independent States
                                 develop export control programs by providing them with training and
                                 technical assistance on export controls and advice on drafting export
                                 control laws and regulations. BXA has since expanded the program to
                                 include the support of initiatives that prevent the proliferation of nuclear,
                                 biological, and chemical weapons and the diversion of weapons-related
                                 scientific and technical information and expertise of the independent
                                 states to countries and entities of concern. The State Department is the
                                 program’s primary funding source, but the Defense Department and the
                                 Customs Service have also provided funding.

                                 In December 1999, the OIG received an anonymous letter containing
                                 numerous allegations of irregularities in the NEC program, including
                                 alleged mismanagement by senior BXA officials. After conducting a
                                 review of the matters raised in the letter, we concluded that most of them
                                 could not be supported, but that some improvements could be made in
                                 BXA’s management of the program, as summarized below:

                                 ¬       Oversight and controls over NEC funds should be im-
                                         proved. BXA’s policy guidance covering funds for official
                                         entertainment and representation needs to be clarified and should
                                         provide more examples of allowable and unallowable expendi-
                                         tures. In addition, BXA needs to more closely monitor its expen-
                                         ditures of federal funds for NEC conferences and technical
                                         exchanges.

                                 ¬       BXA’s agreement with State regarding program activity
                                         with China should be modified. Documentation supporting an
                                         interagency agreement between BXA and the State Department
                                         mistakenly includes references to BXA’s future bilateral and
                                         multilateral export control work with China, although there are no
                                         plans to conduct such work. BXA should work with State to
                                         modify the agreement to exclude China from the list of countries
                                         with which BXA will work using State funding.

                                 BXA agreed with all of our recommendations for corrective action and
                                 reported that it had already implemented some of them. (Office of
                                 Inspections and Program Evaluations: IPE-13313)




Commerce OIG Semiannual Report                            20                                       March 2001
Bureau of Export Administration


Audit of FY 2000 Financial Statements
BXA made significant progress in addressing prior internal control
deficiencies during FY 2000 and received an unqualified opinion on its
financial statements for the third consecutive year. The certified public
accounting (CPA) firm conducting the audit did, however, identify one
reportable condition, which involved the need to improve controls over
undelivered orders. Undelivered orders represent the amount of goods
and services ordered by a BXA account from another federal govern-
ment account or the public, but not yet received. The firm’s test of a
sample of undelivered order documents identified a number of inaccura-
cies, which required a corrective adjustment in the financial statements.

In addition, because BXA’s accounting transactions are processed on
NOAA’s automated system, two deficiencies identified in NOAA’s
system also affect internal controls over BXA’s accounting and financial
data and resulting reports. Specifically, NOAA’s Financial Management
System and subsystems do not conform with the Federal Financial
Management Improvement Act of 1996, and the auditors determined that
these systems do not support the preparation of timely, accurate financial
statements.

BXA concurred with the facts, findings, and recommendation contained in
the audit report. (Financial Statements Audits Division: FSD-12848)




Commerce OIG Semiannual Report                                21             March 2001
                                                  Economic De
                                                           Devvelopment
                                                         Administration
                                      Financial Assistance Award Programs Would
 The Economic Development
 Administration was established
                                      Benefit from More Competitive Procedures
 by the Public Works and Eco-
 nomic Development Act of 1965        As part of its Department-wide review of Commerce’s discretionary
 to generate new jobs, help retain    financial assistance programs, the OIG conducted an audit of the FY 1997
 existing jobs, and stimulate         criteria, procedures, and practices for soliciting, reviewing, and selecting
 commercial and industrial growth     applications for funding under EDA’s public works, technical assistance,
 in economically distressed areas     and other economic development programs.
 of the United States. EDA
 continues to fulfill this mission    In FY 1997, EDA received more than 770 proposals from all 50 states,
 under the authority of the           American Samoa, Guam, Micronesia, Puerto Rico, and the District of
 Economic Development Adminis-
                                      Columbia and made a total of 657 awards under the five programs
 tration Reform Act of 1998, which
 introduced the concept of
                                      covered by our audit, as shown below:
 Comprehensive Economic
 Strategies, a local planning
 process designed to guide the
 economic growth of an area.                    Program                         Award                 Funding
 Based on these locally and                                                                          (Millions)
 regionally developed strategies,
 EDA works in partnership with
                                               Public Works                         190                 $160.2
 state and local governments,                  Technical Assistance                 145                    11.1
 regional economic development                 Public Works Impact                    8                    4.6
 districts, public and private
 nonprofit organizations, and                  State and Local
 Indian tribes to help distressed              Development Planning                  47                    3.5
 communities address problems                  State Economic Development
 associated with long-term                     Adjustment Assistance                267                 159.8
 economic deterioration and
 recent, severe economic disloca-              Total                                657                $339.2
 tions, including recovering from
 the economic impact of natural
 disasters, the closure of military
 installations and other federal
 facilities, changing trade pat-      Our audit found that EDA’s criteria for reviewing award applications and
 terns, and the depletion of          its procedures and practices for soliciting award recipients generally
 natural resources. To accomplish     complied with statutory, departmental, and agency-specific requirements
 this, EDA provides eligible          and appeared designed to result in merit-based funding decisions. To
 recipients with technical assis-     evaluate applications for financial assistance, EDA developed and pub-
 tance, as well as grants for         lished merit-based technical and public policy criteria that were consistent
 public works and economic            with its mission and program objectives. In addition, the agency exceeded
 development, planning, training
                                      the Department’s minimum requirement for public notice by issuing
 and research, and economic
 adjustment.
                                      solicitations and holding six regional conferences for current and prospec-
                                      tive applicants that were sufficient to obtain a nationwide response from
                                      nearly 800 applicants.



Commerce OIG Semiannual Report                                 22                                       March 2001
Economic Development Administration

However, we also identified opportunities for improving EDA’s procedures
and practices. Specifically, we found that EDA:                                           Economic
                                                                                         Development
                                                                                        Administration
¬       Needed to improve its review and selection processes by directing
        regional project review committees to keep better minutes of their
        proceedings, retaining for the required 3-year period proposals
        that are rejected for funding, and ranking competitive proposals        Program             Finance and
                                                                               Operations          Administration
        for the Technical Assistance Program and the State and Local
        Development Planning Program.
                                                                              Cong. Liaison,
                                                                                Program              Regional
¬       Compromised the independence of the regional review process by        Research and           Offices
        allowing the regional directors to chair regional review               Evaluation
        committees and also serve as selecting officials for their regions’
        awards.

¬       Awarded certain technical assistance renewal awards without
        competition and certain noncompetitive awards without adequate
        written justification.

We made a number of recommendations aimed at improving EDA’s
documentation of the awards process and promoting greater competition
in the review and selection of applications for funding. Although EDA did
not fully agree with all of our recommendations, its response indicated its
willingness to take actions to significantly improve aspects of its awards
processes. (Denver Regional Office of Audits: DEN-11580)


Audit of FY 2000 Financial Statements
For FY 2000, the third consecutive year, EDA received an unqualified
opinion on its financial statements. While commending the agency for this
accomplishment, we also noted that the CPA firm that conducted the audit
identified three reportable conditions in EDA’s internal control structure,
the first of which is deemed to be a material weakness:

¬       Policies and procedures for the year-end closing and financial
        statement preparation need improvement.

¬       Implementation of EDA’s financial system caused delays in the
        year-end closing and financial statement preparation.

¬       General and environmental controls over automated systems need
        improvement.


Commerce OIG Semiannual Report                                 23                                        March 2001
                                              Economic Development Administration


                                 The third reportable condition was identified during a review by the CPA
                                 firm of the general controls associated with EDA’s information processing
                                 environment—specifically, the Commerce Administrative Management
                                 System and the Loan Billing and Management System. The firm identi-
                                 fied weaknesses in entitywide security program planning and manage-
                                 ment, access control, segregation of duties, and service continuity. These
                                 weaknesses, if not resolved, could adversely affect the security of the
                                 data, programs, and hardware maintained at EDA and have a negative
                                 effect on EDA’s financial statements and those of the Department. The
                                 weaknesses, and the firm’s recommendations for correcting them, were
                                 discussed in a separate report on systems issues.

                                 The firm also identified one instance of material noncompliance with laws
                                 and regulations. Specifically, the firm found that the financial system that
                                 EDA uses for salaries and expenses does not comply with certain system
                                 requirements. Moreover, the financial accounting and reporting system
                                 used to process some accounting transactions does not maintain sufficient
                                 commonality of data elements and transactions processing to ensure
                                 timely, accurate, and effective financial reporting. Although it has made
                                 progress in improving its financial management, EDA must continue to
                                 address the identified deficiencies, particularly its documentation for the
                                 financial statements preparation process.

                                 EDA agreed with the findings and recommendations in both of the firm’s
                                 reports and reaffirmed its commitment to improving financial systems and
                                 internal controls. (Financial Statements Audits Division: FSD-12851-1
                                 and FSD-12851-2)


                                 Audits Examine Need for Grants to
                                 Recapitalize Revolving Loan Funds
                                 Four OIG audits completed during this semiannual period were conducted
                                 largely to determine whether grants awarded by EDA to local economic
                                 development organizations to recapitalize revolving loan funds (RLFs)
                                 were needed.

                                 Texas Economic Development Organization

                                 A nonprofit economic development organization promotes economic
                                 growth in two east Texas counties by assisting local businesses in diversi-
                                 fying the economic base and creating new job opportunities. In Septem-
                                 ber 1992, EDA awarded the organization a $500,000 grant to establish an
                                 RLF. A second grant, also for $500,000, was awarded in March 1996 to
                                 recapitalize the fund.
Commerce OIG Semiannual Report                            24                                      March 2001
Economic Development Administration


As of August 2000, more than four years after the second award, the
awardee had not drawn down any funds from the recapitalization grant.
Our audit of the RLF found that the grantee had not made any draw-
downs because the original grant and subsequent loan repayments
provided more than enough money to meet the RLF’s loan demand.
Under federal law and the terms of the grant agreement, any grant funds
not disbursed by the end of the fifth fiscal year after the award date—in
this case, September 30, 2001—will be automatically deobligated.

Even if a demand for loans were to develop before that date, the grantee
would have limited time to adequately evaluate loan applications and
ensure that any loans made would be prudent and consistent with pro-
gram objectives. We therefore recommended that EDA immediately
terminate the recapitalization grant and deobligate the $500,000 in grant
funds. In addition, because the organization had failed to follow all EDA
and OMB requirements in administering its RLF program, we questioned
more than $34,000 in claimed grant administration costs and recom-
mended that EDA disallow those costs and require the organization to
reimburse the RLF in that amount.

Contending that the recapitalization funds would, in fact, be needed, in
response to our draft report, the grantee presented information about
recent and prospective loan activity, as well as information concerning the
reasonableness of the questioned costs. However, because the grantee
did not provide a sufficiently detailed explanation of when the loans would
be made and the funds would be drawn down or any documentation to
support the questioned costs, we reaffirmed our original recommenda-
tions. (Atlanta Regional Office of Audits: ATL-13734)

Ohio Nonprofit Corporation

A nonprofit organization created to help retain, expand, and attract new
business investment in an Ohio county also uses an EDA-funded RLF as
a means of accomplishing its mission. In 1987 the organization received a
$650,000 grant to establish the RLF, of which $480,000 was provided by
EDA. In 1996, in response to the grantee’s determination that the RLF
needed additional capitalization, EDA awarded a $500,000 recapitalization
grant, of which $250,000 was federal funds.

Again, our audit determined that the grantee had not demonstrated a need
for the recapitalization grant. The funds added by the grantee and subse-
quent loan repayments from the initial grant had provided more than
enough money to meet the RLF’s loan demand, and as of September 30,
2000, the grantee had not made any drawdowns on the recapitalization
grant. In fact, since the grantee had added capital to the RLF before the

Commerce OIG Semiannual Report                                25              March 2001
                                              Economic Development Administration

                                 award of the second grant, we question whether there was a pressing
                                 need for the recapitalization grant in 1996. At any rate, because we
                                 projected that the grantee would not need the recapitalization grant funds
                                 by September 30, 2001, when all of the funds from the grant would
                                 automatically be deobligated, we recommended that EDA terminate the
                                 recapitalization grant and recover the $250,000 in federal funds.

                                 Concurring with our recommendation, the grantee indicated that after it
                                 requested the recapitalization grant, higher than expected income from
                                 the RLF provided enough funds to operate the RLF so that the recapital-
                                 ization grant would not be needed. (Denver Regional Office of Audits:
                                 DEN-13741)

                                 Louisiana Local Government Agency

                                 A Louisiana local government agency uses a federal RLF to promote
                                 economic growth in its geographic area by attracting, creating, and
                                 retaining quality jobs and by promoting entrepreneurship. EDA awarded
                                 the organization a $500,000 grant to establish the RLF in 1989 and
                                 another $286,686 grant to recapitalize the fund in 1996.

                                 As in the above audits, we concluded that because the original grant and
                                 loan repayments provided more than enough money to meet the RLF’s
                                 loan demand, recapitalization grant funds were not needed. As of June
                                 2000, almost four years after the second grant award, the grantee had not
                                 made any drawdowns of the grant’s funds, and any of the recapitalization
                                 funds not disbursed by September 30, 2001, will automatically be deobli-
                                 gated. Even if a demand for loans should arise before then, the grantee
                                 would have limited time to adequately evaluate loan applications. There-
                                 fore, we recommended that EDA immediately terminate the recapitaliza-
                                 tion grant and deobligate the $286,686 in grant funds.

                                 In response to our draft report, the grantee asserted that it could use most
                                 of the grant funds by September 30, and provided a list of prospective
                                 borrowers. However, because the grantee did not provide a sufficiently
                                 detailed explanation of when the loans would be made and the funds
                                 would be drawn down, we did not alter our original recommendation.
                                 (Atlanta Regional Office of Audits: ATL-13214)




Commerce OIG Semiannual Report                            26                                      March 2001
Economic Development Administration


Texas Economic Development District

The objective of an economic development district covering 16 Texas
counties is to promote economic growth by assisting in commercial and
industrial expansion and providing adequate financing capital for area
businesses. Among the district’s programs is an EDA-funded RLF. In
1986 EDA awarded the district a $350,000 grant, which was reduced in
1989 to about $125,000, to create the RLF. In 1993 and 1996, EDA
awarded two additional $500,000 grants to recapitalize the RLF.

Our audit determined that the repayments from loans funded through the
original grant and the first recapitalization grant had provided most of the
money needed to meet the district’s loan demand. As a result, the district
had used only $210,000 of the $500,000 second recapitalization grant as
of August 2000. In this case, however, we concluded that the district’s
prospects for making more loans were encouraging, and that it might
have a need for the remaining grant funds before they are automatically
deobligated on September 30, 2001. Accordingly, we made no recommen-
dations regarding the grant funds.

Our audit also found that because the district did not follow all of EDA’s
RLF administrative requirements, it submitted inaccurate financial reports
and failed to fully document loan files or to ensure that annual audits were
correctly performed. We recommended that EDA require the district to
correct these administrative deficiencies. (Atlanta Regional Office of
Audits: ATL-13735)


Audit Confirms Mismanagement, Recommends
Termination of Revolving Loan Fund Grant
In 1995 EDA awarded an RLF grant to a regional development organiza-
tion to assist five flood-distressed counties in Georgia in their recovery
from Tropical Storm Alberto. The grant involved $500,000 in federal
funds and required a local match of $166,667. The OIG conducted an
audit of the grant at the request of EDA, which had been alerted to
potentially serious problems by an earlier review by the Georgia Depart-
ment of Community Affairs.

We found that the grantee’s management of the RLF had been marked
by pervasive problems, poor business judgment, and hundreds of thou-
sands of dollars in inappropriate loans. Our specific findings were as
follows:



Commerce OIG Semiannual Report                                 27              March 2001
                                             Economic Development Administration

                                 ¬       As of December 1999, the grantee had awarded six RLF loans
                                         totaling more than $700,000. One loan for $200,000 was ineligible
                                         for funding under the program because it was made primarily to
                                         refinance a prior debt; it also involved a possible conflict of
                                         interest, as did two other loans, totaling $220,000. Another loan
                                         for $200,000 was made without adequate documentation to justify
                                         the lending decision. In addition, three of the loans, totaling
                                         $420,000, were either in default or seriously delinquent at the time
                                         of our review.

                                 ¬       The grantee failed to provide more than $54,000 of its required
                                         matching share.

                                 ¬       The grantee’s loan files were lacking numerous required
                                         documents.

                                 ¬       The grantee could not demonstrate that it had effectively
                                         marketed the RLF program.

                                 Concluding that it was not in the Department’s best interest to allow the
                                 grantee to continue operating the RLF, we recommended that EDA
                                 terminate the grant for cause and require the grantee to refund more than
                                 $575,000, representing the total dollar amount of the RLF award plus
                                 interest. (Atlanta Regional Office of Audits: ATL-12618)


                                 Utah City Claimed Millions of
                                 Dollars of Unallowable Costs
                                 In September 1996, EDA awarded a Title IX Sudden and Severe Eco-
                                 nomic Dislocation Defense Conversion Grant to a Utah city for the
                                 construction of a sewer line from a recently closed Army installation to a
                                 new wastewater treatment plant so that the installation could be devel-
                                 oped for commercial use. The total approved project cost was $5,371,000,
                                 including a $2,500,000 federal share. Principal construction funding for
                                 the new treatment plant was to be provided by a federal Bureau of
                                 Reclamation grant, matched by the proceeds of a loan from the state and
                                 a general revenue bond.




Commerce OIG Semiannual Report                           28                                       March 2001
Economic Development Administration

As of July 31, 2000, the city had claimed total project costs of roughly
$4.8 million on the EDA grant. An interim OIG audit of the award
questioned $3,416,014 of the costs on the basis that they either duplicated
the city’s claims under the Bureau of Reclamation grant or were not
traceable to supporting documentation. We recommended that EDA
disallow the questioned costs and direct the city to remove them from its
cost claims. (Denver Regional Office of Audits: DEN-13104)


EDA Needs to Closely Monitor
Grantee’s Progress in Making New Loans
In 1992 EDA awarded a grant to a southern California county agency for
the operation of an RLF as part of a larger award made with Department
of Defense adjustment moneys to help mitigate the effects of Defense
downsizing in the county. The $1 million RLF grant was designated as a
subgrant to a local economic development organization. In 1995, however,
recognizing that the RLF was not achieving its intended purpose, the
county agency petitioned EDA to have the RLF transferred back to the
county. Through no fault of the agency, the transfer was not ultimately
effected until 1999, at which time the award balance was $737,500. At
that point, the agency redesignated the RLF as a technology loan program
and revised the administrative plan to target high-technology start-ups.

An OIG audit found no significant deficiencies with the RLF project.
Nevertheless, we noted that because of administrative delays in the
transfer of the RLF back to the county agency, no loans had been made
for 4 years. We also raised concerns about whether the RLF could be
effectively used under the revised administrative plan because after three
loans were made by the agency shortly after the transfer in mid-1999, it
was unable to attract viable loan applications. The effective use of the
RLF would depend in part on EDA’s approving the agency’s proposal to
explore “equity financing” in addition to traditional debt financing.

After we issued our draft report, there was evidence of increased
demand for loans from the RLF, and some loans were being processed.
In addition, EDA determined that the RLF is viable under the revised
administrative plan and extended the schedule for disbursing the remain-
ing grant funds. We recommended that EDA closely monitor the agency’s
progress in using the remaining funds, and that, if new loans are not
expeditiously funded, EDA deobligate the unused balance of the RLF and
put the funds to better use. (Seattle Regional Office of Audits:
STL-13176)



Commerce OIG Semiannual Report                                 29             March 2001
                                              Economic Development Administration


                                 EDA-Funded Agricultural Facilities in Puerto Rico
                                 Found to Be Severely Underutilized
                                 In conjunction with an audit of an RLF in Puerto Rico, the OIG was
                                 asked by EDA to review the status of two projects funded by EDA
                                 grants to a Puerto Rico government agency—a coffee processing and
                                 storage facility and an agricultural exchange and services center, which
                                 houses several facilities used to promote and market agricultural goods.
                                 In a March 19 management memorandum to EDA, we reported that both
                                 projects were severely underutilized and not accomplishing their intended
                                 purposes. Specifically, we found that:

                                 ¬       The coffee processing plant had been shut down for almost a
                                         year, although many bags of coffee beans were were awaiting
                                         processing in a building adjacent to the plant. Project officials
                                         estimated that the project had been operating at only 30 percent
                                         of capacity, but expected an increase in demand for coffee by the
                                         end of the year. Officials attributed the low demand to competi-
                                         tion from other coffee processors and a large loss of coffee
                                         crops due to the devastation caused by Hurricane Georges.

                                 ¬       Several of the facilities of the agricultural exchange and services
                                         center had not operated since the EDA grant was awarded in
                                         1993. For example, neither the facility that stores and markets
                                         incoming cattle nor the center’s cafeteria was being used. In
                                         addition, project officials stated that they were using the center’s
                                         exhibition hall only about 25 percent of the time on weekends for
                                         agricultural competitions and exhibitions.

                                 In response to our observations, which we discussed in a March 19
                                 memorandum to EDA, and other EDA concerns, the head of the govern-
                                 ment agency administering the grants wrote to EDA detailing various
                                 actions planned to remedy the underutilization of the agricultural facilities.
                                 EDA has requested that the agency submit quarterly progress reports,
                                 and has advised us that it will closely monitor the agency’s actions.
                                 (Atlanta Regional Office of Audits)




Commerce OIG Semiannual Report                            30                                        March 2001
Economic Development Administration


No Major Problems Found with Grantee’s
Management of Two Revolving Loan Funds
A southern California community development organization, whose
mission is to serve low-income distressed communities, was awarded two
EDA grants to fund RLFs. The first, awarded in September 1980, was a
Long-Term Economic Deterioration implementation grant that provided
$500,000 in EDA funds to capitalize one of the RLFs. The other grant,
awarded in September 1994, provided $5.4 million under the Financial
Restructuring Assistance Program to capitalize a second RLF to provide
targeted assistance to businesses harmed by the Northridge earthquake,
which struck earlier that year.

OIG audits of the grants took no major exceptions to the grantee’s loan
origination practices, servicing, or accomplishments under the RLFs. We
did note some minor problems relating to the capital utilization rate, the
level of working capital loans, and various reporting issues.

The grantee agreed with our findings and stated that it had already begun
to work with EDA to implement our recommendations. (Seattle Regional
Office of Audits: STL-13178-1 and STL-13178-2)


Northern California Organization
Complied with Grant Requirements
EDA awarded four grants totaling $8.3 million to a northern California
nonprofit corporation, which was established in 1988 to help offset the
economic impacts of military base closures and the decline in the defense
and aerospace industries in its region. One grant was intended to assist
local communities in reducing the impact of 11 military base closures by
encouraging the expansion of competitive growth industries and the
generation of new jobs. The other three grants were intended to offset
the effects of defense downsizing by expanding international trade
opportunities and increasing exports in selected industries.

An OIG audit identified no problems with the organization’s administration
of the grants. An evaluation of its internal control system identified no
material weaknesses; the amount of matching funds exceeded require-
ments; and most contracts had been awarded on a competitive basis. As
a result, we made no recommendations. (Seattle Regional Office of
Audits: STL-13173)



Commerce OIG Semiannual Report                                 31            March 2001
                                                              Economics and
                                                    Statistics Administration
   The Economics and Statistics           Bureau Addresses OIG Concerns About
   Administration analyzes                Handling of Possible Duplicate Census Records
   economic developments, develops
   policy options, and produces a
                                          The Constitution mandates that a census of the nation’s population be
   major share of U.S. government
                                          taken every 10 years for the purpose of congressional apportionment. In
   economic and demographic
   statistics. The Chief Economist        counting the population during the decennial census, the Census Bureau
   monitors and analyzes economic         relies on its Master Address File (MAF) to identify where people reside.
   developments and directs studies       To overcome the historical undercoverage of housing units for the 2000
   that have a bearing on the             decennial, the bureau devised an inclusive approach for retaining ad-
   formulation of economic policy.        dresses in the MAF and used a wider variety of sources to obtain MAF
   ESA has two principal agencies:        addresses. In a report on the MAF issued last year, we found that these
   Bureau of the Census. Census is        factors had resulted in an unknown number of duplicate addresses, which
   the country’s preeminent statistical   could result in some people being counted twice (see September 2000
   collection and dissemination
                                          issue, page 26).
   agency. It publishes a wide variety
   of statistical data about people and
   the economy of the nation, con-        As the decennial progressed, the bureau became increasingly concerned
   ducting approximately 200 annual       about address duplication and developed a process for resolving the
   surveys, in addition to the decen-     problem, with the goal of producing more accurate apportionment num-
   nial census of the U.S. population     bers. The bureau used this process to identify 6 million people in 2.4
   and the decennial census of            million housing units as potential duplicates. However, the bureau con-
   industry.                              cluded that there was not enough time to resolve the status of the sus-
   Bureau of Economic Analysis.           pected duplicates before the census results were needed for the tightly
   BEA’s goal is to provide a clear       scheduled operations of the Accuracy and Coverage Evaluation, and
   picture of the U.S. economy by
                                          decided to remove all suspected duplicates from A.C.E. processing.
   preparing, developing, and
   interpreting the national income
   and product accounts (sum-             The A.C.E. is a statistical survey of a sample of the population, the
   marized by the gross domestic          results of which are compared with decennial records to determine
   product), as well as aggregate         people missed or counted erroneously. The A.C.E. uses a process called
   measures of international,             “dual system estimation” to estimate the net undercount of various
   regional, and state economic           demographic groups of the population and to calculate factors that can be
   activity.                              used to adjust the decennial counts. Although the U.S. Supreme Court
                                          had ruled that statistical sampling could not be used for congressional
                                          apportionment, the Court did not prohibit sampling for other purposes,
                                          including redistricting. By law, the Secretary of Commerce was required
                                          to report redistricting data from the 2000 decennial to the states by
                                          April 1, 2001. The Census Bureau was responsible for recommending to
                                          the Secretary whether the redistricting data should be the unadjusted
                                          decennial data or the decennial data as adjusted by the A.C.E.

                                          Once the bureau decided which of the suspected duplicate records to
                                          remove from the decennial, the remaining records were incorporated into
                                          the A.C.E. final calculations using the bureau’s usual approach for dealing
                                          with late census data. The decision on the duplicates resulted in the


Commerce OIG Semiannual Report                                   32                                      March 2001
Economics and Statistics Administration

removal of approximately 3.6 million people in 1.4 million housing units
from the decennial and the reinstatement of approximately 2.4 million                 Economics and
people in 1 million housing units. According to bureau officials, treating              Statistics
the reinstated records as late census data introduced little or no error into         Administration
the A.C.E. results if certain implicit assumptions held true.
                                                                                Bureau            Bureau of
The OIG conducted an evaluation to determine whether the bureau’s                of the           Economic
approach for handling the reinstatement of the 2.4 million people into the      Census            Analysis
decennial was effective in minimizing the impact on the accuracy and
reliability of the A.C.E. We reported our major concern—whether the
assumptions implicit in the approach were valid for the reinstated
people—to senior bureau officials during meetings held in January and
February 2001. We recommended that they prepare an analysis of the
likely impact of their method for handling the reinstated person records.
We also recommended that they ensure that the impact was considered
in the bureau’s process for reviewing the decennial and A.C.E. results in
order to make a recommendation to the Secretary of Commerce about
whether the decennial counts should be statistically adjusted for redistrict-
ing.

The bureau’s actions were responsive to our concerns and recommenda-
tions, considering the short time frame available for reviewing the data
and making the recommendation on whether to adjust. It considered the
likely impact of their method for handling the reinstated person records in
its analyses and reports supporting its recommendation. The bureau plans
to perform further evaluation studies to assess the impact of the rein-
statements.

We believe that such studies are appropriate to better understand both the
impact on dual system estimation in the 2000 decennial and the impact of
similar late data requirements in future censuses and surveys because
dual system estimation is an important bureau methodology for measuring
data quality. Further, to help avoid similar problems with the MAF in the
future, we reaffirmed the recommendations presented in our earlier
report regarding approaches for addressing housing unit overcoverage
and undercoverage.

The bureau ultimately recommended that the unadjusted data be released
as its official redistricting data because the information available at that
time was insufficient to conclude that the adjusted data would be more
accurate. On March 6, 2001, the Secretary announced that the unad-
justed data would be used. (Office of Systems Evaluation: OSE-13812)




Commerce OIG Semiannual Report                                  33                                     March 2001
                                           Economics and Statistics Administration


                                 Audit of the Census Bureau’s
                                 FY 2000 Financial Statements
                                 The CPA firm conducting our audit of the Census Bureau’s FY 2000
                                 financial statements rendered an unqualified opinion for the second
                                 consecutive year. While acknowledging this accomplishment, we empha-
                                 size that deficiencies in internal controls still need to be addressed. The
                                 firm identified three reportable conditions in the bureau’s internal control
                                 structure, the first two of which are material weaknesses.

                                 ¬       Financial management and reporting. The bureau continued
                                         to experience significant difficulties and delays in producing
                                         complete, accurate financial statements in accordance with
                                         departmental requirements.

                                 ¬       Account reconciliations. A number of key financial statement
                                         account balances were not reconciled in a timely manner.

                                 ¬       Information system reporting and controls. Partly because
                                         of the accelerated deployment of systems and procedures to
                                         support the decennial census, many bureau improvements in the
                                         design and implementation of general and application-level
                                         controls were not completed by the end of FY 2000. As a result,
                                         a series of management, technical, and cost risks were not
                                         adequately mitigated.

                                 In conjunction with its audit of the financial statements, the firm con-
                                 ducted a review of the general controls associated with the bureau’s
                                 information systems. The firm identified weaknesses in entitywide
                                 security program planning and management, and access control. If not
                                 resolved, these weaknesses could adversely affect the security of the
                                 data, programs, and hardware maintained at the bureau, and could have a
                                 negative effect on the financial statements of both the bureau and the
                                 Department. The weaknesses, and the firm’s recommendations for
                                 correcting them, were discussed in a separate report on systems issues.




Commerce OIG Semiannual Report                           34                                       March 2001
Economics and Statistics Administration

The firm identified no instances of material noncompliance with laws and
regulations, nor any instances in which the bureau’s financial manage-
ment systems did not comply with applicable federal requirements.

The bureau agreed with the findings and recommendations in both of the
firm’s reports and described some actions planned to address the recom-
mendations. (Financial Statements Audits Division: FSD-12850-1 and
FSD-12850-2)




Commerce OIG Semiannual Report                              35             March 2001
                                                                   Inter na
                                                                   Interna  tional Tr ade
                                                                         national
                                                                        Administr
                                                                        Administra ation

   The International Trade
                                            Further Improvements Possible in the On-Line
   Administration is responsible for        Delivery of Export Information and Services
   the trade promotion and trade
   policy issues associated with most       Technology—and, in particular, the Internet—is changing how the
   nonagricultural goods and                government conducts its business and how it communicates, both inter-
   services, and works with the Office
                                            nally and externally. In recognition of this, Commerce is planning to move
   of the U.S. Trade Representative in
   coordinating U.S. trade policy. ITA      from being a paper-based bureaucracy to a “Digital Department,” in
   has four principal units:                order to obtain, process, produce, and provide information using a variety
   Market Access and Compliance.            of formats and delivery mechanisms to meet the diverse needs of its
   MAC develops and implements              employees and customers. An OIG review examined how well the
   international economic policies of       Department, through ITA, is using the Internet to provide export promo-
   a bilateral, multilateral, or regional   tion information and services to the public.
   nature. Its main objectives are to
   obtain market access for American        ITA has made considerable progress in improving access to its on-line
   firms and workers and to achieve         information through recent efforts to make its web sites more user-
   full compliance by foreign nations
                                            friendly. However, we identified a number of weaknesses that still need
   with trade agreements signed with
   the United States.                       to be addressed. A summary of our findings follows:
   Trade Development. TD advises
   on international trade and               ¬       Progress has been made in improving ITA’s web sites.
   investment policies pertaining to                While many ITA units have good web sites, we identified four
   U.S. industrial sectors, carries out             sites as particularly noteworthy (1) The Trade Information
   programs to strengthen domestic                  Center’s web site is one of ITA’s first customer resource and
   export competitiveness, and pro-                 referral centers. (2) The U.S. and Foreign Commercial Service
   motes U.S. industry’s increased                  has standardized the format of its web site and placed a common
   participation in international
                                                    logo and banner on the web pages of its 262 domestic and foreign
   markets.
   Import Administration. IA                        offices. (3) ITA has reorganized its home page so that users can
   defends American industry against                readily access information by topic instead of by organization.
   injurious and unfair trade practices             (4) The bureau has also developed a portal that will provide
   by administering the antidumping                 access to all federal agency export promotion efforts.
   and countervailing duty laws of the
   United States, and enforcing other       ¬       Increased coordination is needed to better integrate ITA’s
   trade laws and agreements                        web sites. Although coordination within ITA has improved
   negotiated to address such trade
                                                    because of the recent redesign of the home page, more needs to
   practices.
   U.S. & Foreign Commercial                        be done to present a cohesive, integrated web presence. Each
   Service. US&FCS promotes the                     ITA unit has its own web site, information, and services, and
   exports of U.S. companies and                    duplication and inconsistencies can be found across many of the
   helps small and medium-sized                     sites. To address these problems, increased coordination among
   businesses market their goods                    these units is needed. Coordination among federal agencies with
   and services abroad. It has 105                  trade promotion responsibilities is also needed. ITA should
   domestic offices and 157 overseas                establish a permanent governing board for Internet operations to
   posts in 84 countries.                           coordinate web site activities, both internally and with other
                                                    federal trade agencies.


Commerce OIG Semiannual Report                                     36                                      March 2001
International Trade Administration

¬     Better planning is essential to provide more products and
      services on-line. The 1998 Government Paperwork Elimination
      Act requires that, by October 2003, federal agencies provide the                International
                                                                                          Trade
      public, when practicable, the option of submitting, maintaining,               Administration
      and disclosing information electronically. To date, ITA’s on-line
      offerings are limited, and the planning for placing information                              Market
                                                                             Import
      on-line has not been comprehensive. ITA needs to revisit            Administration
                                                                                                 Access and
                                                                                                 Compliance
      decisions not to put some information on-line, as well as expand
      its efforts to identify opportunities for new and improvements to
                                                                                                U.S. and Foreign
      existing on-line products.                                             Trade
                                                                                                 Commercial
                                                                          Development
                                                                                                    Service
¬     More customer feedback should be sought and used to
      improve web sites. ITA has not adequately sought web site
      users’ input regarding their needs. E-mail comments, complaints,
      and suggestions are solicited and managed haphazardly, and other
      types of feedback mechanisms have not been used. ITA should
      establish a formal process to collect and manage customer e-mail
      messages, use focus groups to pre-test changes and new pages,
      obtain real-time feedback about content, and use aggregate usage
      data to improve web sites.

¬     Guidance is needed for the construction and maintenance
      of ITA’s web sites. Because ITA lacks official standards for
      managing and controlling the production of its estimated 300-plus
      web publishers and content providers, the quality of the web
      pages varies significantly. Among the problems we identified
      were pages that contain outdated or undated information, are
      indefinitely “under construction,” or contain dead links. ITA
      should establish standards to provide a consistent level of
      maintenance and quality across its web sites.

¬     Compliance with departmental standards is necessary.
      While most ITA web sites are in compliance with the Depart-
      ment’s standards, some units had pages that were not. Since
      there are few incentives for the staff in charge of the web sites
      to implement the standards, ITA must take responsibility for
      ensuring prompt compliance.

¬     Guidance and oversight are needed to ensure compliance
      with federal law. The Paperwork Reduction Act seeks to
      minimize the public’s burden in responding to government
      information requests by requiring that information collections be
      approved by OMB. However, we found unapproved collections
      on ITA’s site. ITA should prepare appropriate guidance and


Commerce OIG Semiannual Report                              37                                        March 2001
                                                       International Trade Administration

                                         monitor web sites for compliance with the law. In addition,
                                         Section 508 of the 1998 amendments to the Rehabilitation Act
                                         requires federal agencies to provide people with disabilities equal
                                         access to agency electronic and information technologies, unless
                                         the agency can demonstrate an “undue burden.” ITA should
                                         ensure compliance with Section 508 once it becomes effective in
                                         June 2001.

                                 We were pleased with ITA’s willingness to respond to the concerns we
                                 raised during our review. In response to our report, the agency agreed
                                 with our findings and began or continued taking actions to implement our
                                 recommendations. However, ITA also expressed concern about the
                                 timing of our review, given that the agency is in the process of redesign-
                                 ing its web presence. We believe that the timing of our review was
                                 beneficial because ITA can address our concerns as part of its redesign
                                 process. (Office of Inspections and Program Evaluations:
                                 IPE-13213)


                                 US&FCS Mexico Post Needed Better
                                 Financial and Administrative Management
                                 Mexico is a natural market and its firms are natural partners for compa-
                                 nies in the United States. In addition to sharing a 2,000-mile border, the
                                 two countries are bound by the North American Free Trade Agreement,
                                 under which all tariffs are scheduled to be phased out by January 2004.
                                 The U.S. share of the Mexican import market is nearly 85 percent. In
                                 1999 the United States had a $22.8 billion trade deficit with Mexico, its
                                 second leading trading partner, with nearly $200 billion in total trade.

                                 To assist U.S. exporters seeking to penetrate this market, ITA’s U.S. and
                                 Foreign Commercial Service (US&FCS) established offices in Mexico
                                 City, Tijuana, Guadalajara, and Monterrey. As of October 31, 1999,
                                 US&FCS Mexico employed 11 American officers, 34 foreign service
                                 nationals, and 31 personal services contractors, as well as a number of
                                 part-time trade aides on an as-needed basis. The post’s FY 1999 operat-
                                 ing budget was just over $2 million.

                                 An OIG inspection in the summer of 1999 found that US&FCS Mexico
                                 was generally responsive to the needs of its export promotion clients and
                                 maintained an active trade event schedule. Nevertheless, we identified a
                                 number of areas needing management attention:




Commerce OIG Semiannual Report                           38                                      March 2001
International Trade Administration




The existence of the trade center, rather than exporter needs,
was driving the post’s activities. US&FCS Mexico was overempha-
sizing trade shows and events, in part because it resides in a U.S. govern-
ment-owned trade center building and has historically maintained a heavy
events schedule. The post had not developed an adequate strategic plan
to identify other areas where it could focus its efforts. In addition, several
of the post’s partners indicated that its market research was deficient.

The trade center has beneficial relationships with its collocated
partners, but the relationships were lacking in other areas. Al-
though benefits were achieved through the interaction between US&FCS
staff and the non-Commerce occupants of space, the agreements signed
by US&FCS staff in Mexico with the partners were inadequate in several
respects.

US&FCS Border initiatives needed to be better coordinated. The
growth of economic activity along both sides of the U.S.-Mexico border
has focused US&FCS’s attention on business opportunities for U.S.
exporters in the region. However, US&FCS needed to better coordinate
the efforts of its domestic and international offices on border initiatives in


Commerce OIG Semiannual Report                                   39              March 2001
                                                       International Trade Administration

                                 order to avoid overlap and duplication, as well as the potential waste of
                                 resources or confusion on the part of U.S. exporters facing multiple
                                 US&FCS points of contact.

                                 Trade aides are not appropriately used. Trade aides, foreign nationals
                                 hired on a part-time basis to provide basic support to the office’s trade
                                 promotion efforts, were inappropriately producing a large part of the core
                                 products and services that are typically handled by trade specialists.
                                 Moreover, the post was inappropriately using a blanket purchase agree-
                                 ment to hire trade aides, lacked a formal assignment and evaluation
                                 system for these staff, and inappropriately assigned some of them to the
                                 state trade offices.

                                 Post staffing needed to be reexamined. In FY 2000, US&FCS
                                 planned to have 13 American officers and 60 locally employed staff
                                 throughout Mexico, with 85 percent of all employees located at the trade
                                 center in Mexico City. In our view, US&FCS may have more staff than it
                                 needs in Mexico City.

                                 Some administrative matters needed attention. Although certain
                                 administrative areas were being adequately handled, we questioned
                                 (1) the post’s procedures for documenting inventory, gifts and bequests,
                                 and security certifications; (2) the disorganization of the post’s warehouse
                                 and the potential fire, safety, and theft hazards it presented; and (3) staff
                                 members’ use of official vehicles for non-business purposes, as well as
                                 the need for five vehicles in Mexico City.

                                 Management of deposit fund was problematic. Our review of the
                                 deposit fund account revealed inadequate record-keeping, unidentified
                                 embassy-posted transactions, unliquidated obligation balances dating back
                                 to FY 1996, an absence of trade event final obligation reporting, and
                                 inadequate reporting of purchase card expenses. The post also lacked an
                                 effective system to rationally identify and assign costs, both direct and
                                 overhead, associated with activities conducted in the US&FCS facility in
                                 Mexico City.

                                 Border conference problems suggest a need for better handling of
                                 high profile trips and travel expenses. Concerns were raised by
                                 embassy staff regarding several US&FCS expense vouchers related to a
                                 June 1999 Tijuana conference attended by senior Department officials.
                                 Our review of the conference-related documentation, including authoriza-
                                 tion cables and travel vouchers, revealed a number of irregularities.




Commerce OIG Semiannual Report                           40                                       March 2001
International Trade Administration

Effectiveness of constituent offices varied. In reviewing the activities
of the three constituent offices outside of Mexico City, we concluded that
the staff in Monterrey were productive, but appeared overburdened;
Guadalajara’s lagging productivity and poor consulate and business
relations needed attention; and although Tijuana had produced a number
of successes, the level of activity at the office may not warrant a full-
time, on-site officer.

We made a number of recommendations to address our concerns.
US&FCS generally agreed with our observations and outlined corrective
actions being taken. Among these actions was the deobligation of
$762,028 in both the operations and administration account and the trust
fund account. We commended US&FCS and the post for their plans for
addressing our recommendations. (Office of Inspections and Program
Evaluations: IPE-11844)


Audit of FY 2000 Financial Statements
For FY 2000, the second consecutive year, ITA received an unqualified
opinion on its financial statements. Nevertheless, the CPA firm conduct-
ing the audit identified two reportable conditions, both of which were
considered to be material weaknesses.

¬       Financial management processes. The firm concluded that
        ITA needed to do more to ensure that its financial statements are
        prepared on a timely basis from complete, accurate information.
        Specifically, certain property transactions were not accurately
        recorded, and certain payroll-related transactions were not
        promptly approved or recorded.

¬       Potential for misstatement on the consolidating statements
        of net cost. Initially, ITA allocated the same percentages of
        expenses and revenues to its four goals in FY 2000 that it had in
        the prior year, without verifying that the FY 1999 percentages
        were still appropriate. After the financial statements had been
        prepared and we brought this matter to its attention, ITA
        performed verification procedures, which resulted in a change in
        the revenues and expenses allocated to one of the goals.




Commerce OIG Semiannual Report                                41             March 2001
                                                       International Trade Administration

                                 Upon testing ITA’s compliance with certain provisions of laws and
                                 regulation, the firm identified one instance of material noncompliance:

                                 ¬       User charges. Because ITA lacks adequate procedures
                                         to ensure compliance with OMB’s policy on user charges, there is
                                         a significant risk that revenues from its trade events may not be
                                         sufficient to cover costs.

                                 On a positive note, the firm did not identify any instances in which ITA’s
                                 financial management systems did not substantially comply with appli-
                                 cable federal requirements. Moreover, in conjunction with its audit of the
                                 financial statements, the firm conducted a review of the general controls
                                 associated with the Department of the Interior’s National Business
                                 Center, which provides accounting services for ITA. The firm concluded
                                 that the risk was low that any material misstatement of ITA’s financial
                                 statements would be caused by improperly designed or ineffectively
                                 applied information technology controls. (Financial Statements Audits
                                 Division: FSD-12854-1 and FSD-12854-2)


                                 OIG Reviews Cooperative Agreements
                                 Awarded to a Trade Association
                                 The OIG conducted audit work related to three ITA cooperative agree-
                                 ments awarded to an industry trade association:

                                 ¬       The first agreement, with an award period of October 1994
                                         through September 1998, had a total project budget of about
                                         $1.5 million, with a federal share of $440,000. The purpose of the
                                         agreement was to establish a U.S. Information Technology
                                         Office in Beijing, China. Our audit of the agreement questioned
                                         $597,914 out of total claimed costs of about $1.2 million. Of the
                                         questioned costs, $367,454 consisted of unsupported or unallo-
                                         cable personnel costs, and $230,460 involved nonsalary costs
                                         lacking supporting documentation. We recommended that ITA
                                         disallow the questioned costs and recover $116,466 disbursed in
                                         excess of allowable costs.

                                 ¬       The second agreement, with an award period of October 1995
                                         through December 1996, had a total budget of about $260,000,
                                         with a federal share of about $50,000. Its purpose was to
                                         produce a training course on software asset management for use
                                         throughout Central and South America. Out of total claimed costs
                                         of about $250,000, we questioned $17,654, which consisted

Commerce OIG Semiannual Report                           42                                      March 2001
International Trade Administration

      primarily of nonsalary costs lacking supporting documentation.
      Again, we recommended that ITA disallow the costs and recover
      about $5,000 in excess disbursements.

¬     The trade association also has a third cooperative agreement with
      ITA, with an award period of October 1999 through September
      2001, and a total budget of roughly $400,000, of which ITA
      intends to provide about $130,000. The purpose of this agreement
      is to further develop an electronic commerce website to help
      U.S. businesses generate increased exports through the Internet.
      Our accounting system survey of the award determined that the
      awardee’s accounting and financial management systems were
      generally adequate to safeguard government assets. However,
      we recommended that the awardee establish a detailed activity
      report to support personnel costs and obtain fidelity bonds
      covering any personnel authorized to disburse federal funds.
      (Business and Trade Audits Division: BTD-12650)




Commerce OIG Semiannual Report                            43              March 2001
                                                               Minority Business
                                                            Development Ag
                                                            Dev             enc
                                                                         Agenc
                                                                            encyy
  The Minority Business                  Puerto Rican Bank Did Not Provide
  Development Agency was
  created to help minority-owned
                                         Adequate Support for Personnel Costs
  and operated businesses achieve
  effective and equal participation in   MBDA’s Minority Business Opportunity Committee program is designed
  the American free enterprise           to identify and coordinate local business resources to benefit minority
  system, and overcome the social        business development. A bank in Puerto Rico received two MBDA
  and economic disadvantages that        cooperative agreement awards under the program. The first was a one-
  have limited their participation in    year $207,640 award for calendar year 1998 that required a $146,183
  the past. MBDA provides                matching share. The second was an award for the 3-year period 1999-
  management and technical               2001 that is funded annually. The award agreement called for $234,333 in
  assistance to minority firms upon
                                         MBDA funds and a $247,946 matching share for 1999, and $239,874 in
  request, primarily through a
  network of business development
                                         MBDA funds and a $243,821 matching share for 2000.
  centers. It also promotes and
  coordinates the efforts of other       The OIG conducted an audit of the completed 1998 award, and an interim
  federal agencies in assisting or       audit covering the first two years of the second award. According to
  providing market opportunities for     MBDA, the bank had achieved its quantitative project goals and per-
  minority businesses.                   formed at a satisfactory level. However, our audit found that the bank:

                                         ¬       Claimed $534,395 in questioned costs, including over $500,000 in
                                                 inadequately supported salary and fringe benefit costs for
                                                 employees who worked part time on the project.
        Minority Business
          Development                    ¬       Reported a combination of budgeted and actual costs, instead of
            Agency                               only actual costs, on its quarterly status reports and submitted
                                                 most of the reports late.
  Management             Programs
                                         ¬       Did not include the MBDA awards on its schedule of expendi-
                                                 tures of federal awards, which resulted in the awards being
                                                 excluded from testing for federal compliance during two annual
                                                 organization-wide audits.

                                         We recommended that the Department direct the bank to maintain
                                         detailed time records for all bank employees who work part time on the
                                         project, report only actual project costs on its status reports and submit
                                         the reports on time, and include the MBDA award on its annual schedule
                                         of expenditures of federal awards for inclusion in future annual audits.
                                         We also recommended that the Department disallow the questioned costs
                                         and recover and deobligate $246,168 in excess federal funds disbursed.
                                         The bank did not dispute our findings, but did disagree with our recom-
                                         mendation regarding the questioned costs. (Atlanta Regional Office of
                                         Audits: ATL-13950)



Commerce OIG Semiannual Report                                  44                                      March 2001
National Oceanic and
Atmospheric Administration
Work on Electronic Charting
                                                                                 The National Oceanic and
Database Should Be Recompeted                                                    Atmospheric Administration
                                                                                 studies climate and global change;
The Federal Technology Transfer Act of 1986, as amended, authorizes              ensures the protection of coastal
the government to enter into cooperative research and development                oceans and the management of
agreements (CRADAs) with nonfederal partners to conduct research or              marine resources; provides
                                                                                 weather services; and manages
development that is consistent with governmental missions. CRADAs are
                                                                                 worldwide environmental data. It
intended to promote the commercialization of federally developed technol-        does this through the following
ogy by providing the private sector with access to federal research.             organizations:
Under CRADAs, both partners may exchange personnel, services,                    National Weather Service. NWS
facilities, equipment, and intellectual property, but only the nonfederal        reports the weather of the United
partner may contribute funds to the project. Because a CRADA is not a            States and provides weather
procurement instrument, the public notice and competition requirements           forecasts and warnings to the
of the Competition in Contracting Act do not apply.                              general public.
                                                                                 National Ocean Service. NOS
In 1993 NOAA decided to solicit non-federal partners for work on its             issues nautical and aeronautical
                                                                                 charts; performs geodetic surveys;
electronic charting database and, in October 1994, entered into a
                                                                                 conducts research; and develops
CRADA with a private firm to perform research and development on                 policies on ocean mining and
electronic nautical charts and related data, systems, and software. The          energy.
CRADA granted the partner firm exclusive access to the NOAA data                 National Marine Fisheries
files that are used to produce the charts, and the exclusive right to sell the   Service. NMFS conducts a
agency’s official electronic nautical charts. The CRADA requires the             program of management,
partner firm to pay to NOAA 5 percent of the net revenues derived from           research, and services related to
the sale of products produced under the agreement.                               the protection and rational use of
                                                                                 living marine resources.
The CRADA was scheduled to expire on April 6, 2001, but would                    National Environmental Satellite,
                                                                                 Data, and Information Service.
automatically renew for 4 years unless either party opted not to renew by
                                                                                 NESDIS observes the environment
February 5. A NOAA review panel was convened in September 2000 to                by operating a national satellite
consider the CRADA, as well as alternatives to it, and to make a recom-          system.
mendation to NOAA management for renewal, recompetition, or termina-             Office of Oceanic and
tion.                                                                            Atmospheric Research. OAR
                                                                                 conducts research related to the
However, a coalition of private sector nautical charting firms complained        oceans and inland waters, the
that they believed NOAA was improperly using its CRADA authority to              lower and upper atmosphere,
create an anti-competitive, sole-source monopoly with its partner. Specifi-      space environment, and the Earth.
cally, the coalition asserted that the nautical charts to be created under       Office of Marine and Aviation
                                                                                 Operations. OMAO operates
the CRADA already existed in the private sector and that there was no
                                                                                 NOAA’s ships and aircraft and
need for NOAA to expend tax dollars to duplicate this capability. The            provides NOAA programs with
coalition also argued that NOAA’s policy limiting access to hydrographic         trained technical and management
data to the partner must be changed to stimulate competition, which              personnel from the nation’s
should lead to better products at lower prices.                                  seventh uniformed service.




Commerce OIG Semiannual Report                                   45                                      March 2001
                                         National Oceanic and Atmospheric Administration

                                           The OIG conducted an audit of the CRADA that focused on determining
                                           whether NOAA should renew the CRADA, and reported the following:

                                           ¬      NOAA should recompete the work on its database. To
                     NOAA                         ensure delivery of the best value product to chart purchasers, we
                                                  recommended that NOAA recompete the work on its electronic
                             National
                                                  nautical charting database before the CRADA was automatically
     National
     Weather                 Ocean                renewed. We also recommended that NOAA determine whether
     Service                 Service              a CRADA is still the most appropriate legal instrument for
                                                  continuing such work. Although NOAA is not required to
     National                                     compete work conducted through a CRADA, it should strengthen
  Marine Fisheries           NESDIS
      Service                                     its CRADA policy by including periodic reassessments of
                                                  whether the work should be recompeted, in order to ensure that it
  Oceanic and               Marine and            is providing electronic nautical charts with the highest quality, in a
  Atmospheric                Aviation             timely manner, and at the lowest cost to chart purchasers.
   Research                 Operations

                                           ¬      NOAA should strengthen internal controls over partner
                                                  research payments. We concluded that if NOAA determined
                                                  that a CRADA was still the most appropriate instrument for
                                                  continuing the work on its charting database, it should strengthen
                                                  internal controls over partner research payments by regularly
                                                  verifying the underlying basis for those payments. Although
                                                  allowed to do so under the terms of the CRADA, NOAA had not
                                                  reviewed the partner’s accounting records to verify reported
                                                  revenues. As a result, it could not ensure that the partner was
                                                  paying the full amount to which NOAA is entitled.

                                           ¬      NOAA should retain and enforce the CRADA’s reporting
                                                  requirement. We further concluded that if NOAA determined
                                                  that a CRADA was still the most appropriate instrument for the
                                                  project, it should ensure that both parties fully comply with the
                                                  agreement’s reporting requirement. We found that the parties had
                                                  failed to exchange written progress reports, as required by the
                                                  CRADA. NOAA believes the requirement is unnecessary and is
                                                  planning to remove it from the agreement, but we believe such
                                                  reports are essential for complying with federal internal control
                                                  standards.




Commerce OIG Semiannual Report                                    46                                        March 2001
National Oceanic and Atmospheric Administration

NOAA agreed with all but one of our recommendations. It disagreed that
it should compete its electronic nautical charting work as soon as pos-
sible. NOAA stated that it had determined that a CRADA remains the
best legal instrument for continuing the development of its electronic
nautical charting work. However, it restricted the scope of the CRADA
to address some of the concerns raised by the private-sector nautical
charting firms. In addition, NOAA plans to take certain actions to pro-
mote competition for the production of the next-generation electronic
nautical charts. We continue to believe that seeking competition for all of
the charts would have been in NOAA’s best interests. (Science and
Technology Audits Division: STD-13440)


Audit of FY 2000 Financial Statements
As it had in FY 1999, NOAA received an unqualified opinion on its
FY 2000 financial statements. In addition, the CPA firm conducting the
audit found no material weaknesses in the agency’s internal control
structure. However, the following two reportable conditions were
identified:

¬       Controls over fund monitoring should be improved.

¬       Information technology processing access control weaknesses
        and other financial system deficiencies should be addressed.

In a separate review of the general controls associated with NOAA’s
information systems, the firm identified weaknesses in access control and
service continuity. If not resolved, these weaknesses could adversely
affect the security of NOAA’s data, programs, and hardware and have a
negative effect on both the agency’s and the Department’s financial
statements. The weaknesses, and the firm’s recommendations for
correcting them, were discussed in a separate report on systems issues.

In evaluating NOAA’s compliance with laws and regulations and with
federal financial management system requirements, the firm identified
several instances of noncompliance. Specifically, NOAA did not fully
fund its capital leases during FY 2000; its financial management system
neither complies with all applicable requirements nor adequately supports
the budget execution process; and its financial accounting system does
not support the preparation of timely, accurate financial statements
through an integrated system.




Commerce OIG Semiannual Report                                47              March 2001
                                 National Oceanic and Atmospheric Administration

                                   NOAA concurred with the findings and recommendations in both of the
                                   firm’s reports. NOAA’s and the Department’s corrective action for
                                   certain of the identified deficiencies will be addressed through the contin-
                                   ued implementation of the Commerce Administrative Management
                                   System. (Financial Statements Audits Division: FSD-12855-1 and
                                   FSD-12855-2)


                                   Evaluation of the National Data Buoy Center’s
                                   Technical Services Contract Was Inadequate
                                   The National Data Buoy Center, located at the Stennis Space Center in
                                   Mississippi, operates a system of approximately 130 weather observing
                                   buoys and land-based stations for the National Weather Service. The
                                   system is operated by a contractor, whose technical services are pur-
                                   chased through a 5-year cost-plus-award-fee contract that gives NOAA
                                   the right to recompete it annually. The center’s previous contract ran
                                   from July 1995 through June 2000 and had an estimated value of about
                                   $33.7 million as of October 1999. In May 2000, the center awarded a
                                   new 5-year cost-plus-award-fee contract to a different contractor. The
                                   contract, which has an estimated value of $32.4 million, became effective
                                   on July 1, 2000.

                                   The OIG conducted an audit to follow up on NOAA’s actions to imple-
                                   ment the recommendations we made in a July 1995 report on the Data
                                   Buoy Center’s contract (see September 1995 issue, page 59). In that
                                   earlier audit report, we recommended that NOAA convert the contract to
                                   a performance-based contract, to the extent practicable, reevaluate the
                                   contract type and consider converting all or parts of it to a firm fixed-
                                   price format, and then consider recompeting the contract before it expired
                                   if the benefits of such a conversion appeared to outweigh the costs.

                                   NOAA agreed with our 1995 recommendations.

                                   NOAA’s audit action plan called for it to reevaluate the contract and
                                   consider converting all or part of it to a performance-based contract and
                                   to conduct an extensive contract review to determine if the contract
                                   should be converted, in whole or in part, to a firm fixed-price format.
                                   NOAA subsequently reported that it had fully implemented the audit
                                   action plan as of September 1997, and based on NOAA’s reported
                                   actions, the audit recommendations were closed.




Commerce OIG Semiannual Report                             48                                       March 2001
National Oceanic and Atmospheric Administration

However, our follow-up audit found that the center:

¬       Had reviewed only the relatively minor support services area of
        the contract, which accounts for just 15 percent of the estimated
        cost, and excluded from its review more significant contract
        areas, such as operations and maintenance.

¬       Had conducted only a cursory contract review instead of the
        extensive review described in the audit action plan.

¬       Did not document its review findings and could not show that
        NOAA’s Office of Finance and Administration, which has
        expertise in procurement issues and reportedly assisted the
        center in implementing the audit action plan, had reviewed and
        approved the findings.

Because of these deficiencies, the center’s limited contract review does
not convincingly demonstrate that performance-based contracting tech-
niques cannot be effectively incorporated into the contract and that a
fixed-price contract should not be used to perform some, if not all, of the
center’s technical services work.

Various studies and experience suggest that converting the center’s
technical services contract could produce significant savings. For ex-
ample, based on the Department of the Navy’s experience, OMB found
that between 20 and 40 percent of a contract’s cost can be saved through
conversion to a performance-based contract. Applying OMB’s most
conservative 20-percent estimate means that if NOAA were to convert
the contract as of June 30, 2001, the end of the contract’s first year, it
could save $5.2 million over the remaining four years of the contract.

We recommended that NOAA direct center officials to (1) conduct an
analysis of the contract to determine which portions can be converted to
a performance-based contract, (2) conduct an analysis to determine
which portions should be converted to a fixed-price format, (3) provide
documentation of the analyses to NWS headquarters and the Office of
Finance and Administration for review, (4) consider recompeting the
contract at the end of the first year if the analyses show that the benefits
of recompeting outweigh the costs, and (5) if the contract is not
recompeted at the end of the first year, convert the appropriate portions
of it to a performance-based contract and/or firm fixed-price format
when the contract expires. We also recommended that the Office of
Finance and Administration review the center’s analyses and direct that
the contract be converted to the extent appropriate at its expiration if it is
not recompeted at the end of the first year.

Commerce OIG Semiannual Report                                   49              March 2001
                                 National Oceanic and Atmospheric Administration

                                   In response to our report, NOAA asserted that the center had conducted
                                   an in-depth review of all contract areas and concluded that the work
                                   required of the contractor was generally unpredictable and could not be
                                   converted to a performance-based or fixed-price contract. However, the
                                   documents that NOAA provided did not support its assertion that the
                                   review was sufficiently comprehensive. Moreover, NOAA’s arguments
                                   against a fixed-price contract strongly suggest that the current contract is
                                   being administered as an inappropriate personal services contract; that is,
                                   a contract that by its express terms or as administered makes it appear
                                   that contractor personnel are acting as government employees. (Atlanta
                                   Regional Office of Audits: ATL-12319)


                                   NOAA Laboratory’s Decisions Related to
                                   Supercomputer Acquisition Were Proper
                                   NOAA’s Geophysical Fluid Dynamics Laboratory engages in research in
                                   the fields of meteorology, oceanography, hydrology, physics, fluid dynam-
                                   ics, chemistry, applied mathematics, and numerical analysis. Among the
                                   laboratory’s important research tools is a supercomputer, which recently
                                   reached the end of a five-year lease. To replace the supercomputer, the
                                   laboratory procured an enhanced computer system for use from FY 2000
                                   through FY 2006. The contract was awarded on September 27, 2000, for
                                   a total cost of approximately $67 million.

                                   The OIG conducted a review to determine whether the need for the
                                   supercomputer was properly justified, whether laboratory officials had
                                   performed an appropriate analysis of the various lease and purchase
                                   options, and whether the resulting contract incorporates the laboratory’s
                                   preferred terms. Because of time constraints imposed by the contracting
                                   schedule, we could not conduct a complete cost audit of the firm-fixed-
                                   price proposals and resulting contract before its award. Instead we
                                   reviewed the available financing options that would comply with the
                                   laboratory’s contractual requirements without compromising its techno-
                                   logical needs.

                                   In a March 2001 management memorandum to NOAA, we reported that
                                   the laboratory’s decision and the resulting contract, which provides for
                                   leasing substantially all of the supercomputer components, appeared to be
                                   in the best interests of the laboratory and the government. For example,
                                   the laboratory adequately justified its need for the supercomputer and
                                   properly performed analyses comparing lease versus purchase. In
                                   addition, the contract incorporates the laboratory’s preferred terms,
                                   including leasing major components while purchasing other components


Commerce OIG Semiannual Report                             50                                       March 2001
National Oceanic and Atmospheric Administration

and related maintenance. Since the funding for the supercomputer will be
awarded annually over 6 years, leasing major components allows the
laboratory to terminate the contract if its annual appropriation is not
available and to upgrade the system as technological advances are made.
(Denver Regional Office of Audits)


Allegations of Improper Use of Federal Funds
at Washington Fish Hatchery Unsubstantiated
The Mitchell Act (16 U.S.C. §755 et seq.) provides funds to the states of
Washington, Oregon, and Idaho for the enhancement and conservation of
anadromous fish species (those that ascend rivers from the sea to breed).
Among activities authorized by the act are constructing and maintaining
fish hatcheries, conducting research, clearing streams, and building and
maintaining devices and structures for the fish.

NOAA awarded about $5.6 million in Mitchell Act funds to the Washing-
ton State Department of Fish and Wildlife primarily for the operation and
maintenance of six fish hatcheries along the Columbia River from Octo-
ber 1997 through September 1999. An anonymous letter to the OIG
alleged improper use of funds at one of the hatcheries. The specific
allegations were that personnel costs were improperly charged to the
hatchery, fish food purchased for the hatchery was not used there,
hatchery funds were “borrowed” until the beginning of a new fiscal year,
equipment and tools were missing or were taken to other hatcheries,
travel costs were improperly charged, vehicles purchased with Mitchell
Act funds were not used or were not available to hatchery personnel, and
funds were transferred from the hatchery to an over-budget construction
project.

In response to the letter, we performed a limited-scope review of the
allegations of misuse of funds, which included testing Department of Fish
and Wildlife financial records and reviewing state audit reports to deter-
mine whether the alleged activities took place and, if so, whether they
violated the Mitchell Act or the financial terms and conditions of the
award.

Our review revealed no corroborating evidence to support the anonymous
allegations of misuse of hatchery funds. In some cases, the complainant’s
lack of specificity prevented us from identifying the particular actions
being criticized as improper. Moreover, the Mitchell Act and the terms of
the award to the state are sufficiently broad to allow a wide range of
activities to conserve and enhance anadromous fish resources on the


Commerce OIG Semiannual Report                                51             March 2001
                                 National Oceanic and Atmospheric Administration

                                   Columbia River. Because we found no evidence of misuse of federal
                                   funds, we made no recommendations. (Seattle Regional Office of
                                   Audits: STL-13177)




Commerce OIG Semiannual Report                           52                                   March 2001
National Telecommunications
and Information Administration
Grantee Failed to Provide Matching Share
and Adequately Safeguard Equipment                                           The mission of the National
                                                                             Telecommunications and
In October 1997, NTIA awarded a $614,701 Telecommunications and              Information Administration is to
Information Infrastructure Assistance grant to a city agency in Pennsyl-     (a) serve through the Secretary of
vania to develop an integrated information database linking agencies that    Commerce as the principal
                                                                             executive branch advisor to the
deliver human services in low-income communities. The grant agreement
                                                                             President on domestic and
required $663,379 in matching funds, bringing the total project budget to    international communications and
$1,278,080. A March 1999 amendment extended the grant period and             information policies, (b) ensure
increased the matching share requirement to $857,642, for total project      effective and efficient federal use
funding of $1,472,343. The amended grant period was from October 1997        of the electromagnetic spectrum,
to September 1999.                                                           (c) develop with other federal
                                                                             agencies policies for international
An OIG audit of the award revealed that the grantee had failed to meet       communications and standards-
the grant’s matching share requirement. We questioned $256,821 claimed       setting organizations, (d) serve as
as a matching share, including $207,109 from another federal agency that     the federal telecommunications
                                                                             research and engineering center,
was unallowable as a match under the NTIA grant. We also found that
                                                                             and (e) administer grants under
the grantee had violated the terms and conditions of the award by failing    the Telecommunications and
to adequately safeguard equipment in its possession, maintain accurate       Information Infrastructure
equipment records, or submit timely quarterly progress reports.              Assistance Program and the
                                                                             Public Telecommunications
We questioned a total of $394,873 claimed costs, which included $243,202     Facilities Program.
for salaries and fringe benefits, $52,976 for equipment, $41,489 for
contracts, and $57,206 for travel, supplies, and other costs. The grantee
had been reimbursed $471,406, which exceeded the amount of federal
funds earned by $164,860. In addition, grant funds totaling $308,155 could
be deobligated. We recommended that the Department’s grants office:                         NTIA


¬       Disallow the $394,873 questioned costs and recover the $164,860                                    Policy
                                                                              Spectrum
        excess federal disbursements.                                        Management
                                                                                                        Analysis and
                                                                                                        Development

¬       Deobligate the remaining $308,155 in grant funds.
                                                                             Telecom. and               Institute for
                                                                              Information                 Telecom.
¬       Require the grantee to conduct a complete inventory of all           Applications                Sciences

        equipment costing $500 or more that was purchased with grant
        funds and to submit the required inventory report to the                        International
                                                                                           Affairs
        Department.

The grantee disagreed with our findings, but did not supply sufficient
documentation to support its position. (Atlanta Regional Office of
Audits: ATL-13174)




Commerce OIG Semiannual Report                                53                                          March 2001
                                                            United States Patent
                                                           and Trademark Office
                                         Search System Problems Being Addressed,
   The United States Patent and          but Improvements Needed for Future Systems
   Trademark Office administers the
   nation’s patent and trademark
   laws. Patents are granted, and        Patent examiners determine the uniqueness of an invention submitted
   trademarks registered, under a        for patent by searching previously granted U.S. and foreign patents, as
   system intended to provide            well as other technical documents. Since USPTO introduced its first
   incentives to invent, to invest in    computerized patent search system in 1986, examiners have increas-
   research, to commercialize new        ingly relied on automated searching, which is designed to improve patent
   technology, and to draw attention     quality and maintain examiner productivity as the volume of patent
   to inventions that would otherwise    filings increases.
   go unnoticed. USPTO also
   collects, assembles, publishes, and
                                         In 1994 USPTO decided to replace its primary search system because
   disseminates technological
   information disclosed in patents.
                                         the technology was becoming obsolete, the system had severe capacity
                                         limitations, and making it year 2000 compliant would not be economical.
                                         USPTO planned to remove the system from operation by September 30,
                                         1999, at which time a new search system had to be ready. The Patent
                                         Commissioner and USPTO’s Chief Information Officer (CIO) were the
                                         designated “decision authorities” for the new system, with responsibility
                                         for monitoring progress and approving key decisions.

                                         The OIG conducted an evaluation of the development and operation of
                                         USPTO’s new search system to determine whether it is adequately
                                         supporting patent application processing and to identify improvements
                                         that can be applied to future systems acquisitions. We found that the
                                         fixed deadline, coupled with schedule delays, put a great deal of pres-
                                         sure on the program and contributed to a number of problems. When it
                                         began operating, the system performed poorly, providing slow response
                                         times and crashing frequently, causing examiners to lose work and time
                                         and making it more difficult for them to meet their production quotas.
                                         Compounding these problems was the fact that examiners were not
                                         adequately trained on the new system.

                                         USPTO management acted quickly to resolve these problems, fixing
                                         most of the system’s slow response time and instability problems,
                                         relaxing examiners’ work rules to mitigate the impact on their production
                                         rates, and increasing communications with examiners. The new sys-
                                         tem’s performance has improved, and it has largely fulfilled its primary
                                         goal of overcoming the former system’s limitations. Nevertheless, we
                                         identified the following steps that should be taken to improve future
                                         systems development efforts:




Commerce OIG Semiannual Report                                 54                                     March 2001
United States Patent and Trademark Office

¬     Decision authorities need to be more involved and have
      better information. Although the decision authorities were
      monitoring progress, they were not involved in some key
      decisions and did not have the information they needed to                        U.S. Patent and
                                                                                         Trademark
      effectively assess progress and risks. Consequently, they missed                      Office
      opportunities to mitigate problems. USPTO should strengthen the
      role of the decision authorities at the end of each system life-
      cycle phase and provide them with quantitative information                Patents                   Trademarks

      (metrics) about program progress so that they can better manage
      major information systems acquisitions.                                 CFO/Chief                      Chief
                                                                             Administrative               Information
¬     System requirements need to be fully specified. Two critical             Officer                      Officer

      requirements were not adequately addressed in the requirements
      specifications for the new search system: Text search response            External                   General
                                                                                Affairs                    Counsel
      time was not fully specified, and stability requirements were not
      specified at all. Because specifications are the basis for system
      design, development, testing, and acceptance, we believe that the                      Quality
      incomplete specifications contributed to the system’s initial                        Management
      problems. USPTO should strengthen its process for defining and                       and Training
      documenting requirements to ensure that all requirements are
      fully delineated in requirements specifications.

¬     Acceptance testing needs to be improved. USPTO con-
      ducted tests to determine if the new search system was ready to
      be placed into operation, but significant problems with stability
      and response times were overlooked. USPTO should strengthen
      its acceptance testing procedures in order to improve its ability to
      field systems that are ready for operation.

¬     Communication with end users needs to be improved.
      Although examiners participated in some system life-cycle
      activities, many stated that they were not adequately involved in
      the process and expressed dissatisfaction with the new system.
      We believe that the examiners’ dissatisfaction stems from
      inadequate communication with the program manager and
      developers and lack of a significant, formalized role in the
      development process. USPTO should involve the examiners
      throughout the life-cycle process and formally define their roles in
      order to increase the likelihood that their needs will be met.

¬     Users’ proficiency needs to be ensured before systems
      become operational. Despite delays in completing examiners’
      training on the new search system, USPTO believed that they
      were proficient enough to use it. However, training proved to be


Commerce OIG Semiannual Report                               55                                            March 2001
                                            United States Patent and Trademark Office

                                         insufficient, and examiners had difficulty using the system. USPTO
                                         should evaluate the proficiency of examiners before new systems are
                                         placed into operation and adjust training accordingly.

                                 USPTO agreed with our findings and all but two of our recommendations, and
                                 has begun implementing many of the recommendations. Specifically, it has
                                 begun making substantive changes to its system life-cycle management
                                 methodology that should lower development costs, improve system quality, and
                                 enhance end user acceptance of new systems. The recommendations that
                                 USPTO disagreed with concerned the role of the program decision authorities.
                                 USPTO believes that they are adequately involved in system programs through
                                 regular briefings from program mangers and quarterly progress meetings. We
                                 believe that they should be required to approve, and have the accountability
                                 associated with signing off on, the completion of each life-cycle phase of major
                                 information systems. (Office of Systems Evaluation: OSE-12679)


                                 Audit of FY 2000 Financial Statements
                                 In FY 2000, for the seventh consecutive year, USPTO received an unqualified
                                 opinion on its financial statements. The CPA firm conducting the audit identi-
                                 fied no reportable conditions in USPTO’s internal control structure, nor did it
                                 identify any material instances of noncompliance with laws and regulations or
                                 with other federal financial management requirements. As a result, the firm
                                 made no recommendations.

                                 In conjunction with its audit of the financial statements, the firm’s review of
                                 the general controls associated with USPTO’s information systems identified
                                 weaknesses in four areas: entitywide security program planning and manage-
                                 ment, access control, system software, and service continuity. If not resolved,
                                 these weaknesses could adversely affect the security of USPTO’s data,
                                 programs, and hardware and have a negative effect on the financial state-
                                 ments of both USPTO and the Department. The weaknesses, and the firm’s
                                 recommendations for correcting them, were discussed in a separate report on
                                 systems issues. USPTO agreed with the findings and recommendations in both
                                 of the firm’s reports and expressed its intent to take the necessary corrective
                                 actions. (Financial Statements Audits Division: FSD-12858-1 and FSD-
                                 12858-2)




Commerce OIG Semiannual Report                                56                                     March 2001
Technology Administration

NIST’s Research Agreement with Nonprofit
Organization Should Receive Greater Scrutiny                                  The Technology Administration
                                                                              serves the needs of technology-
                                                                              based industry, advocates federal
In November 1994, NIST entered into a 10-year cooperative research
                                                                              actions and policies to speed the
and development agreement with a nonprofit professional organization to       transfer of technology from the
establish a joint infrared spectral database. Infrared spectra, commonly      laboratory to the marketplace, and
regarded as the “fingerprint” of chemical substances, are used in a wide      removes barriers for commer-
range of applications, such as identifying substances and determining their   cializing new technologies by
composition to solve problems encountered in the work of forensic or          industry. It includes three major
crime laboratories.                                                           organizations:
                                                                              Office of Technology Policy. OTP
To develop the database, approximately 10,000 spectra in paper format         works to raise national awareness
(see example below) owned by the organization were provided to NIST           of the competitive challenge,
                                                                              promotes industry/government/
for conversion into an electronic format. These spectra are to be com-
                                                                              university partnerships, fosters
bined with approximately 10,000 spectra in NIST’s possession to form the      quick commercialization of federal
database, which NIST planned to sell to the public beginning in early         research results, promotes
spring 2001. Over time, NIST and the organization had planned to enlarge      dedication to quality, increases
the collection by soliciting contributions of spectra from the many labora-   industry’s access to and partici-
tories—private, government, and academic—where infrared spectra are           pation in foreign research and
measured.                                                                     development, and encourages the
                                                                              adoption of global standards.
                                                                              National Institute of Standards
                                                                              and Technology. NIST promotes
                                                                              U.S. economic growth by working
                                                                              with industry to develop and apply
                                                                              technology, measurements, and
                                                                              standards. NIST manages four
                                                                              programs: the Advanced Technol-
                                                                              ogy Program, the Manufacturing
                                                                              Extension Partnership Program, a
                                                                              laboratory-based measurement
                                                                              and standards program, and the
                                                                              National Quality Program.
                                                                              National Technical Information
                                                                              Service. NTIS is a self-supporting
                                                                              agency that promotes the nation’s
                                                                              economic growth and job creation
                                                                              by providing access to voluminous
                                                                              information that stimulates
                                                                              innovation and discovery. NTIS
                                                                              accomplishes this mission through
In May 2000, the House Committee on Science referred to the OIG a             two major programs: information
complaint from a private sector firm that the infrared spectral database to   collection and dissemination to the
be created under the CRADA would unfairly compete with one sold by            public, and information and
the firm. We conducted an inspection to determine whether NIST is             production services to federal
unfairly competing with the private sector by entering into this CRADA        agencies.


Commerce OIG Semiannual Report                                57                                       March 2001
                                                                     Technology Administration

                                    and whether the CRADA being used is consistent with the law and an
                                    appropriate instrument for the project. In conducting our review, we
             Technology
            Administration
                                    received technical assistance from the National Science Foundation OIG.
                                    A summary of our findings follows:

                                    Competition with Private Sector Firms Is Not
     NIST                    NTIS   Prohibited, but Projects Must Be Scrutinized

                                    Two legislative mandates, the Standard Reference Data Act and NIST’s
              Technology            organic legislation, authorize the agency to provide high-quality standard
                Policy              reference data to the scientific community. While neither mandate
                                    expressly prohibits the creation of databases that compete with the
                                    private sector, both contain terms that could be interpreted as discourag-
                                    ing NIST from duplicating reference data available elsewhere.

                                    Our review concluded that the database under this CRADA would
                                    compete with the databases of private sector vendors because both
                                    NIST, in its capacity as a database vendor, and the private sector data-
                                    base firms meet most of the same customer needs for infrared spectral
                                    databases. We also found that, before proceeding with the project, NIST
                                    did not adequately assess whether the database was needed or whether it
                                    would duplicate or compete with data already available from other
                                    sources.

                                    We recommended that, before the database is made available to the
                                    public, NIST perform the planning and analysis that it should have
                                    performed before entering into the CRADA. In addition, because of the
                                    plan to add spectra to the database in the future, we believe that NIST
                                    should develop policies and procedures to ensure that any substantial
                                    additions are sufficiently publicized and analyzed before proceeding.
                                    NIST should also submit a project expansion, as well as any future
                                    projects of this nature, to a peer review.

                                    A CRADA Was Not the Appropriate
                                    Instrument for the Project

                                    The key criterion for entering into a CRADA—the transfer of technolo-
                                    gies for future commercial application—was not met in this instance
                                    because no technology transfer is taking place under this CRADA.
                                    Accordingly, we believe that another type of legal agreement would have
                                    been preferable for this project. For any future database collaborations
                                    with outside entities, NIST should carefully assess its options to ensure
                                    that it employs the most appropriate legal instrument.



Commerce OIG Semiannual Report                              58                                      March 2001
Technology Administration

                    ¬       ¬       ¬       ¬        ¬

NIST stated that it generally agreed with our findings and recommenda-
tions, and we concurred with its proposed corrective actions. We are
pleased that NIST has agreed to establish policies and procedures to
ensure that future additions to the database, as well as any future projects
of this nature, are sufficiently evaluated before proceeding. We look
forward to reviewing the policies and procedures when they are com-
pleted. (Office of Inspections and Program Evaluations: IPE-13200)


Internal Controls over NIST’s Bankcard
Program Need Improvement
As part of its periodic review of Commerce units’ use of bankcards, the
OIG conducted an audit of bankcard program implementation and usage
during FY 1998 by the four NIST laboratories in Boulder, Colorado.
Although our audit found no misuse of NIST funds, we did identify
internal control weaknesses in four areas. Specifically, NIST needs to:

¬       Improve cardholders’ performance by requiring them to use
        competitive procurement procedures, use the required purchase
        order log, avoid purchases of prohibited items and obtain required
        approvals, prevent use of bankcards by noncardholders, obtain
        management pre-approval of purchases of significant and
        sensitive items, avoid splitting purchase transactions, and obtain
        required training.

¬       Better control property purchased with bankcards by
        improving property recording procedures and recording
        accountable property built from parts bought with bankcards.

¬       Improve procedures by requiring approving officials to obtain
        cardholders’ records upon termination of employment, document-
        ing alternate approving officials, maintaining bankcard reports in
        order to monitor cardholder accounts every six months, requiring
        certification of bankcard statements before payment, and
        improving separation of duties over transactions.

¬       Improve payment practices by requiring that the original
        certified and approved bankcard statement packages be
        submitted to the servicing NIST finance office before payment.



Commerce OIG Semiannual Report                                 59              March 2001
                                                                   Technology Administration

                                 NIST generally agreed with our findings, and its proposed corrective
                                 actions appear responsive to our recommendations. (Denver Regional
                                 Office of Audits: DEN-11787)


                                 NIST User Fee Programs
                                 Are Generally Well Managed
                                 User fees are levied on classes of individuals or businesses directly
                                 benefiting from, or subject to regulation by, a government program or
                                 activity. User fees are based on the principle that identifiable individuals
                                 or businesses that receive benefits from a governmental service beyond
                                 those that accrue to the general public should bear the cost of providing
                                 the service.

                                 The OIG performed an audit survey to assess how NIST identifies,
                                 reviews, charges, and reports user fees and how it maintains control over
                                 its user fee programs. For our sample period, FY 1999, user fee collec-
                                 tions accounted for only about 3.1 percent of total NIST funding, but
                                 almost 19 percent of the agency’s working capital fund. In that year, the
                                 five programs that were the focus of our survey collected over
                                 $23 million, which represented 99 percent of all NIST user fee collec-
                                 tions.

                                 Our survey revealed no material weaknesses in the way NIST identifies,
                                 charges, collects, reviews, or reports user fees. However, we identified
                                 three areas in which NIST could improve its management of user fees:

                                 ¬       When its programs do not price their products or services to
                                         recover full costs, either because they are exempt from the
                                         requirement or the amounts involved are deemed immaterial,
                                         NIST should disclose this fact in its biennial reports to the
                                         Department.

                                 ¬       NIST should ensure that collections from federal sources are
                                         excluded from its biennial reports on user fee income.

                                 ¬       NIST should periodically reassess its programs’ departures from
                                         full-cost recovery in the event of changes in circumstances.

                                 Because of NIST’s substantial compliance with major user fee require-
                                 ments, we made no recommendations. (Science and Technology Audits
                                 Division)


Commerce OIG Semiannual Report                            60                                       March 2001
Technology Administration


Audit of TA’s, NIST’s, and NTIA’s
FY 2000 Financial Statements
The CPA firm conducting the audit rendered an unqualified opinion on the
FY 2000 combined financial statements of TA, NIST, and NTIA. In prior
years, the financial statements of the three entities had been reported
individually. However, because TA and NTIA receive accounting services
from NIST using NIST’s accounting system, it was decided to combine
their reporting for FY 2000 in order to improve audit efficiency and
reduce duplication of effort.

The firm identified no material weaknesses, but did identify one report-
able condition in NIST’s internal control structure; namely, that the
agency needed to strengthen its information systems’ general controls
procedures. This condition was identified during the firm’s review of the
general controls associated with NIST’s information processing systems.
The firm identified weaknesses in four areas: entitywide security program
planning and management, access control, application software develop-
ment and change control, and segregation of duties.

These weaknesses could adversely affect the security of the data,
programs, and hardware maintained at NIST and have a negative effect
on the financial statements of NIST, TA, NTIA, and the Department. The
weaknesses, and the firm’s recommendations for correcting them, were
discussed in a separate report on systems issues. Because of these
weaknesses, NIST did not substantially comply with the Federal Financial
Management Improvement Act of 1996.

NIST generally agreed with the firm’s findings and recommendations in
both reports and has begun taking corrective actions. (Financial State-
ments Audits Division: FSD-12859-1 and FSD-12859-2)


Audit of NTIS’s FY 2000 Financial Statements
NTIS again received an unqualified opinion on its financial statements.
The CPA firm conducting the audit identified no reportable conditions in
NTIS’s internal control structure, nor any material instances of noncom-
pliance with laws and regulations or with other federal financial manage-
ment requirements. As a result, the firm made no recommendations.
In conjunction with its review of the financial statements, the firm’s
review of the general controls associated with NTIS’s information
systems identified weaknesses only in access control. These weaknesses,
however, could adversely affect the security of NTIS’s data, programs,

Commerce OIG Semiannual Report                               61             March 2001
                                                                   Technology Administration

                                 and hardware and have a negative effect on both NTIS’s and the
                                 Department’s financial statements. The weaknesses, and the firm’s
                                 recommendations for correcting them, were discussed in a separate
                                 report on systems issues. NTIS agreed with the firm’s findings and
                                 recommendations and indicated that it had implemented corrective actions
                                 for the systems weaknesses. (Financial Statements Audits Division:
                                 FSD-12857-1 and FSD-12857-2)


                                 Millions of Dollars of MEP Award Costs
                                 Questioned as Unallowable or Unsupported
                                 In 1996 NIST awarded a cooperative agreement under its Manufacturing
                                 Extension Partnership (MEP) program to an organization whose mission
                                 is to provide manufacturing extension services to small and medium-sized
                                 manufacturers throughout Illinois. The award covered the period from
                                 October 1996 through June 2000 and had total estimated costs of approxi-
                                 mately $20 million. The organization is divided into three regions, each of
                                 which is responsible for covering a portion of the state through a
                                 subagreement.

                                 The OIG performed an interim audit of the Northern Region subagree-
                                 ment covering the period from October 1996 through September 1999.
                                 This subagreement, which is administered by a local college as sub-
                                 recipient, had estimated costs of $4.2 million, with the federal share not to
                                 exceed approximately $1.7 million. For the 3-year award period, the
                                 subrecipient claimed total costs of about $4.9 million.

                                 Our audit questioned a total of $2,480,335 in costs, most of which fell into
                                 the following three categories:

                                 ¬       Training expenses. We questioned $972,917 in costs claimed
                                         for training services that were inappropriately billed at a flat rate,
                                         and were not supported by payroll and time distribution records.

                                 ¬       Third-party expenses. We questioned $790,726 in third-party
                                         in-kind contributions, which consisted of consulting fees paid by
                                         various clients of the subrecipient directly to outside consultants
                                         for services purportedly brokered by the subrecipient. The sub-
                                         recipient had no demonstrable involvement in these transactions:
                                         It did not collect money for the services, perform the services, or
                                         ensure the quality of the services. In addition, the consultants did




Commerce OIG Semiannual Report                            62                                        March 2001
Technology Administration

        not contribute any services to the program or to clients, since
        they charged their full fee, making claimed “in-kind” contributions
        incorrect.

¬       Indirect costs. We questioned $570,575 in claimed indirect costs
        because the subrecipient did not have a negotiated and approved
        indirect cost rate.

We also questioned $60,913 paid for services performed by a consultant
that were not allowable project costs, $50,998 in unsupported personnel
costs, and $34,206 in undocumented contractual and construction costs.
We recommended that NIST require the award recipient to reduce its
total program cost claims by the amount of the questioned costs and
direct the subrecipient to revise its accounting procedures to claim only
supported and allowable costs.

In response to our draft report, the subrecipient agreed to reduce its cost
claims by a total of $378,066, which included all of the unsupported
personnel costs, all of the undocumented contractual and construction
costs, and $292,862 of the costs for third-party expenses. It asserted,
however, that the remainder of the costs that we questioned should be
allowed. We continue to question those costs. (Denver Regional Office
of Audits: DEN-12525)


NIST and MEP Award Recipient Take
Actions to Eliminate Questioned Costs
A cooperative agreement awarded under NIST’s MEP program to a
Louisiana university in 1996 was amended in 1999 to include as co-
recipient another organization that provides manufacturing extension
services to small and medium-sized manufacturers. The amended agree-
ment covered the period from September 1996 through December 2000
and had estimated costs of approximately $7 million, with the govern-
ment’s share not to exceed $3.2 million. As of June 17, 2000, the co-
recipient had claimed total costs of $6.6 million, including a federal share
of $2.7 million.

At NIST’s request, the OIG conducted an audit of the award to the co-
recipient covering the period from September 1996 through May 2000.
The purpose of our audit was to determine whether the co-recipient’s
accounting and financial management systems complied with federal
requirements, evaluate the claimed costs, and identify any instances of
noncompliance with award terms and conditions. We also looked into

Commerce OIG Semiannual Report                                  63             March 2001
                                                                   Technology Administration

                                 issues raised in a state auditor’s report, which reported several violations
                                 of federal regulations, including an inadequate financial management
                                 system and weaknesses in internal controls.

                                 Our audit found that the co-recipient had corrected the deficiencies in its
                                 financial management system and internal controls to bring them into
                                 compliance with federal regulations. However, we questioned $59,628 in
                                 claimed costs, consisting of $29,094 in costs incurred before the award
                                 period, $26,794 in costs that lacked supporting documentation, and $3,740
                                 in indirect costs calculated using an incorrect rate. In response to our
                                 draft report, the co-recipient deducted from its claim the costs questioned
                                 for lack of supporting documentation and the improperly calculated
                                 indirect costs. In addition, NIST amended the award to accept virtually all
                                 of the costs incurred before the award period. As a result, our final report
                                 contained no recommendations. (Denver Regional Office of Audits:
                                 DEN-13102)


                                 Millions of Dollars of Costs Claimed Under
                                 ATP Cooperative Agreement Are Questioned
                                 In 1992 NIST awarded an Advanced Technology Program (ATP) joint
                                 venture cooperative agreement to two firms to conduct research on the
                                 visible spectrum. For the 5-year award period of October 1992 through
                                 September 1997, the project had estimated costs of $18,030,000, with the
                                 federal government’s share not to exceed 49.5 percent of allowable
                                 costs. One of the firms in the venture served as project administrator, and
                                 its portion of the project budget was $6,859,971, with a proposed federal
                                 share of $3,911,953. The total joint venture cost claim for the award was
                                 $20,789,490, of which the administrator firm’s share was $9,618,095.
                                 Based on the cost claims, NIST disbursed $8,735,364 in federal funds, of
                                 which $3,721,809 went to the administrator firm.

                                 NIST requested that the OIG perform an audit of the costs claimed by
                                 the administrator firm under the award. As a result of our audit, we
                                 questioned more than $6.3 million (or about two-thirds) of the firm’s
                                 claimed costs. The questioned costs involved improper claims of commer-
                                 cial sales of the firm’s products, fees claimed for management of the
                                 venture in violation of the approved cost structure, costs for which the
                                 firm did not provide evidence of allocability to the award, and indirect
                                 costs claimed in excess of approved rates.




Commerce OIG Semiannual Report                            64                                       March 2001
Technology Administration

We recommended that NIST disallow the questioned costs and recover
from the firm the resulting excess federal disbursements of over
$1.8 million. (Denver Regional Office of Audits: DEN-12590)


Audits of ATP Joint Venture Cooperative
Agreements Identify Questioned Costs
Two other OIG audits of ATP cooperative agreements also identified
questioned costs.

A Massachusetts firm that was a member of a joint venture had claimed
$1,018,227 in costs under an ATP cooperative agreement. Our audit found
that the firm’s accounting system was adequate to meet federal require-
ments and that it was generally in compliance with the agreement’s terms
and conditions. However, we questioned $240,106 in costs, including
$68,925 of material costs obligated shortly before or immediately after the
expiration date of the award, and $171,181 of indirect costs that were
related to the questioned material costs or calculated using incorrect
rates. We recommended that NIST disallow the questioned costs and
recover $102,853 of excess federal disbursements.

The firm agreed that most of the material costs should not be allowed, but
claimed that some of these costs were necessary to continue the ATP
project after the award period. We note, however, that costs incurred for
continuing a project after award expiration are expressly unallowable
under applicable criteria. The firm also asserted that the indirect costs
exceeding the negotiated rate should be allowed because they were
included only in the matching share, and not in the federal share. How-
ever, indirect costs in excess of approved rates are not allowable regard-
less of how they are claimed. (Denver Regional Office of Audits:
DEN-13532)

We also audited the costs claimed by a New Mexico firm that was a
member of a second joint venture. The firm’s portion of the total project
budget was $1,799,911, with a proposed federal share of $899,956. The
firm withdrew from the joint venture during the second year and claimed
a total of $215,967 in incurred costs. Our audit questioned $67,413 of the
claimed costs related to equipment costs the firm charged as direct costs,
but later improperly transferred to its depreciable equipment account. We
recommended that NIST disallow the questioned costs and recover
excess federal disbursements of $33,757.




Commerce OIG Semiannual Report                                65              March 2001
                                                                  Technology Administration

                                 Although the firm changed its treatment of the equipment costs in re-
                                 sponse to our draft report, it continued to assert that the transfer of the
                                 costs from direct expense to depreciation was justified. We believe that
                                 the firm’s position is not only without merit, but also contradicts its
                                 auditors’ previous treatment of the equipment as a direct expense, and we
                                 reaffirmed our original recommendation. (Denver Regional Office of
                                 Audits: DEN-13965)




Commerce OIG Semiannual Report                           66                                      March 2001
Departmental Management

Policy Has Strengthened Management of Trade
Missions, but More Improvements Can Be Made                                                                                 CFO and
                                                                                                                            Assistant
                                                                                                                          Secretary for
The Department of Commerce, primarily through the Office of the                                                           Administration
Secretary and ITA, organizes and leads trade missions, on which U.S.
business leaders travel overseas with the Secretary or other senior                                        Exec. Budgeting
                                                                                                           and Assistance                      Security
departmental officials to meet with foreign business leaders, companies,                                    Management
and government officials. The missions are designed to open markets,
identify and secure export and investment opportunities for U.S. compa-
nies, showcase American products and technology, and further U.S.                                                                              Financial
                                                                                                                Budget
                                                                                                                                              Management
commercial and foreign policy objectives.

Until 1997, Commerce did not have a written policy governing trade                                           Management                         Human
                                                                                                                 and                          Resources
missions or their management, and it was subjected to sharp criticism                                        Organization                     Management
from various parties claiming that political considerations were a factor in
the recruitment and selection of private sector participants for the mis-
                                                                                                              Acquisition                         Civil
sions. In March 1997, the Department unveiled a comprehensive policy                                         Management                          Rights
covering the trade mission authorization process, the recruitment and
selection of private sector participants, mission costs, and post-mission
reports. The policy explicitly prohibits considering referrals from political                                                                   Small and
                                                                                                            Administrative
                                                                                                                                             Disadvantaged
parties or references to political contributions or activities in the recruit-                                Services
                                                                                                                                             Business Util.
ment and selection of participants.


                         Trade Mission Application and Selection Process


            1. Trade Mission
            Applications filed out by
            potential participants.
            2. Applications mailed or
            faxed to the Department
            of Commerce                                                                        6. Applicants recommended by the Tier I
                                                    3. Applications reviewed by Tier I panel   panel for participation are vetted through
                                                    members against trade mission              the Department to determine if there is any
                                                    participation criteria.                    information that raises questions about
                                                    4. Panel recommends inviting some          their participation.
                                                    applicants, not inviting others, and/or    7. Tier I recommendations and vetting
                                                    collecting additional information on       information are considered by the Tier II
                                                    applications prior to recommendation       panel.
                                                    decisions.
                                                    5. Recommendations on applicants
                                                    forwarded to Tier II panel.




              10. Accepted applicants participate   9. Letters of invitation to chosen
              on the trade mission.                 applicants and letters to unsuccessful      8. Final decision are made by the panel
                                                    applicants are sent out.                    on which applicants to invite on the
                                                                                                trade mission.

Commerce OIG Semiannual Report                                              67                                                               March 2001
                                                                Departmental Management

                                 The OIG conducted a review of the Department’s March 1997 trade
                                 mission policy and its implementation. In a report issued shortly after the
                                 end of the semiannual period, we concluded that the policy has provided a
                                 more disciplined and consistent approach to the conduct of Commerce
                                 trade missions. However, we also identified actions that can be taken to
                                 increase the policy’s effectiveness and further improve the Department’s
                                 management of trade missions. Following are our specific findings:

                                 ¬       Policy has strengthened management of trade missions.
                                         Our review of all 20 trade missions led by either the Secretary or
                                         other high-level Commerce officials from March 1997 to October
                                         2000 showed that many of the objectives and requirements of the
                                         trade mission policy were met. We noted, for example, that for
                                         each of the missions, trade mission statements were prepared
                                         that specifically defined the goals of the missions and the criteria
                                         for participation. In addition, recruitment efforts appeared to be
                                         broad-based, as required by the policy. Most importantly,
                                         decisions as to which private sector individuals went on the
                                         missions, where documented, appeared to be appropriate and
                                         based on objective criteria.

                                 ¬       Improvements are needed in the policy and its implemen-
                                         tation. We identified areas in which the policy could be improved
                                         and its application to future trade missions could be strengthened.
                                         For example, the policy may not be appropriate for all “reverse”
                                         trade missions, which bring foreign buyers to visit U.S. com-
                                         panies, and the “diversity” criterion used on the trade mission
                                         application and in the selection process needs clarification. In
                                         addition, documentation of trade missions has not been
                                         consistently maintained. Key documents related to trade mission
                                         planning were well maintained, but documents related to the
                                         participant recruitment and selection processes, mission results,
                                         and cost reports were not present in all files. Maintaining
                                         appropriate documentation is key to demonstrating that the
                                         missions are being managed in a fair, objective manner.

                                 ¬       The application process could be made more efficient. The
                                         Department has not taken full advantage of opportunities to
                                         reduce the paper-intensive nature of the trade mission application
                                         process and improve its efficiency through wider use of
                                         information technology. Although the Office of the Secretary had
                                         used the Internet for the receipt and delivery of some trade
                                         mission applications, ITA had not used it at all. Considering the
                                         widespread use of the Internet by ITA and the Department to
                                         promote exporting, and the Department’s role in promoting

Commerce OIG Semiannual Report                          68                                      March 2001
Departmental Management

        e-commerce nationwide, we believe that the trade mission
        application process and payment transactions could be more
        efficiently handled electronically.

¬       Certain policy areas need additional implementing
        guidelines and procedures. The topics covered by the trade
        mission policy run the gamut from broad policy goals and
        objectives to specific implementing steps. Although the policy is
        clear on how to implement some of its steps and criteria, it is less
        clear on others, such as documentation requirements. Therefore,
        we believe that the policy needs to be refined and supported by
        specific implementing guidelines to help ensure full and consistent
        compliance. In our view, a revised policy statement, along with a
        set of implementing guidelines, would help both Commerce
        officials and trade mission applicants more readily understand
        what information and steps are required to successfully conduct
        trade missions.

We made a number of recommendations to further strengthen the trade
mission policy and its implementation. In response to our report, the
Secretary indicated that he is committed to following a process of evalua-
tion and action to ensure that trade missions serve their intended public
purpose. (Office of Inspections and Program Evaluations)


Additional Focus Needed on Information
Technology Security Policy and Oversight
Information technology (IT) security is an increasing concern in govern-
ment as vulnerabilities, threats, and attacks grow with the dramatic rise in
the number of government networks and use of the Internet. Although no
network can be guaranteed to be completely secure, agencies can take
steps to mitigate risk, such as developing and overseeing an effective
security program based on sound policy.

Commerce’s Chief Information Officer (CIO) is responsible for develop-
ing and implementing a departmental IT security program to ensure the
confidentiality, integrity, and availability of information and IT resources.
The CIO’s responsibilities include developing policies, procedures, and
directives for IT security and providing oversight of the IT security
programs of the Department’s operating units.

During this semiannual period, the OIG conducted an inspection to assess
the effectiveness of the CIO’s policy and oversight of the Department’s

Commerce OIG Semiannual Report                                  69              March 2001
                                                                 Departmental Management

                                 IT security program. We did not examine classified systems, which are
                                 the responsibility of the Office of Security. Our review focused on the
                                 CIO’s compliance with laws and regulations governing IT security and
                                 the CIO’s actions in recent years to oversee the Department’s IT secu-
                                 rity program.

                                 We found that over the past several years, the CIO’s office has expanded
                                 its focus on and increased the resources devoted to IT security. For
                                 example, the office conducted its first Department-wide assessment of IT
                                 security planning in 1999 and reviewed operating unit self-assessments in
                                 2000, which resulted in increased compliance with security requirements.
                                 However, because IT security did not receive enough attention in the
                                 past, policy and oversight need further improvements, as discussed in the
                                 following sections:

                                 IT Security Policy Needs to Be Revised and Expanded

                                 The Department’s IT security policy is out of date because it was
                                 developed in 1993 and 1995, prior to a significant revision of Appendix III
                                 to OMB Circular A-130, which deals with the security of federal auto-
                                 mated information resources. The policy is also missing important compo-
                                 nents because it has not kept pace with recent trends in technology and
                                 related security threats. The Department’s policy must be kept current
                                 and complete because the operating units use it as the foundation of their
                                 general policies and to write system-specific policies.

                                 The major areas of the policy that need to be revised are IT security
                                 planning, certification of system controls, periodic reviews of individual
                                 systems, security incident reporting, risk assessment, contingency and
                                 disaster recovery planning, security awareness and training, authorization
                                 of systems to process sensitive information, and referencing of related
                                 federal requirements. In addition, issue-specific policy regarding Internet
                                 usage, e-mail, Web security, and communications needs to be added. We
                                 recommended that the CIO revise the outdated program policy and
                                 incomplete issue-specific policies for the Department’s IT security
                                 program as soon as possible.

                                 Additional IT Security Compliance Procedures Are Needed

                                 Although the CIO has recently made strides in improving IT security
                                 compliance, for several years Departmental oversight was minimal. As a
                                 result, security for many of the Department’s systems has not been
                                 adequately planned, and security reviews have not been performed. In
                                 addition, several operating units do not have adequate awareness and


Commerce OIG Semiannual Report                           70                                     March 2001
Departmental Management

training programs or adequate capabilities for responding to IT security
incidents.

The Government Information Security Reform Act requires the CIO to
conduct annual reviews of IT security in 2001 and 2002 similar to the
2000 self-assessments it oversaw. We recommended that the CIO
commit to a program of operating unit reviews that extends beyond the
act’s 2-year review requirement. The reviews should determine whether
all operating unit policy is in compliance with federal criteria, IT security
awareness and training programs have been developed, and formal
incident response capabilities have been implemented.

Moreover, the CIO should work with the Department’s acquisition and
budget managers to ensure that IT-related procurement specifications
include security requirements and that the requirements are included in
operating unit budgets. The CIO should also ensure that deficiencies in IT
security are reported as material weaknesses pursuant to OMB Circular
A-123 and the Federal Managers’ Financial Integrity Act.

The program should also include sampling of operating unit IT security
documents to ensure that IT security planning for the Department’s most
critical systems is complete, systems are properly approved for process-
ing information, the security controls in each system are reviewed
periodically, and a mechanism exists for ensuring that only legal copies of
software are being used.

                     ¬       ¬        ¬       ¬       ¬

The CIO agreed with all of our recommendations for further improving
IT security and cited a number of corrective actions planned to implement
them. Specifically, the CIO agreed to revise, expand, and update the
Department’s IT security policy; continue the compliance review program
beyond the 2-year period required by the act; begin security reviews as
soon as possible; and make specific security improvements at the operat-
ing unit level. (Office of Systems Evaluation: OSE-13573)


Audit of the Department’s FY 2000
Consolidated Financial Statements
For the second consecutive year, FY 2000, the Department received an
unqualified opinion on its consolidated financial statements, and all of its
reporting entities also received clean opinions.



Commerce OIG Semiannual Report                                   71             March 2001
                                                                Departmental Management

                                 Moreover, during FY 2000, sufficient progress was made to warrant
                                 removing from the consolidated report on internal control, the reportable
                                 conditions dealing with controls surrounding property and accounts
                                 payable and accrued grant expenses.

                                 Nevertheless, our audit of the consolidated statements identified four
                                 reportable conditions, of which three are repeat conditions from the prior
                                 year and one—involving prompt recognition and recording of appropria-
                                 tions—is new. Although the Department made progress in correcting
                                 certain aspects of these conditions during the year, further improvements
                                 are needed in the following areas:

                                 ¬       Financial management systems. The Department needs to
                                         integrate its financial systems and improve general controls to
                                         provide assurance that the data used to prepare financial
                                         statements is reliable. While progress is being made, much
                                         remains to be done. In addition, the audits of Commerce reporting
                                         entities’ FY 2000 financial statements included reviews of the
                                         general controls associated with the major financial management
                                         systems. These reviews disclosed system security weaknesses in
                                         all six major review areas identified by the General Accounting
                                         Office’s Federal Information System Controls Audit Manual.
                                         These weaknesses, if not resolved, could adversely affect the
                                         entities’ ability to produce accurate data for financial statements.

                                 ¬       Reporting entities’ financial management and reporting.
                                         Several entities need to improve the timeliness and accuracy of
                                         their financial statements, and provide better financial
                                         management oversight and supervisory review of the statements.
                                         Specifically, three entities, representing more than half of the
                                         Department’s budgetary resources, had material weaknesses
                                         identified in their financial management and reporting processes.
                                         In addition, the entities need to strengthen statement of net cost
                                         preparation, improve implementation of financial systems, and
                                         more closely monitor the budget execution process to reduce the
                                         possibility that funds are overobligated.

                                 ¬       Prompt recognition and recording of appropriations.
                                         Appropriations need to be promptly recognized when enacted into
                                         law and promptly recorded in the appropriate accounting period.
                                         Appropriated amounts relating to the Emergency Steel Loan
                                         Guarantee Program and the Emergency Oil and Gas Loan
                                         Program were not recorded in the general ledger in FY 1999, and
                                         as a result were excluded from the FY 1999 financial statements.


Commerce OIG Semiannual Report                          72                                      March 2001
Departmental Management

        The appropriations were not recorded in a departmental account-
        ing system until almost six months into FY 2000. Reportedly,
        confusion existed as to whether or where the appropriations had
        been recorded.

¬       Reconciliations. The Department and its reporting entities need
        to strengthen their procedures related to reconciliations. Consis-
        tent with the prior year, internal control deficiencies continued to
        be identified in some reporting entities’ reconciliation process.
        Reconciliations were identified as a material weakness at one
        reporting entity and as a component of a material weakness at
        another reporting entity. In addition, the Department did not
        complete the required reconciliations of intragovernmental
        balances with other federal and non-federal entities.

We consider the first three reportable conditions described above to be
material weaknesses, and we made recommendations to the Department
to address all four conditions.

In performing tests of the Department’s compliance with selected
provisions of applicable laws and regulations that could materially affect
the FY 2000 consolidated financial statements, we noted four instances of
noncompliance:

¬       The Department was not in substantial compliance with the
        requirements of the Federal Financial Management Improvement
        Act of 1996 in that it did not meet the requirements for a single,
        integrated financial management system. In addition, three of the
        Department’s financial management systems did not fully comply
        with federal financial management systems requirements.

¬       The Department did not comply with the Government Perform-
        ance and Results Act of 1993 and the implementation guidance in
        OMB Circular A-11. Specifically, it did not submit its Strategic
        Plan for FY 2000-05 to the Congress until more than 3 months
        after the mandated deadline.

¬       NOAA did not fully fund its capital leases, a practice that is
        contrary to OMB Circular A-11, which requires agencies to have
        sufficient budgetary resources up front to cover the present value
        of the lease payments for capital assets and lease purchases.




Commerce OIG Semiannual Report                                 73              March 2001
                                                                 Departmental Management

                                 ¬       ITA has not fully complied with OMB Circular A-25, which
                                         requires federal agencies to recover the full cost of providing
                                         goods and services unless it has received a waiver from OMB.

                                 All of the findings and recommendations included in this report and the
                                 individual reporting entity reports have been reviewed by appropriate
                                 departmental managers. They generally concurred with our audit findings
                                 but did not agree that the deficiency related to the prompt recognition and
                                 recording of appropriations should be considered a material weakness.
                                 (Financial Statements Audits Division: FSD-12849)

                                 Section 803 of the Federal Financial Management Improvement Act
                                 requires agencies to determine whether they are in substantial compliance
                                 with the act. If not, they are required to prepare a remediation plan
                                 outlining the actions to bring them into compliance. The Department of
                                 Commerce determined that it is not in compliance with the act and has
                                 prepared a remediation plan.

                                 Under Section 804(b) of the act, the OIG is required to notify the Con-
                                 gress when the Department does not meet intermediate target dates in its
                                 remediation plan. We did not identify any instances that would necessitate
                                 notifying the Congress. The Department plans to update its remediation
                                 plan on the basis of progress made and the results of the audit of its
                                 FY 2000 statements.


                                 Audit of the FY 2000 Combined Financial
                                 Statements of Several Departmental Entities
                                 An unqualified opinion was received on the FY 2000 combined financial
                                 statements of ESA and BEA, MBDA, and the Department’s Working
                                 Capital and Salaries and Expense Funds and its Emergency Steel Loan
                                 Guarantee and Emergency Oil and Gas Guaranteed Loan Programs. All
                                 of these entities receive accounting services from NIST, which uses the
                                 Financial Accounting and Reporting System, operated by the
                                 Department’s Office of Computer Services. Therefore, in an effort to
                                 improve audit efficiency and reduce duplication of effort, the financial
                                 statement reporting for these entities was combined.

                                 The CPA firm conducting the audit identified one material weakness in
                                 the combined entities’ internal control structure involving the recording of
                                 the beginning balances of the unexpended appropriations for the two loan
                                 guarantee programs. The audit revealed that the appropriated amounts
                                 for these programs—totaling $270 million—were not recorded in the

Commerce OIG Semiannual Report                           74                                      March 2001
Departmental Management

general ledger in FY 1999, and as a result, the FY 2000 beginning bal-
ances for the two programs were not in the accounting system. Appro-
priations need to be promptly recognized when enacted into law and
promptly recorded in the appropriate accounting period. The firm also
determined that the reporting entity’s financial management systems did
not substantially comply with applicable requirements, as required by the
Federal Financial Management Improvement Act.

In addition, the firm conducted a review of the general controls associ-
ated with the Financial Accounting and Reporting System. Following up
on a number of recommendations made in prior years, the firm found that
most had been implemented. It also made two new recommendations
involving entitywide security program planning and management and
access control. The Office of Computer Services agreed with the
systems-related findings and recommendations and began implementing
corrective actions. (Financial Statements Audits Division:
FSD-12852-1 and FSD-12852-2)


Preaward Financial Assistance Screening
As part of our continuing emphasis on prevention, we continue to work
with the Office of Executive Budgeting and Assistance Management,
NOAA and NIST grant offices, and EDA program offices to screen the
Department’s proposed grants and cooperative agreements before
award. Our screening serves two functions: It provides information on
whether the applicant has unresolved audit findings and recommendations
on earlier awards, and it determines whether a name check or investiga-
tion has revealed any negative history on individuals or organizations
connected with a proposed award.

During this period, we screened 485 proposed awards. On 17 of the
awards, we found major deficiencies that could affect the ability of the
proposed recipients to maintain proper control over federal funds. On the
basis of the information we provided, the Department withdrew some
awards, delayed other awards until concerns were satisfactorily resolved,
and established special conditions for one award to adequately safeguard
federal funds. (Office of Audits)




Commerce OIG Semiannual Report                               75             March 2001
                                                                 Departmental Management


                                                     Preaward Screening Results
                                     Results                                Number             Amount

                                     Awards withdrawn                            7             $140,000
                                     Awards delayed to resolve concerns          9            5,425,515
                                     Special award conditions established        1              370,000




                                 Indirect Cost Rates
                                 Under OMB policy, a single federal agency—the “cognizant agency”—is
                                 responsible for the review, negotiation, and approval of indirect cost rates
                                 for public and private entities receiving funds under various federal
                                 programs. Normally, the federal agency providing the most direct funding
                                 to an entity is designated as its cognizant agency. OMB has designated
                                 Commerce as the cognizant agency for about 280 economic development
                                 districts, as well as a number of state and local government units. From
                                 time to time, the Department also has oversight responsibilities for other
                                 recipient organizations. The Department has authorized the OIG to
                                 negotiate indirect cost rates and review cost allocation plans on its behalf.
                                 The OIG reviews and approves the methodology and principles used in
                                 pooling indirect costs and establishing an appropriate base for distributing
                                 those costs to ensure that each federal, state, and local program bears its
                                 fair share.

                                 During this period, we negotiated 18 indirect cost rate agreements with
                                 nonprofit organizations and governmental agencies, and reviewed and
                                 approved 16 cost allocation plans. We also provided technical assistance
                                 to recipients of Commerce awards regarding the use of rates established
                                 by other federal agencies and their applicability to our awards. Further,
                                 we continued to work closely with first-time for-profit recipients of
                                 Commerce awards to establish indirect cost proposals that are acceptable
                                 for OIG review. (Atlanta Regional Office of Audits)


                                 Nonfederal Audit Activities
                                 In addition to OIG-performed audits, certain of the Department’s financial
                                 assistance recipients are periodically audited by state and local govern-
                                 ment auditors and by independent public accountants. OMB Circular A-
                                 133, Audits of States, Local Governments, and Non-Profit Organiza-

Commerce OIG Semiannual Report                           76                                      March 2001
Departmental Management

tions, sets forth the audit requirements for most of these audits. For-
profit organizations that receive Advanced Technology Program funds
from NIST are audited in accordance with Government Auditing
Standards and NIST Program-Specific Audit Guidelines for ATP
Cooperative Agreements, issued by the Department.

We examined 155 audit reports during this semiannual period to determine
whether they contained any audit findings related to Department pro-
grams. For 117 of these reports, the Department acts as oversight agency
and monitors the auditee’s compliance with the applicable OMB circulars
or the NIST program-specific reporting requirements. The other 38
reports are from entities for which other federal agencies have oversight
responsibility.


    Report                  OMB                         ATP Program-
    Category             A-133 Audits                   Specific Audits         Total
    Pending
    (October 1, 2000)               7                              34            41

    Received                       76                              86           162

    Examined                       72                              83           155

    Pending
    (March 31, 2001)               11                              37            48


The following table shows a breakdown by bureau of the $243 million in
Commerce funds audited.


                    Bureau                              Funds


                  EDA                               $25,766,231
                  MBDA                                    262,753
                  NIST                             162,595,856*
                  NOAA                                22,904,165
                  NTIA                                    333,679
                  Multi-Agency                       31,085,872
                  Agency not identified                   339,063

                        Total                     $243,287,619
                  *Includes $154,887,994 in ATP program-specific audits.



Commerce OIG Semiannual Report                                             77           March 2001
                                                                Departmental Management

                                 We identified a total of $645,391 in questioned costs. In most reports, the
                                 Department’s programs were considered nonmajor, resulting in limited
                                 transaction and compliance testing against laws, regulations, and grant
                                 terms and conditions. The 15 reports with Commerce findings are listed in
                                 Appendix B-1. (Atlanta Regional Office of Audits)




Commerce OIG Semiannual Report                          78                                     March 2001
Investigative Highlights

The OIG’s Office of Investigations (OI) is responsible for investi-
gating allegations of fraud and other wrongdoing that affect Com-
merce Department programs and operations, including criminal or
otherwise prohibited activities engaged in by employees, contractors,
or recipients of financial assistance. Staffed by special agents
located in Washington, D.C., Denver, and Silver Spring, Maryland,
OI works closely with the Department of Justice and with U.S.
Attorneys’ offices throughout the country to prosecute criminal and
civil actions in order to punish offenders and recover losses suffered
by the government as a result of fraud and misconduct.

Like their counterparts in most OIG offices, OI special agents are
authorized to exercise full law enforcement powers as special
deputy U.S. marshals under a deputation agreement with the Justice
Department. We also work cooperatively with the Federal Bureau
of Investigation and other federal law enforcement agencies on a
regular basis to investigate matters of mutual interest. The results of
OIG investigations of employee misconduct are provided to agency
officials to support disciplinary and administrative actions.

During this semiannual period, OIG investigations led to six convic-
tions and the filing of either indictments or criminal informations
against seven individuals. There were also six personnel actions
taken by the Department as a result of OI case work. The following
are highlights of our investigative activity over the past six months.


Former Census Employee
Indicted for Accepting Bribes
On October 13, 2000, a former community partnership specialist in
the Dayton regional office was indicted by a federal grand jury in
the Southern District of Ohio on charges of wire fraud and bribery
after a joint OIG/FBI investigation disclosed that he had misused his
position to solicit and receive at least $1,750 from four local vendors
in exchange for favorable treatment in purchasing promotional items,
such as t-shirts and mugs, for the 2000 Decennial Census campaign.
The six-count indictment charges the defendant with one count of
wire fraud and five counts of bribery. Bribery offenses carry a
maximum penalty of 15 years’ imprisonment and a $250,000 fine;
wire fraud carries a maximum penalty of 5 years’ imprisonment and
a $250,000 fine. As of the end of this reporting period, a trial date
had not been set. (Washington Field Office of Investigations)



Commerce OIG Semiannual Report                                 79         March 2001
                                                                 Investigative Highlights

                                 NOAA Employee Convicted for
                                 Conflict of Interest Violation
                                 In December 2000, a NOAA employee pleaded guilty to a violation
                                 of 18 U.S.C.§208 after an OIG investigation revealed that he had
                                 engaged in a scheme to obtain rebates from a computer vendor
                                 under a secret “self-servicing” agreement for warranted repairs to
                                 government computers. The terms of the agreement allowed the
                                 employee—rather than the vendor’s technicians—to repair equip-
                                 ment that was under warranty, in return for which the vendor issued
                                 rebate checks to the government in care of the employee. Over a
                                 period of approximately 4 years, the employee received and appro-
                                 priated checks totaling $5,229 that were intended as credits to the
                                 government’s account.

                                 On March 13, 2001, the employee was sentenced in U.S. District
                                 Court for the Eastern District of Virginia to 10 days in jail with 2
                                 years’ supervised probation, and was ordered to pay a $1,000 fine
                                 and make full restitution to the government. He remains on an
                                 indefinite suspension without pay, which NOAA had imposed
                                 following his indictment last October. (Silver Spring Field Office
                                 of Investigations)


                                 Census Employee Pleads Guilty to
                                 Downloading Child Pornography
                                 A joint Commerce OIG/U.S. Customs Service investigation resulted
                                 in the December 2000 conviction of a Census employee for posses-
                                 sion of child pornography, which he had downloaded onto his
                                 government computer. On February 28, 2001, the subject was
                                 sentenced in U.S. District Court for the District of Maryland to
                                 3 years’ probation, mandatory psychiatric counseling, and a $2,500
                                 fine. (Washington Field Office of Investigations)


                                 Employee Receives 30-Day Suspension
                                 for Misuse of Government Equipment
                                 A NOAA employee was suspended for 30 days after an OIG
                                 investigation disclosed that he had used agency photographic
                                 equipment for personal purposes on multiple occasions, and had


Commerce OIG Semiannual Report                     80                                       March 2001
Investigative Highlights

downloaded approximately 400 sexually explicit pictures and stored
them in a password-protected file on his government computer.
(Silver Spring Field Office of Investigations)


Felony Theft Conviction for Personal
Use of Government Purchase Card
On December 12, 2000, a former employee in the Office of Acqui-
sition Management entered a guilty plea on one count of theft of
government property after an OIG investigation disclosed that she
had charged about $50,000 on her government purchase card to
make numerous purchases of clothing, jewelry, and other luxury
items, and to pay her rent and fees for various personal services.
Sentencing has been scheduled for April 2001 in U.S. District Court
for the District of Columbia. (Washington Field Office of Investi-
gations)


Bench Trial Results in Guilty
Verdict on Theft Charge
A former USPTO contract employee was convicted of theft of
government property on January 4, 2001, after trial before a U.S.
district judge in the Eastern District of Virginia on charges that she
had used a government purchase card to make nearly $700 worth
of purchases for personal use. An OIG investigation revealed that a
departing USPTO employee had surrendered her government-
issued purchase card to the defendant in the course of completing
agency separation procedures. The defendant and a companion
then used the card to charge various items of apparel at a women’s
clothing store in Virginia. Sentencing was scheduled for April 2001.
(Silver Spring Field Office of Investigations)


Conspiracy to Defraud the Government
Leads to Conviction of NOAA Employee
On March 14, 2001, a NOAA employee was convicted of con-
spiracy to defraud the government based on an arrangement with
another employee to falsify the latter’s payroll records to reflect
regular and overtime hours that were not actually worked. For five


Commerce OIG Semiannual Report                                 81        March 2001
                                                               Investigative Highlights

                                 pay periods when the second employee was on leave without pay,
                                 the defendant entered false information into the payroll system,
                                 which enabled the absent employee to receive more than $9,800 in
                                 pay to which she was not entitled; she then paid $1,500 of the
                                 proceeds to the defendant. Both employees have resigned from
                                 federal employment, and further action against the second em-
                                 ployee is pending. The defendant’s sentencing is scheduled in U.S.
                                 District Court for the District of Columbia for May 31, 2001.
                                 (Silver Spring Field Office of Investigations)


                                 Former USPTO Employee Convicted of
                                 Theft of Government Property
                                 On October 26, 2000, a former USPTO employee pleaded guilty
                                 to one count of theft of government property after a search
                                 warrant executed during the course of a U.S. Secret Service
                                 credit card/identity fraud investigation turned up numerous Com-
                                 merce personnel and payroll records at her residence. On
                                 January 9, 2001, she was sentenced in U.S. District Court for the
                                 Eastern District of Virginia to one year of supervised probation.
                                 (Silver Spring Field Office of Investigations)


                                 Two Senior Managers
                                 Reprimanded for Misconduct
                                 A senior executive was issued a letter of reprimand based on the
                                 results of an OIG investigation that found he had used his position
                                 to pressure another senior manager into accepting the reassign-
                                 ment of an employee to his division, and then later pressured the
                                 same manager into authorizing a cash award for the transferred
                                 employee. The manager who made the award also received a
                                 letter of reprimand for making the improper award, as well as for
                                 awarding the employee two additional bonuses that were not
                                 appropriate under the agency’s performance award program.
                                 (Silver Spring Field Office of Investigations)




Commerce OIG Semiannual Report                   82                                       March 2001
Investigative Highlights

Employee Suspended for
Misuse of Government Equipment
A patent examiner received a 5-day suspension after an OIG
investigation revealed that he had used government equipment to
make nearly 500 personal telephone calls and telefax transmissions
over a five-month period, many of which were in furtherance of
his private business ventures. (Washington Field Office of
Investigations)


MBDA Employees Cited for Ethics Violation
An MBDA employee was admonished and required to attend
supplemental ethics training after an OIG investigation established
that she had solicited subordinate employees to contribute to the
purchase of a gift for a senior agency official in violation of the
standards of ethical conduct. The senior official was reminded of
the prohibitions regarding acceptance of gifts, and required to
reimburse the employees for the cost of the gift. (Denver Field
Office of Investigations)




Commerce OIG Semiannual Report                                83      March 2001
                                               Office of Inspector General

                                 Audit Resolution and Follow-up
                                 The Inspector General Act Amendments of 1988 require us to present in
                                 this report those audits issued before the beginning of the reporting period
                                 (October 1, 2000) for which no management decision had been made by
                                 the end of the period (March 31, 2001). We are pleased to report that
                                 there are no audit reports that have been unresolved over six months.

                                 Department Administrative Order 213-5, “Audit Resolution and Follow-
                                 up,” provides procedures for management to request a modification to an
                                 approved audit action plan, or for a financial assistance recipient to appeal
                                 an audit resolution determination. The following table summarizes modifi-
                                 cation and appeal activity during the reporting period.



                                   Report Category                       Modifications             Appeals

                                   Actions Pending (October 1, 2000)             0                     5
                                   Submissions                                   0                     5
                                   Decisions                                     0                     3
                                    Actions Pending (March 31, 2001)             0                     7



                                 External Peer Review Finds OIG Audit
                                 Operations in Compliance with Standards
                                 During this semiannual period, a team from the Department of State OIG
                                 completed an external peer review of our audit operations. In its report,
                                 the State team concluded that the system of quality controls for our audit
                                 function has been designed in accordance with the quality standards
                                 established by President’s Council on Integrity and Efficiency and was
                                 being complied with in a manner that provides reasonable assurance of
                                 conforming with professional standards in the conduct of our audits.

                                 The State team performed a comprehensive review of our audit opera-
                                 tions, including both an examination of our policies and procedures and a
                                 critique of the internal quality assurance program managed by our Office
                                 of Compliance and Administration. The team evaluated a number of
                                 completed assignments and the audit files at Office of Audits divisions in
                                 the Washington, D.C., area and regional offices in Atlanta and Denver.



Commerce OIG Semiannual Report                           84                                       March 2001
Office of Inspector General

The final report’s recommendations centered on updating the OIG manual
and encouraging the Office of Audits to adhere more closely to estab-
lished policies. The Office of Audits has already responded, and we will
emphasize these areas during future internal quality reviews.

During this semiannual period, we completed a similar peer review of the
audit activities of the National Aeronautics and Space Administration
OIG. Our final report, presented in January, concluded that the agency’s
OIG also had a quality control system that complied with professional
standards.




Commerce OIG Semiannual Report                              85             March 2001
                                                      Reporting Requirements



                                                 INDEX
    The Inspector General Act of 1978, as amended (1988), specifies reporting requirements for semiannual
    reports. The requirements are listed below and indexed to the applicable pages of this report.


             Section                                        Topic                                 Page

   4(a)(2)                 Review of Legislation and Regulations                                    87

   5(a)(1)                 Significant Problems, Abuses, and Deficiencies                        16-83

   5(a)(2)                 Significant Recommendations for Corrective Action                     16-83

   5(a)(3)                 Prior Significant Recommendations Unimplemented                          87

   5(a)(4)                 Matters Referred to Prosecutive Authorities                           79-83

   5(a)(5) and 6(b)(2)     Information or Assistance Refused                                         88

   5(a)(6)                 Listing of Audit Reports                                              94-101

   5(a)(7)                 Summary of Significant Reports                                         16-83

   5(a)(8)                 Audit Reports—Questioned Costs                                            91

   5(a)(9)                 Audit Reports—Funds to Be Put to Better Use                              92

   5(a)(10)                Prior Audit Reports Unresolved                                        84, 88

   5(a)(11)                Significant Revised Management Decisions                              84, 88

   5(a)(12)                Significant Management Decisions with Which the OIG Disagreed             88

 The OIG is also required by section 804(b) of the Federal Financial Management Improvement Act of 1996
 to report on instances and reasons when an agency has not met the dates of its remediation plan. We
 discuss this matter on page 74.




Commerce OIG Semiannual Report                                 86                                   March 2001
Reporting Requirements

Section 4(a)(2): Review of
Legislation and Regulations
This section requires the Inspector General of each agency to review
existing and proposed legislation and regulations relating to that agency’s
programs and operations. Based on that review, the Inspector General is
required to make recommendations in the semiannual report concerning
the impact of such legislation or regulations on the economy and effi-
ciency in the administration of programs and operations administered or
financed by the agency or on the prevention and detection of fraud and
abuse in those programs and operations. Comments concerning legisla-
tive and regulatory initiatives affecting Commerce programs are dis-
cussed, as appropriate, in relevant sections of the report.


Section 5(a)(3): Prior Significant
Recommendations Unimplemented
This section requires an identification of each significant recommendation
described in previous semiannual reports on which corrective action has
not been completed. Section 5(b) requires that the Secretary transmit to
the Congress statistical tables for audit reports for which no final action
has been taken, plus an explanation of the reasons final action has not
been taken on each such report, except when the management decision
was made within the preceding year.

To include a list of all significant unimplemented recommendations in this
report would be duplicative, costly, unwieldy, and of limited value to the
Congress. Any list would have meaning only if explanations detailed
whether adequate progress is being made to implement each agreed-
upon corrective action. Also, as this semiannual report was being pre-
pared, management was in the process of updating the Department’s
Audit Tracking System as of March 31, 2001, based on semiannual status
reports due from the bureaus in mid-April. An accurate database was
therefore not available to the OIG for reference here. However, addi-
tional information on the status of any audit recommendations may be
obtained through the OIG’s Office of Audits.



Sections 5(a)(5) and 6(b)(2):
Information or Assistance Refused
These sections require a summary of each report to the Secretary when
access, information, or assistance has been unreasonably refused or not


Commerce OIG Semiannual Report                                 87             March 2001
                                                                     Reporting Requirements

                                 provided. There were no such instances during this semiannual period,
                                 and no reports to the Secretary.


                                 Section 5(a)(10): Prior Audit Reports Unresolved
                                 This section requires a summary of each audit report issued before the
                                 beginning of the reporting period for which no management decision has
                                 been made by the end of the reporting period (including the date and title
                                 of each such report), an explanation of the reasons such management
                                 decision has not been made, and a statement concerning the desired
                                 timetable for achieving a management decision on each such report.
                                 There were no reports for this period.


                                 Section 5(a)(11): Significant
                                 Revised Management Decisions
                                 This section requires an explanation of the reasons for any significant
                                 revised management decision made during the reporting period. Depart-
                                 ment Administrative Order 213-5, Audit Resolution and Follow-up,
                                 provides procedures for revision of a management decision. For perfor-
                                 mance audits, the OIG must be consulted and must approve, in advance,
                                 any modification to an audit action plan. For financial assistance audits,
                                 the OIG must concur with any decision that would change the audit
                                 resolution proposal in response to an appeal by the recipient.

                                 The decisions issued on the three appeals of audit-related debts were
                                 finalized with the full participation and concurrence of the OIG.


                                 Section 5(a)(12): Significant Management
                                 Decisions with Which the OIG Disagreed
                                 This section requires information concerning any significant management
                                 decision with which the Inspector General is in disagreement. Depart-
                                 ment Administrative Order 213-5 provides procedures for the elevation of
                                 unresolved audit recommendations to higher levels of Department and
                                 OIG management, including an Audit Resolution Council. During this
                                 period, no audit issues were referred to the Council.




Commerce OIG Semiannual Report                           88                                      March 2001
Statistical Highlights

                                           Audit and Inspection
                                           Statistical Highlights

                   Questioned costs this period                                  $6,744,585

                   Value of audit recommendations made
                   this period that funds be put to better use                   $7,638,948

                   Value of audit recommendations agreed
                   to this period by management                                  $3,070,943

                   Value if inspection recommendations made
                   this period that funds be put to better use                     $762,028



                                                Investigative
                                            Statistical Highlights

                    Matters referred for prosecution                                      10
                    Indictments and informations                                           7
                    Convictions                                                            6
                    Personnel actions*                                                     6
                    Fines, restitutions, judgments, and
                    other civil and administrative recoveries                       $9,714
                  * Includes removals, suspensions, reprimands, demotions, reassignments, and resignations
                  or retirements in lieu of adverse action.




                                           Allegations Processed
                                           by OIG Investigators
                                          Accepted for investigation                           22
                   OIG Hotline
                                          Referred to operating units                          48
                    (202) 482-2495        Evaluated but not accepted for
                    (800) 482-5197          investigation or referral                          67

                 oighotline@oig.doc.gov   Total                                              137

                                          Note: Numerous other allegations and complaints were forwarded
                                          to the appropriate federal and nonfederal investigative agencies.



Commerce OIG Semiannual Report                                      89                                        March 2001
                                                               Tables and Appendixes


   TABLES                                                                                                           P AGE

   1. Audits with Questioned Costs                                                                                       91

   2. Audits with Recommendations That Funds Be Put to Better Use                                                        92


   APPENDIXES
   A. Office of Inspector General Reports                                                                                93

       A-1. Performance Audits                                                                                           94

       A-2. Inspections                                                                                                  95

       A-3. Financial Statements Audits                                                                                  96

       A-4. Financial Related Audits                                                                                     98

   B. Processed Reports                                                                                                 100

       B-1. Processed Financial Related Audits                                                                          101


   DEFINITIONS
   The term questioned cost refers to a cost that is questioned by the OIG because of (1) an alleged violation of a
   provision of a law, regulation, contract, grant, cooperative agreement, or other agreement or document governing the
   expenditure of funds; (2) a finding that, at the time of the audit, such cost is not supported by adequate documentation; or
   (3) a finding that an expenditure of funds for the intended purpose is unnecessary or unreasonable.

   The term unsupported cost refers to a cost that, at the time of the audit, is not supported by adequate documentation.
   Questioned costs include unsupported costs.

   The term recommendation that funds be put to better use refers to a recommendation by the OIG that funds could be
   used more efficiently if Commerce management took action to implement and complete the recommendation, including
   (1) reductions in outlays; (2) deobligation of funds from programs or operations; (3) withdrawal of interest subsidy costs
   on loans or loan guarantees, insurance, or bonds; (4) costs not incurred by implementing recommended improvements
   related to Commerce, a contractor, or a grantee; (5) avoidance of unnecessary expenditures identified in preaward
   reviews of contracts or grant agreements; or (6) any other savings that are specifically identified.

   The term management decision refers to management’s evaluation of the findings and recommendations included in
   the audit report and the issuance of a final decision by management concerning its response.




Commerce OIG Semiannual Report                                           90                                           March 2001
Audits With Questioned Costs
Table 1

                                                                    Questioned       Unsupported
Report Category                                     Number            Costs            Costs



A. Reports for which no management decision             22        $4,675,622          $1,641,276
   had been made by the commencement of
   the reporting period

B. Reports issued during the reporting period           18          6,744,585          2,782,829

    Total reports (A+B) requiring a management          40        11,420,207           4,424,105
    decision during the reporting period

C. Reports for which a management decision              22          4,675,622          1,641,276
   was made during the reporting period

    i. Value of disallowed costs                                    2,912,954          1,646,820

   ii. Value of costs not disallowed                                1,787,401             98,790

D. Reports for which no management decision             18          6,744,585          2,782,829
   had been made by the end of the reporting
   period




Notes and Explanations:

In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
than the original recommendations.

Four audit reports included in this table are also included in the reports with recommendations that funds be put to
better use (see table 2). However, the dollar amounts do not overlap.




Commerce OIG Semiannual Report                                 91                                          March 2001
                                                               Audits With Recommendations
                                                              That Funds Be Put to Better Use
                                                                                      Table 2


Report Category                                     Number              Value



A. Reports for which no management decision               2          $157,989
   had been made by the commencement of
   the reporting period

B. Reports issued during the reporting period             8         7,638,948

    Total reports (A+B) requiring a management          10          7,796,937
    decision during the reporting period

C. Reports for which a management decision                2          157,989
   was made during the reporting period

    i. Value of recommendations agreed to                            157,989
       by management

   ii. Value of recommendations not agreed                               --
       to by management

D. Reports for which no management decision               8        7,638,948
   had been made by the end of the reporting
   period




Notes and Explanations:

In Category C, lines i and ii do not always equal the total on line C since resolution may result in values greater
than the original recommendations.

Four audit reports included in this table are also included in the reports with questioned costs (see table 1).
However, the dollar amounts do not overlap.




Commerce OIG Semiannual Report                                     92                                       March 2001
Office of Inspector General Reports
Appendix A

Type                             Number        Appendix


Performance Audits                  4             A-1

Inspections                         9             A-2

Financial Statements Audits         19            A-3

Financial Related Audits           19             A-4

Total                              51




Commerce OIG Semiannual Report            93              March 2001
                                                                      Performance Audits
                                                                            Appendix A-1


                                                                                  Funds to
                                                                                  Be Put to
Agency        Subject                                      Number        Date     Better Use



EDA           Financial Assistance Programs’ Award        DEN-11580     12/00         --
              Processes Promote Merit-Based Selection
              Decisions, CFDA Nos. 11.300, 11.303-
              11.305, and 11.307

NOAA          NWS National Data Buoy Center’s             ATL-12319     03/01     $ 5,200,000
              Evaluation of Technical Services Contract
              Was Inadequate

              Work on Electronic Charting Database        STD-13440     03/01         --
              Should Be Re-competed

TA            Internal Controls Over NIST’s Bankcard      DEN-11787     03/01         --
              Program Need Improvement




Commerce OIG Semiannual Report                              94                    March 2001
Inspections
Appendix A-2
                                                                                     Funds to Be
                                                                                     Put to
Agency        Subject                                            Number       Date   Better Use



BXA           Most Allegations of Irregularities in          IPE-13313      02/01       --
              Nonproliferation Export Control
              Cooperation Program Could Not
              Be Supported

              Management of the Commerce Control             IPE-13744      03/01       --
              List and Related Processes Should Be
              Improved

              Annual Follow-up Report on Previous            IPE-14246(1)   03/01       --
              Export Control Recommendations, as
              Mandated by the National Defense
              Authorization Act for Fiscal Year 2000

ESA           Actions to Address the Impact on the           OSE-13812      03/01       --
              Accuracy and Coverage Evaluation of
              Suspected Duplicate Persons in the 2000
              Decennial Census

ITA           US&FCS Mexico Requires Better Financial and    IPE-11844      01/01    $762,028
              Administrative Management as It Undertakes
              an Ambitious Export Promotion Program

              Although Progress Has Been Made, More          IPE-13213      03/01        --
              Needs to Be Done to Deliver On-Line Export
              Promotion Information and Services

O/S           Additional Focus Needed on Information         OSE-13573      03/01       --
              Technology Security Policy and Oversight

USPTO         Search System Problems Being Addressed,        OSE-12679      03/01       --
              but Improvements Needed for Future Systems

TA            CRADA with the Coblentz Society Should         IPE-13200      02/01       --
              Receive Greater Scrutiny




Commerce OIG Semiannual Report                              95                       March 2001
                                                                Financial Statements Audits
                                                                               Appendix A-3


Agency        Subject                                         Number        Date



BXA           Financial Statements for FY 2000              FSD-12848      03/01

EDA           Improvements Needed in the General            FSD-12851(1)   01/01
              Controls Associated with
              Financial Management Systems

              Financial Statements for FY 2000              FSD-12851(2)   03/01

ESA           Improvements Needed in the General            FSD-12850(1)   01/01
              Controls Associated with Census Bureau
              Financial Management Systems

              Census Bureau’s Financial Statements          FSD-12850(2)   03/01
              for FY 2000

ITA           Review of General and Application System      FSD-12854(1)   01/01
              Controls Associated with the FY 2000
              Financial Statements

              Financial Statements for FY 2000              FSD-12854(2)   03/01

NOAA          Improvements Needed in the General Controls   FSD-12855(1)   12/00
              Associated with Financial Management
              Systems

              Financial Statements for FY 2000              FSD-12855(2)   03/01

O/S           Department of Commerce’s Consolidated         FSD-12849(1)   03/01
              Financial Statements for FY 2000

              FY 2000 Federal Agencies’ Centralized         FSD-12849(2)   03/01
              Trial-Balance System Data Verification
              Agreed-Upon Procedures

              Follow-up Review of the General Controls      FSD-12852(1)   01/01
              Associated with the Office of Computer
              Services/Financial Accounting and Reporting
              System




Commerce OIG Semiannual Report                               96                     March 2001
Financial Statements Audits
Appendix A-3 (continued)



Agency         Subject                                             Number        Date



O/S            ESA and BEA, MBDA, WCF, S&E, and ELGP              FSD-12852(2)   03/01
               FY 2000 Combined Financial Statements

USPTO          Improvements Needed in the General                 FSD-12858(1)   12/00
               Controls Associated with Financial
               Management Systems

               Financial Statements for FY 2000                   FSD-12858(2)   03/01

TA             Improvements Needed in the General                 FSD-12859(1)   02/01
               Controls Associated with NIST Financial
               Management Systems

               TA, NIST, and NTIA Combined Financial              FSD-12859(2)   03/01
               Statements for FY 2000

               Improvements Needed in the General Controls        FSD-12857(1)   01/01
               Associated with NTIS Financial Managemnt
               Systems

               NTIS Financial Statements for FY 2000              FSD-12857(2)   03/01




Commerce OIG Semiannual Report                               97                          March 2001
                                                                 Financial Related Audits
                                                                            Appendix A-4

                                                                                    Funds to
                                                      Questioned     Unsupported    Be Put to
Agency/Auditee                 Number         Date      Costs            Costs      Better Use

EDA
Bay Area Economic Forum, CA    STL-13173      01/01      --                 --          --

Community Development          STL-13176      03/01      --                 --          --
Commission, Los Angeles
County, CA

East Los Angeles Community     STL-13178(1)   03/01      --                 --       $45,000
Union, CA

East Los Angeles Community     STL-13178(2)   03/01      --                 --          --
Union, CA

Jefferson Parish Economic      ATL-13214      03/01      --                 --       286,686
Development Commission, LA

Lower Chattahoochee Regional   ATL-12618      03/01      --                 --       575,247
Development Center, GA

North East Texas Economic      ATL-13735      03/01      --                 --          --
Development District

Stark Development Board Finance DEN-13741     03/01      --                 --       250,000
Corporation, OH

Tooele City Corporation, UT    DEN-13104      03/01   $1,605,527       $1,605,527       --

Tyler Economic Development     ATL-13734      03/01      --                 --       534,582
Council, TX

ITA
Software and Information       BTD-12650      03/01    163,494              --          --
Industry Association, DC

MBDA
Economic Development Bank      ATL-13950      03/01    268,927          266,405      297,592
for Puerto Rico




Commerce OIG Semiannual Report                         98                            March 2001
Financial Related Audits
Appendix A-4 (Continued)


                                                                                   Funds to
                                                     Questioned      Unsupported   Be Put to
Agency/Auditee                  Number      Date       Costs           Costs       Better Use


NOAA
Review of Allegations of        STL-13177   02/01          --            --           --
Improper Use of Mitchell Act
Funds at the Ringold Hatchery

NTIA
Philadelphia Mayor’s Office     ATL-13174   02/01        164,860       65,738       449,841
of Community Services, PA

TA-NIST
Manufacturing Extension         DEN-13102   11/00          --            --           --
Partnership of Louisiana

SDL, Inc., CA                   DEN-12590   02/01        3,627,336     675,314        --

Genome Therapeutics             DEN-13532   03/01        102,853         --           --
Corporation, MA

Illinois Manufacturing          DEN-12525   03/01        132,440        86,960        --
Extension Center

TPL, Inc., NM                   DEN-13965   03/01         33,757         --           --




Commerce OIG Semiannual Report                      99                             March 2001
                                                                                          Processed Reports
                                                                                                Appendix B


The Office of Inspector General reviewed and accepted 155 financial-related audit reports pre-
pared by independent public accountants and local, state, and other federal auditors. The
reports processed with questioned costs, recommendations that funds be put to better use,
and/or nonfinancial recommendations are listed in Appendix B-1.



Agency                                                                        Audits


Economic Development Administration                                              42

Minority Business Development Agency                                              1

National Institute of Standards and Technology                                   89*

National Oceanic and Atmospheric Administration                                  11

National Telecommunications and Information Administration                         3

Multi-Agency                                                                       6

Agency Not Identified                                                              3

Total                                                                           155



*Includes 83 ATP program-specific audits.




Commerce OIG Semiannual Report                                        100                            March 2001
Processed Financial Related Audits
Appendix B-1


                                                                           Questioned   Unsupported
 Agency/Auditee                           Number Date                         Costs       Costs


 EDA
 Kenai Peninsula Borough                  ATL-09999-1-0661         03/01     $37,500          --
 Economic Development
 District, AK

 NOAA
 The Jason Foundation                     ATL-09999-1-0295         12/00         --            --
 for Education, MA

 TA-NIST
 General Motors Corporation, MI           ATL-09999-1-0066         10/00        --             --

 General Motors Corporation, MI           ATL-09999-1-0067         10/00        --             --

 Allied Signal, Inc., Ceramic             ATL-09999-1-0186         11/00      33,273           --
 Components, CA

 Design Evolution 4, Inc., OH             ATL-09999-1-0188         01/01     98,909            --

 The Black Emerald Group, Inc., MA        ATL-09999-1-0189         03/01      6,226            --

 Pepin Associates, Inc., ME               ATL-09999-1-0191         01/01    37,856             --

 General Motors Corporation, MI           ATL-09999-1-0199         11/00        --             --

 General Motors Corporation, MI           ATL-09999-1-0200         11/00        --             --

 Osmonics, Inc., MN                       ATL-09999-1-0342         03/01     11,070            --

 Brunswick Technologies, Inc., ME         ATL-09999-1-0359         03/01    316,393            --

 E.I. DuPont de Nemours and Company       ATL-09999-1-0481         03/01     12,304            --
 Microcircuit & Component Materials, OH

 Lincoln Electric Company, Inc., OH       ATL-09999-1-0547         12/00     85,414       $ 82,885

 CommerceNet Consortium, Inc., CA         ATL-09999-1-0652         01/01      6,446            --




Commerce OIG Semiannual Report                               101                          March 2001
                Def initions of T ypes of OIG R
                Definitions                   Ree vie ws
                                                  views




                                           OIG Reviews
  Audits                                                 Inspections
  Performance Audits—These audits look at the            Operational Inspections—These are reviews of
  efficiency, effectiveness, and economy of the          an activity, unit, or office, or a contractor or
  Department’s programs, activities, and information     organization that receives funds from the
  technology systems. They may check a unit’s            Department. They focus on an organization, not a
  compliance with laws and regulations, and evaluate     whole program, and are designed to give agency
  its success in achieving program objectives.           managers timely information about operations,
                                                         including current and foreseeable problems.
  Financial Related Audits—These audits review
  the Department’s contracts, grants, cooperative        Program Evaluations—These are in-depth reviews
  agreements, loans, and loan guaranties. They assess    of specific management issues, policies, or
  compliance with laws, regulations, and award terms;    programs.
  adequacy of accounting systems and internal con-
  trols; allowance of costs; and the degree to which a
  project achieved the intended results.                 Systems Evaluations—These are reviews of
                                                         system development, acquisitions, operations, and
                                                         policy in order to improve efficiency and
  Financial Statements Audits—These audits               effectiveness. They focus on Department-wide
  determine whether a reporting entity’s financial       computer systems and other technologies and
  statements are presented fairly in accordance with     address all project phases, including business process
  generally accepted accounting principles, the entity   reengineering, system definition, system
  has an internal control structure that provides        development, deployment, operations, and
  reasonable assurance of achieving the control          maintenance.
  objectives set forth by OMB, and the entity com-
  plied with laws and regulations that could have a
  direct and material effect on the financial state-
  ments, the Federal Financial Management Improve-
  ment Act, and other laws as prescribed by OMB.




Commerce OIG Semiannual Report                              102                                      March 2001
Glossary of Abbreviations


A.C.E..........................................................................................................Accuracy and Coverage Evaluation
ATP...................................................................................................................Advanced Technology Program
BEA.....................................................................................................................Bureau of Economic Analysis
BXA................................................................................................................Bureau of Export Administration
CAMS..................................................................................... Commerce Administrative Management System
CIO...........................................................................................................................Chief Information Officer
CPA........................................................................................................................Certified Public Accounting
CRADA..............................................................................Cooperative Research and Development Agreement
ECCN.......................................................................................................Export Control Classification Number
EDA.....................................................................................................Economic Development Administration
ESA......................................................................................................Economics and Statistics Administration
GAO........................................................................................................................General Accounting Office
GPRA...............................................................................................Government Performance and Results Act
GWAC.........................................................................................................Government-wide Agency Contract
IG..........................................................................................................................................Inspector General
IT..................................................................................................................................Information Technology
ITA................................................................................................................International Trade Administration
MAF..................................................................................................................................Master Address File
MBDA.................................................................................................Minority Business Development Agency
MEP..........................................................................................................Manufacturing Extension Partnership
NEC...............................................................................................Nonproliferation Export Control Cooperation
NIST...........................................................................................National Institute of Standards and Technology
NMFS............................................................................................................National Marine Fisheries Service
NOAA...................................................................................National Oceanic and Atmospheric Administration
NTIA.....................................................................National Telecommunications and Information Administration
NTIS......................................................................................................National Technical Information Service
NWS.........................................................................................................................National Weather Service
OI.................................................................................................................................Office of Investigations
OIG.........................................................................................................................Office of Inspector General
OMB............................................................................................................Office of Management and Budget
RLF..................................................................................................................................Revolving Loan Fund
TA............................................................................................................................Technology Administration
US&FCS..................................................................................................U.S. and Foreign Commercial Service
USPTO.........................................................................................................U.S. Patent and Trademark Office




Commerce OIG Semiannual Report                                                     103                                                        March 2001
                               Office of Inspector General
                                   Organization Chart

                                                                      Inspector
               Office of                                               General                                              Office of
            Compliance and
                                                                      Deputy                                                Counsel
            Administration
                                                                 Inspector General

              Office of
                                                                                                                         Office of
          Inspections and
                                                                                                                    Systems Evaluation
        Program Evaluations



                             Office of                                                                           Office of
                              Audits                                                                          Investigations



Headquarters          Financial Statements               Regional                   Financial Fraud            Investigative              Investigative
   Audits                    Audits                       Audits                         Unit                   Operations                  Services




                                                  OIG Points of Contact
Inspector General ................................... (202) 482-4661          Office of Counsel .................................... (202) 482-5992
Congressional/PCIE Liaison ................... (202) 482-3052                 Office of Inspections and Program Eval. . (202) 482-2754
Office of Audits ....................................... (202) 482-1934       Office of Investigations ............................ (202) 482-0934
Office of Compliance and Admin. ............ (202) 482-0231                   Office of Systems Evaluation .................. (202) 482-6186
                                           TDD Number ................................... (202) 482-4948
                                           Media Inquiries ................................. (202) 482-5992
                                           REQUESTS FOR REPORTS:
                                           Telephone ........................................ (202) 482-0231
                                           Internet E-Mail ................................. oigreports@oig.doc.gov
                                           OIG HOTLINE:
                                           Telephone ........................................ (202) 482-2495 or (800) 424-5197
                                           Internet E-Mail ................................. oighotline@oig.doc.gov

                                                         OIG Internet Home Page
                                               http://www.oig.doc.gov
